<html>
<title> - PROPOSED FISCAL YEAR 2005 BUDGET REQUEST FOR THE DEPARTMENT OF THE INTERIOR</title>
<body><pre>[Senate Hearing 108-401]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-401

  PROPOSED FISCAL YEAR 2005 BUDGET REQUEST FOR THE DEPARTMENT OF THE 
                                INTERIOR

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

 TO CONSIDER THE PRESIDENT'S PROPOSED FISCAL YEAR 2005 BUDGET FOR THE 
                       DEPARTMENT OF THE INTERIOR

                               __________

                           FEBRUARY 12, 2004


                       Printed for the use of the
               Committee on Energy and Natural Resources


                                 ______

83-959              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                 PETE V. DOMENICI, New Mexico, Chairman
DON NICKLES, Oklahoma                JEFF BINGAMAN, New Mexico
LARRY E. CRAIG, Idaho                DANIEL K. AKAKA, Hawaii
BEN NIGHTHORSE CAMPBELL, Colorado    BYRON L. DORGAN, North Dakota
CRAIG THOMAS, Wyoming                BOB GRAHAM, Florida
LAMAR ALEXANDER, Tennessee           RON WYDEN, Oregon
LISA MURKOWSKI, Alaska               TIM JOHNSON, South Dakota
JAMES M. TALENT, Missouri            MARY L. LANDRIEU, Louisiana
CONRAD BURNS, Montana                EVAN BAYH, Indiana
GORDON SMITH, Oregon                 DIANNE FEINSTEIN, California
JIM BUNNING, Kentucky                CHARLES E. SCHUMER, New York
JON KYL, Arizona                     MARIA CANTWELL, Washington

                       Alex Flint, Staff Director
                   Judith K. Pensabene, Chief Counsel
               Robert M. Simon, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
                 Carole McGuire, Deputy Staff Director
                David Brooks, Democratic Senior Counsel


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Bingaman, Hon. Jeff, U.S. Senator from New Mexico................     3
Campbell, Hon. Ben Nighthorse, U.S. Senator from Colorado........     5
Domenici, Hon. Pete V., U.S. Senator from New Mexico.............     1
Johnson, Hon. Tim, U.S. Senator from South Dakota................     6
Norton, Hon. Gale A., Secretary, Department of the Interior......     8
Smith, Hon. Gordon, U.S. Senator from Oregon.....................    36
Thomas, Hon. Craig, U.S. Senator from Wyoming....................     5

                                APPENDIX

Responses to additional questions................................    45

 
  PROPOSED FISCAL YEAR 2005 BUDGET REQUEST FOR THE DEPARTMENT OF THE 
                                INTERIOR

                              ----------                              


                      THURSDAY, FEBRUARY 12, 2004

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                   Washington, D.C.

    The committee met, pursuant to notice, at 10:03 a.m., in 
room SD-366, Dirksen Senate Office Building, Hon. Pete V. 
Domenici, chairman, presiding.

          OPENING STATEMENT OF HON. PETE V. DOMENICI, 
                  U.S. SENATOR FROM NEW MEXICO

    The Chairman. The meeting will please come to order.
    First let me thank you, Madam Secretary, for coming today. 
You probably know that there is a transportation bill up on the 
floor. Some of the Senators are there. Some will leave there 
and come here, and the ones that cannot make it will pose their 
questions to you in due course and they can be responded to by 
you as quickly as possible.
    I have a short opening statement, and then I will yield to 
Senator Bingaman and we will have a series of questions 
following it.
    First of all, you have a very vast jurisdiction that 
concerns a lot of the Senators on this committee. It is no 
surprise that they choose this committee because they have a 
genuine interest, whether it be the forests, the BLM, whatever, 
Indian rights, et cetera. We want very much to accommodate 
them, and we want to establish as good a working relationship 
with you and your chief staff people as we possibly can. We 
want to get answers where there is no reason to argue. We do 
not want to not get the answers because we do not ask. We want 
to establish a policy of openness towards you, and we would 
hope it would be the same the other way around.
    So it is obvious I extend a welcome to you, and I hope that 
we can complete the first round of testimony on the 2005 budget 
of your Department this morning.
    I am also pleased that Lynn Scarlett--is that how you say 
it?
    Ms. Scarlett. Yes.
    The Chairman. The Assistant Secretary for Policy, 
Management and Budget is here today. Senator Bingaman, I was 
not properly informed and I do not know if you were or not, but 
that lady does a lot of work in the Department. That one over 
there.
    [Laughter.]
    Ms. Scarlett. Thank you.
    The Chairman. In fact, the Secretary is quite certain that 
she could not do her job without her. So we are glad she came 
and we thank her for her many, many hours serving the 
Department.
    I am very pleased that you are here, Senator, so we can 
proceed with this as quickly as we can, and I thank you for 
your abiding interest in this subject.
    I would first like to congratulate the Department on its 
work to lay out a strategic vision, and for its efforts to 
improve the performance and management and accounting functions 
of your agency. It is no small job you have undertaken. We have 
been expecting that of the Departments, but I can tell you that 
the Energy Department claims they are the first one to have 
completed it all. We have had no opportunity, nor do I think we 
will, to determine whether it is right or not, but you are 
right behind them as I understand.
    This year, the President has requested $11 billion in 
current appropriations for those agencies within the 
Department. That represents a $250 million increase overall 
above the fiscal year 2004 level. Now, we understand that that 
does not mean that every single item in your budget got a piece 
of that $250 million. Some got reduced and some got more. It is 
hard for us to put all that together for a hearing like this, 
but for the programs that came down, we will hear the hue and 
cry before too long, and we might have to get you back or get 
some questions to you.
    The overall budget represents a 2.3 percent increase as 
proposed, and that is a near-flat budget when you take 
inflation into account. But it is the largest Department of the 
Interior budget in history.
    I should also note that the Department is charged with the 
operation of programs that will bring in an estimated $10.1 
billion in receipts in fiscal year 2005. This is one of the 
work horse agencies for the Federal Government. With the 
President's continuing and necessary emphasis on defense and 
homeland security, many Departments, including Interior, are 
feeling the pinch. However, we must remember that the 
Department of the Interior is actively engaged in securing our 
most important national monuments against terrorist attacks. It 
is a major challenge for the Department to protect national 
park sites such as the Statue of Liberty and the Washington 
Monument, and I want to congratulate you, Madam Secretary, for 
the progress you have made on this front.
    In spite of the budget limitations, there are some good 
proposals in this budget that are new. I am pleased to see that 
the President has committed to the recently enacted Healthy 
Forests legislation with a request for $209.3 million, if I 
understand the budget correctly, for hazardous fuel reduction 
activities, and I will have some questions about that.
    The West in general, and Senator Bingaman's and my State 
specifically, continues to face the prospects of long-term 
drought. Many members will want to discuss the administration's 
water initiative in greater detail. I might say in all honesty 
the lack of a significant water policy initiative.
    We will have to look at the budget for the U.S. Geological 
Survey. Proposed reductions in USGS research, if adopted, could 
undermine the critical role that it plays in water resource 
management.
    Good stewardship of the public lands is our major task, as 
it is yours, and I think the President's Interior budget 
reflects the commitment. We hope you can convince us that it is 
adequate.
    I am pleased to note that the Department has made real 
progress in addressing the maintenance backlog of the National 
Park System. I also commend you, Madam Secretary, for proposing 
reforms for the abandoned mine lands program. We have a Senator 
here who is vitally interested and he may not agree that the 
reforms are adequate or that we ought to proceed with what you 
recommend precisely as recommended. This program is scheduled 
to expire in September. I made a commitment in the energy 
conference to take up this issue early in the session, and we 
will be holding hearings on that very soon. Although I do not 
think the Department's proposal goes far enough in addressing 
some of the concerns of a number of our colleagues, it is 
important. It is an important step that you take, and I look 
forward to working with the Department in that area, as do many 
Senators.
    These are a few of the issues that the committee will 
discuss with you today. I am pleased that you could join us. We 
look forward to a summary of your testimony which will be made 
a part of the record.
    I now turn to my ranking member, Senator Bingaman. Then we 
will proceed with some questions.
    Senator Bingaman.

         STATEMENT OF HON. JEFF BINGAMAN, U.S. SENATOR 
                        FROM NEW MEXICO

    Senator Bingaman. Thank you very much, Mr. Chairman.
    Welcome, Secretary Norton.
    Let me point out a couple of concerns that I have before we 
get to the statement by the Secretary. First, in the Land and 
Water Conservation Fund, the claim is again this year that the 
administration is asking for full funding of $900 million. I 
really do think that this is something akin to a budgetary 
shell game that we see being played again this year. My 
definition of full funding of the Land and Water Conservation 
Fund would essentially mean the funding level, the $900 
million, committed to the two programs that are authorized to 
be funded in the Land and Water Conservation Fund. That is 
Federal land acquisition first and, second, a State open space 
grant program.
    Now, when you look at what is actually requested for 
Federal land acquisition, it is $220 million. When you look at 
what is requested for the State grant program, it is $94 
million. So the total comes up to $314 million, which is a 
third of the authorized level. Everything else in the $900 
million is extraneous to the Land and Water Conservation Fund 
authorized purpose.
    So we have had this discussion before. I just once again 
express my frustration at the continued effort to claim full 
funding for a program when clearly that is not what is being 
requested.
    Second, in this area of water, the administration came up 
with its Water 2025 initiative, which in concept I think is 
worthy of support. Unfortunately, again I have got real 
problems with what is being requested in the budget. As I see 
it, the administration is proposing an $11.6 million increase 
in Water 2025 for the Bureau of Reclamation, but it is also 
proposing $25 million in cuts in other Bureau of Reclamation 
programs that support conservation and efficiency and 
collaboration and technology initiatives.
    On top of that, the budget proposes a 64 percent cut in the 
title 16 water reclamation and reuse projects, despite the 
endorsement of water reuse in this Water 2025 initiative.
    I have real doubts as to whether what is proposed 
represents a real commitment to dealing with the water issues 
in the West.
    Let me mention one other major concern that I have, Mr. 
Chairman. This is an unfortunate subject to have to raise, but 
I do not think we have ever had a period that I have observed 
in the 21 years I have been here where we have had such poor 
levels of response from the Department, and let me cite two 
examples of what concerns me here.
    I wrote, Secretary Norton, to you in September of last year 
requesting information about the NFL kickoff event on the Mall. 
That was in connection with an amendment that I was going to 
offer to the Interior appropriation bill. You never replied. 
Instead, we did get a response back from one of your staff on 
December 17. That was 3 months after we wrote. That was more 
than 2 months after the Senate voted overwhelmingly for the 
amendment that I was trying to get information relevant to, and 
it was more than a month after President Bush had signed the 
bill into law that included the amendment.
    In the reply, the staff member that replied to me said that 
the Department had chosen to treat my questions ``in accordance 
with the Freedom of Information Act.'' There are various 
exemptions under that act which he said would allow him to 
withhold the information and he did note that he was going to 
graciously not charge me the $16.70 usual for answering a 
letter, which I appreciated.
    [Laughter.]
    Senator Bingaman. Congress enacted the Freedom of 
Information Act to broaden the rights of any person to obtain 
government information. By its own language, it does not apply 
to the Congress. The D.C. Circuit has said that committee 
chairs and ranking members and other committee members and, 
indeed, all members of Congress are not covered by this. So I 
have a real problem with the lack of responsiveness in that 
regard.
    Let me mention one other area of lack of responsiveness. 
For the second consecutive year, your Department has failed to 
give the committee the detailed budget justifications for most 
of the agencies in the Department. This makes it difficult for 
us to prepare detailed questions about the budget. That 
happened last year, and after last year's hearing, several of 
us, Senator Akaka, Senator Cantwell, Senator Feinstein, Senator 
Wyden, and myself, submitted questions that we requested be 
answered in writing. The Department never has responded. To me 
that is an unacceptable level of response.
    I hope that we can cure this problem, but we have a serious 
breakdown in communication from the Department to at least this 
member on this committee and I hope that that can be addressed. 
I will have some questions on it in the future here.
    Thank you.
    The Chairman. Thank you, Senator Bingaman.
    Senators, there are only five of us. Would you like to have 
a few opening remarks before we start the questions or would 
you want to proceed?
    Senator Johnson. Just a small one.
    Senator Campbell. Proceed with questions.
    The Chairman. He would like to have a few minutes. Would 
you like to have a few, Senator?
    Senator Thomas. Yes.
    The Chairman. All right. Let us go, Senator.

         STATEMENT OF HON. CRAIG THOMAS, U.S. SENATOR 
                          FROM WYOMING

    Senator Thomas. Thank you.
    Welcome, Madam Secretary. Ms. Scarlett, good to see you 
again. We are delighted that you are here and ready to move 
forward on this.
    Obviously, there are a lot of things we are concerned 
about. The parks. I am pleased there is an addition to the park 
funding. I am a little confused about having a $1 million 
increase and allocating $1.1 billion to backlog. I hope you 
will explain that a little bit.
    The AML thing was already mentioned. I think there needs to 
be some fairness and payments there. I am surprised that we do 
not do it a little more like the mineral leasing where the 
State that is supposed to get the money actually gets the 
money, and that has not been the case. So we need to fix that 
certainly.
    ESA. We talk about endangered species and more money there 
and more money for listing, when the fact is we have listed 
2,000 species and recovered about 15. So it seems to me that is 
not the right emphasis.
    Land purchase. I am glad that you are saying we are not 
going to use the Land and Water Conservation Fund for land 
purchase. We have got enough Federal land, frankly, and we 
ought to be making exchanges in my view where there needs to be 
additional land there.
    Wild horses. I want to talk a little about that. We gather 
them, but we do not know what to do with them after we have 
gathered them. I think you are going to have to come up to the 
snubbing post on some of these things and make some decisions.
    Finally, the fee demo project. We dealt with that 
yesterday. I know that you would like to go further. We agreed 
to have some more hearings and to take a look at the other 
agencies in addition to parks.
    So I have a questions, as you might imagine. Thank you for 
being here, and I look forward to visiting with you.
    The Chairman. Senator Campbell.

          STATEMENT OF HON. BEN NIGHTHORSE CAMPBELL, 
                   U.S. SENATOR FROM COLORADO

    Senator Campbell. Yes, Mr. Chairman. I have some questions 
dealing with the Cobell lawsuit, with some water impoundments 
in our area and with fire suppression.
    Senator Thomas did make a comment about the wild horse and 
burro program which is something I have been concerned about. 
It is not a real big deal I guess when you look at all the 
other areas where we have to focus, but I did want to draw your 
attention to something that I think is very positive happening 
with that program, and that I am not sure some of my colleagues 
know about it.
    There is an adoption program, as many of us know, but in 
the State of Colorado, there is a youth riding group called the 
Westerneers. I think you are probably familiar with this since 
you came from Colorado, Madam Secretary. Almost all of the 
horses in that program were captured in Nevada or somewhere. 
They are all wild horses, all mustangs or cross-breds with 
feral horses. They are then taken to the Colorado State 
Penitentiary, of all places, where volunteer inmates break them 
and train them, and then they are donated to these youngsters. 
I think all the youngsters have to pay is like $100 or 
something and that is for the inoculations that the horses have 
to have. I think it is one of the real positive programs that 
has been initiated by the Federal Government with the help of 
the State.
    A lot of these kids are at-risk kids. They do not have the 
money to buy a horse, and I think it has probably done more in 
that area of Colorado to get kids in some kind of productive, 
positive endeavor than anything I know of.
    These youngsters go all over the country. All the parents 
and all the people that work with it are all volunteers. There 
is not one single paid staff, and even the people that drive 
the trucks and run their little museum and do the training and 
so on are all volunteers. I had a chance to visit the other 
day, and they were celebrating their 50th anniversary. So there 
were actually grandmothers and grandfathers in there, who had 
been in that same program, watching their grandkids. It has 
gone on that long.
    I just wanted to point that out because I know some of us 
in the West are awful concerned about the explosion of the wild 
horses and burros and what is happening out there. But it is a 
terrific program and if you have not visited it, I would highly 
recommend it.
    Thank you. Thanks, Mr. Chairman.
    The Chairman. Thank you, Senator.
    Senator Johnson.

          STATEMENT OF HON. TIM JOHNSON, U.S. SENATOR 
                       FROM SOUTH DAKOTA

    Senator Johnson. Thank you, Mr. Chairman and ranking member 
Bingaman.
    I will submit a full statement for the record. I did want 
to raise just one issue, and I want to welcome Madam Secretary 
to our hearing today.
    I am deeply concerned about the Department of the 
Interior's commitment to the USGS remote sensing program, and I 
did want to raise that just quickly. The LANDSAT program has 
collected and distributed a 32-year continuous record of the 
land surfaces of the world. It is a world resource. The program 
has been so successful, in fact, that a significant portion of 
the program's budget is covered through outside data sales. I 
only wish more Federal programs were offset in cost to the 
degree that this program has been over the years.
    Unfortunately, a hardware program aboard the LANDSAT 7 
satellite has resulted in degraded images, and this in turn 
has, obviously, resulted in a sharp decline in revenue. I am 
deeply concerned that the Department of the Interior and USGS 
not allow the data collection facilities to be diminished due 
to this shortfall.
    An interagency working group, it is my understanding, is 
reviewing the best possible options for NASA to develop and 
deploy the next generation LANDSAT satellite and there is 
strong support to maintain the long-term viability of the 
LANDSAT mission and restore the value of the program's data 
collection and distribution capabilities.
    So it would be, I think, irresponsible right now to allow 
our data collection facilities to degrade while we are working 
to expedite efforts to upgrade the hardware. We need to find a 
way to preserve the full capabilities of these institutions so 
that we may properly and successfully maintain and operate the 
next generation LANDSAT mission in addition to our current 
efforts to maximize the data that can still be received from 
LANDSAT 7.
    So I just want to say, Mr. Chairman, I look forward to 
working with the Secretary to see what we can do to allocate 
the necessary resources so that our remote sensing data 
collection facilities continue to be the strong program that it 
is. I have mentioned to Secretary Norton that this is an issue 
that Senator Daschle and we do not currently have a House 
member from South Dakota--would very much appreciate a brief 
sit-down discussion with the Secretary to see if we can find 
ways to solve what is a problem that has global consequences.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Johnson follows:]

         Prepared Statement of Hon. Tim Johnson, U.S. Senator 
                           From South Dakota

    Thank you, Chairman Domenici, for scheduling today's hearing on the 
Department of the Interior's Fiscal Year 2005 budget. I am pleased that 
the Committee was able to secure Secretary Norton's presence for this 
important hearing. There are few departments within the Federal 
Government that have a more immediate impact on the direction of the 
Energy Committee, as well as the citizens of our State's than the 
Department of the Interior and related agencies.
    Given the precarious position of the federal government's finances, 
I can not begin any discussion of a particular department's budget 
without first commenting on the priorities and direction afforded to 
our country by the President's fiscal stewardship. The President's 
budget projects an all-time record budget deficit of $521 billion. In 
February 2003, the FY 2004 budget submitted by President Bush 
anticipated a $304 billion deficit. However, the picture is even 
bleaker if you exclude the surplus receipts of the Social Security 
Trust Fund, the actual size of the projected FY 2004 budget balloons to 
$696 billion.
    The President's budget pledges to reduce the size of the deficit in 
half to $237 billion by the end of the decade. Keep in mind, however, 
that last February, the President's FY 2004 budget predicted a 2004 
budget deficit of $304 billion, which is $217 billion less than what 
the White House is predicting today--$521 billion.
    The credibility of the White House to tackle the massive deficit is 
further eroded because the FY 2005 $401 billion defense request does 
not include funding for ongoing operations in Iraq or Afghanistan. This 
essentially ensures the President will submit a post-election 
supplemental appropriations request.
    I want to turn my remarks to discussing a matter directly related 
to the Department of the Interior and specifically the future of earth 
imagery satellite recovery and why it is important that the Department 
of the Interior maintain the primary role for this crucial mission. 
Thirty-eight years ago, the Department of the Interior--under the 
direction of Secretary of the Interior, Stewart Udall--announced the 
urgent need for an earth resources observation systems program that 
would, and I quote, ``. . . apply space technology towards the solution 
of many pressing natural resource problems being compounded by 
population and industrial growth.'' As a result of this vision, in 
1972, the United States launched its first Earth Resources Technology 
Satellite (later renamed Landsat 1). Today, Landsat 5 and 7 are still 
collecting global land surface coverage on a daily basis. This 32-year 
continuous record of the land surfaces of the world represents the most 
successful long-term ``civil land remote sensing satellite system'' 
deployed by the United States or any other space-faring nation.
    Today, there are many operational and research applications of 
moderate resolution--Landsat--data. They include, just to name a few, 
wildfire management and mitigation; environmental monitoring; emergency 
response; watershed analysis; coastal hazards analysis; homeland 
security and many more. In fact, moderate resolution satellite data has 
become a very important tool for managing and predicting the 
responsible development of America's natural resources. It is not an 
understatement to say that moderate resolution satellite data is 
critical to the environmental integrity of the Earth.
    The program has become so successful that a significant portion of 
the program's budget is recovered through data-sales to outside 
sources. And although it has proven unfeasible at this time, serious 
consideration has even been devoted to privatizing the entire program. 
I hope that someday the private sector may implement a remote sensing 
program, but until that occurs, I believe it would be a tremendous 
error to jeopardize 32 years of successful, continuous data collection 
and archiving. Therefore, I am concerned that the Fiscal Year 2005 
Department of the Interior budget threatens to turn back on the 
progress and commitment to the Landsat program. The Administration's 
request for the U.S.Geological Survey's National Mapping Division, 
which partially funds the functions of the Landsat program is proposed 
to be cut by $10 million dollars. This short-sighted reduction will 
damage the important contribution made to our economy and environment 
by the Landsat land surfacing mission.
    The Department of the Interior should be responsible for preserving 
the data collection and distribution facilities to ensure the value of 
the next-generation Landsat satellite. An interagency working group is 
reviewing the best possible options for NASA to develop and deploy the 
Landsat Data Continuity Mission (LDCM). That report is expected to be 
presented later this month. As we seek to replace the malfunctioning 
LANDSAT hardware and restore the full value of the critical program, it 
is vital that the Department of the Interior and USGS preserve the full 
data collection capabilities to support the current mission and the 
next generation Landsat mission.
    Again, thank you for holding this hearing, Mr. Chairman, and I look 
forward to directing my questions to Secretary Norton.

    The Chairman. Thank you, Senator.
    Madam Secretary, your statement is in the record. We very 
much would like you to summarize it and then we will proceed to 
ask questions. If you choose, because something has been 
raised, to proceed beyond or collateral to your statement now, 
just do it as part of your statement. If you want to wait until 
later, we will get back to it.

         STATEMENT OF HON. GALE A. NORTON, SECRETARY, 
                   DEPARTMENT OF THE INTERIOR

    Secretary Norton. Thank you.
    Mr. Chairman and members of the committee, I am very 
pleased to join you today to highlight the Department of the 
Interior's budget for fiscal year 2005.
    Interior, as you know, manages some of the most wonderful 
lands in America, our fantastic wildlife resources. We work 
with our Native American tribes. We are involved in preserving 
America's cultural and historic legacies. The Department of the 
Interior's mission is an inspiring one and it is also 
challenging because the world around us is complex. 
Expectations evolve. New technologies emerge, and our mission 
encompasses so much. We seek to leave a legacy of healthy lands 
and waters, thriving communities, and dynamic economies.
    Our budget provides the single clearest statement of how we 
plan to work toward our goals in the upcoming year. Our overall 
budget request is $11 billion. Interior is perhaps unusual 
among Departments in that we pay through our revenues for most 
of the income to our Department. We had a little over $10 
billion in revenue for this past year.
    Our 2005 budget request is an increase of $250 million, or 
2.3 percent, over the Department's 2004 enacted budget. Our 
budget fulfills the President's commitments to fully fund the 
Land and Water Conservation Fund, fix Bureau of Indian Affairs 
schools, reestablish healthy forests and rangelands, and 
address the backlog of park repair and maintenance needs.
    Our budget will help us achieve our vision of healthy 
lands, thriving communities, and dynamic economies by 
accelerating the cleanup of abandoned mine lands, advancing 
trust reform, expanding opportunities for cooperative 
conservation and mitigating water problems in the West through 
Water 2025.
    In each of these endeavors, we are harnessing the 
collective creativity of our employees and our partners. For 
example, abandoned mine land reclamation has long presented 
challenges to communities. Since the Surface Mining Act was 
established in 1977, Interior has partnered with States, 
tribes, local governments, and nonprofit groups to reclaim 
225,000 acres of damaged and dangerous lands.
    Despite all of the work done over the past 2 decades, more 
than 3.5 million Americans still live less than 1 mile from 
dangerous abandoned coal mines. I had the opportunity to visit 
Pennsylvania a few days ago and see their historic mine 
activities. They are right in the midst of communities. There 
are 100-foot to 400-foot sheer dropoffs into ponds that have 
submerged dangers. It is tremendously dangerous, and over the 
past few years, there have been a number of people who have 
died in that. I believe it is 100 people since 1999 have died 
at various abandoned mine sites.
    The allocation formula under the act has made sense at the 
time that the act was passed where the current production was 
in the same area as where the historic production had been. But 
today the growth in Western mining has caused the historic 
production and the current production to diverge. We want to 
work with the committee, with the Senators in order to find a 
way to more appropriately realign the funding and the problems. 
Today about 71 percent of abandoned mine land grants go to 
States based on current coal production. We estimate because 
the allocation does not go to where the problems are, that it 
would take 60 years to finish reclaiming the most dangerous 
abandoned mine sites in Pennsylvania and 50 years in West 
Virginia.
    Under our proposal, we want to eliminate the significant 
health and safety problems within 25 years. We also recognize 
the States that have received commitments for funding under the 
current production allocation, and our proposal would freeze 
that pot of funds and repay that to the States that have the 
expectation accumulated over those years over a 10-year period. 
So we want to balance the interests of both the current 
producing States and the States that have the serious problems.
    To support our proposal, we are requesting $244 million for 
the abandoned mine land program. This is the largest amount 
requested since States established their programs almost 20 
years ago. Our proposal will speed resolution of the serious 
health and safety problems. By acting now to refocus the 
program and direct funding to the highest priority sites, 
abandon mine land reforms will save $3 billion over the life of 
the program.
    Another longstanding challenge that the Department faces is 
that of Indian trust management. I know that Senator Campbell 
is certainly familiar with that from the Indian Affairs 
Committee, and many of you are also very aware of that. But 
because it is the largest growth area in the Department of the 
Interior budget during the 3 years that I have been in office, 
I would like to address that so that you are aware of the 
problems. There are many problems in that area that, if not 
corrected now, could swallow the budgets of other programs.
    In 2003, the Department began reorganizing trust functions 
in the Bureau of Indian affairs and the Office of the Special 
Trustee. The new organization resulted from a detailed analysis 
and a year-long consultation process with tribal leaders. Our 
reorganization reflects the views that we received from those 
tribal leaders and should allow us to have a much better 
customer service focus to our trust activities. We believe it 
is very important to have communication with our beneficiaries 
and to have people who are clearly focused on meeting our trust 
commitments, and that is what this reorganization will do.
    The chart that we have here shows the growth in our trust 
budget over time, including BIA and the Office of the Special 
Trustee. This year we are requesting $641 million for that 
program.
    I would now like to focus on the fractionation of Indian 
lands. Because we allotted lands to individual Indians in the 
1880's up to the 1930's, we have millions of acres that are 
held by the United States in trust for individual Indians. They 
have passed through time, because most were passed without 
wills, and divided among the heirs according to the laws of 
each of the States. If we look at this example and assume that 
the individual allottees back in 1887 had four children and 
that their four children had four children and go on through 
each of the generations, by the time we reach the fifth 
generation, each heir owns less than half a percent of the 
original 40 acres.
    Now, we have seen this problem exacerbated because of the 
laws of various States and because of the situations in various 
areas. I just visited the Gila River Indian community in the 
Phoenix, Arizona area, and there, for example, we have someone 
who owns one-five-hundred-thousandth of an interest in a 10-
acre parcel.
    For each of these tiny fractions of land--and we have 
thousands and thousands of parcels that have tiny, tiny 
fractions, we still have to probate the estate of the person 
who holds that interest of land when they die. We have to keep 
a bank account that may have a penny in it and cost us $130 a 
year to maintain in order to keep track of the proceeds from 
that land. We have so many things that we are doing to manage 
these tiny fractions that really do not make sense, and if 
those are allowed to continue, then they will crowd out all of 
our other Indian trust programs and other funds available for 
Department of the Interior activities.
    We have minutes of a meeting that took place in 1934. They 
identified this problem and things that needed to be done to 
correct it. 70 years later, there have been some attempts in 
Congress to make changes, but those have been unsuccessful. 
Every administration for the last 70 years has kicked the can 
down the road and just left the problems to be resolved for 
future generations.
    We are attempting to resolve those problems. We have 
committed funding that will bring our buy-back program, our 
Indian Lands Consolidation Act program to purchase these tiny 
fractions to $75 million. That is admittedly just a small 
fraction of the amount of money that would be necessary to buy 
back all of those lands. We are trying to make sure that 
program operates effectively and efficiently so that we can get 
this problem under control.
    I am very proud of the efforts of the people in my 
Department to try to correct these problems. It is a century-
old problem and we are trying to get that resolved very 
quickly. We appreciate the cooperation of the people in Indian 
country as we implement our changes.
    Let me now move on to the issue of healthy forests and 
catastrophic fires. Our Nation's communities must not continue 
to experience the unnatural catastrophic fires that have 
devastated homes and habitat in recent years. We must restore 
forests and rangeland health.
    On December 3 of last year, President Bush signed the 
Healthy Forests Restoration Act. That legislation will help us 
reduce threats from destructive wild fires. It will enable us 
to restore forest and rangeland health and encourage public 
participation in selecting and implementing projects to reduce 
the unnaturally high levels of brush and small trees that we 
find in our forests.
    Our 2005 budget provides a $25 million increase to conduct 
fuels reduction projects. In total, Interior's budget includes 
over $300 million to advance the goals of the new legislation. 
Our proposed investments, together with that of the Forest 
Service, will provide a total of $760 million to meet the goals 
of the Healthy Forests Restoration Act. Our new stewardship 
contracting authority will also help us to partner with small 
businesses, nonprofits, and local communities to restore 
healthy forests and reduce catastrophic fires.
    Partnerships provide the keystone for achieving our 
conservation goals. We have funding that includes many programs 
that you are already familiar with that are cooperative 
approaches to conservation. These are grant programs where we 
work with States, nonprofit organizations, with landowners, and 
others to restore habitat on private lands, to enhance 
wetlands, to take care of sensitive riparian areas, reduce 
stream bank erosion, and so many other types of conservation 
activities.
    As I have traveled around the country, I have been so 
impressed by the enthusiastic involvement of people in each of 
their projects. These are projects that overall total $507 
million.
    Our 2005 budget proposal provides $58 million for invasive 
species. This will let us partner with other agencies, States, 
tribes, and communities to combat brown tree snakes in the 
Pacific Islands, salt cedar that infests areas in the 
Southwest, and many other types of invasive species.
    We have a challenge cost-share program where each of our 
land management agencies works with neighbors and with 
nonprofit organizations. In that program, we have funded in 
2003, 256 projects with more than 700 partners in 40 States and 
Puerto Rico. We have achieved an almost 2-to-1 matching of non-
Federal to Federal funds. So in each of these projects and each 
of these types of activities, we are leveraging involvement of 
the private sector.
    We have an 11-State high plains project that brings 
together communities, agencies, citizens to enhance habitat on 
private lands and conserve declining species. Our budget 
includes a $5 million increase for this high plains partnership 
that will leverage funding by partners and provide conservation 
efforts over the next 10 years on 2 million acres of land. This 
includes a lot of habitat for the sage grouse which is a 
species that we will soon be considering as to whether it 
should be listed on the endangered species list.
    The partnerships will also help us meet Western water needs 
in a context of growing populations and heightened demands. Our 
2005 budget includes $21 million for Water 2025. This involves 
the Bureau of Reclamation and the U.S. Geological Survey in 
efforts to help communities invest in new technologies to 
enhance water supplies, including desalinization, and develop 
conservation efficiency and water marketing projects.
    We have under this year's budget a new program that is a 
challenge grant program to water districts to find ways of 
enhancing irrigation efficiencies, establishing water banks, 
and in other ways making sure that we are operating our 
agriculture efficiently and freeing up water for communities. 
We eagerly await receiving the proposals under that grant 
program.
    We are also striving to provide outstanding opportunities 
for Americans to visit and enjoy this Nation's public lands. 
The President pledged to address the park maintenance backlog, 
and our budget includes $1.1 billion in support of the 
President's commitment to address the deferred maintenance 
backlog. That includes $725 million for park facility 
maintenance and construction, which is a $25 million increase 
over 2004 that is in the Department of the Interior budget. 
There is also $310 million for park roads that is in the 
highway bill.
    We have already undertaken 900 projects to ensure safe 
trails, sturdy roofs, smooth roads, fixed foundations, among 
other items.
    We have also implemented management reforms to ensure that 
these funds are spent wisely and that the maintenance backlog 
will not recur. For the first time in history, the National 
Park Service will, by the end of 2004, have a complete index of 
the condition of all of its facilities. This gives us a 
systematic approach for taking care of repair and maintenance. 
Our budget builds upon these efforts by proposing an increase 
of $22 million in park base funding to help our parks continue 
to provide outstanding recreation and other visitor 
opportunities.
    Central to all of our resource managing programs is making 
sure that we are monitoring our activities to assess the 
results. We are looking at water quality and quantity, at the 
condition of habitat, and whether our management practices are 
being effective.
    Our 2005 budget proposes to increase our monitoring 
efforts. We propose a $5 million increase for Park Service 
tracking of the health of park ecosystems and a $4 million 
increase to strengthen and enhance the Bureau of Land 
Management's resource health monitoring. We propose a $2 
million increase for activities related to the Fish and 
Wildlife Service bird monitoring program and an $800,000 
increase to measure movement in the earth's surface using new 
technology resulting in better information that will help 
protect people living near volcanoes.
    There are many of our programs that require that we improve 
our management, and that is perhaps not as glamorous as some of 
the other things that we talk about. But we have been 
implementing improvements to our management systems. We have, 
in particular, made tremendous advancements in our information 
technology by consolidating systems, and that results in 
significant savings. We are implementing state-of-the-art e-
government initiatives. We are focusing on building 
partnerships and results and moving toward management 
excellence.
    Thank you very much.
    [The prepared statement of Secretary Norton follows:]

         Prepard Statement of Hon. Gale A. Norton, Secretary, 
                       Department of the Interior

    Good morning. I am pleased to be here today before the Committee on 
Energy and Natural Resources to discuss the fiscal year 2005 budget for 
the Department of the Interior. I appreciate the opportunity to 
highlight our priorities and key goals.
    The Department of the Interior's mission is complex and multi-
faceted. We provide recreation opportunities. We provide access to 
resources. We protect some of the Nation's most significant cultural, 
historic, and natural places. We serve communities through science, 
wildland firefighting, and law enforcement. We fulfill trust and other 
responsibilities to American Indians, Alaska natives, and the nation's 
affiliated island communities.
    Interior's mission is also challenging. It is challenging because 
the world around is increasingly complex as expectations evolve, new 
technologies emerge, and our responsibilities to the American people 
increase.
    Above all, our mission is inspiring. We have close connections to 
America's lands and people, whether American Indians and naturalists, 
hikers and hunters, ranchers and recreation enthusiasts, or 
environmentalists and entrepreneurs. Our responsibilities touch the 
lives of individuals across the Nation. How well we fulfill our mission 
influences:

  <bullet> Whether farmers will have water and people can turn on the 
        tap;
  <bullet> Whether our children will enjoy America's grand vistas, 
        places, and history;
  <bullet> Whether we can hike, bird watch, canoe, or hunt and fish; 
        and
  <bullet> Whether we can warm our homes and fuel our transportation 
        systems.

    By fulfilling Interior's mission, we can leave a legacy of healthy 
lands and waters, thriving communities, and dynamic economies. That 
legacy depends on our ability to work together across landscapes and 
with communities. It depends on the efforts of our 70,000 employees, 
200,000 volunteers and thousands of partners.

                            BUDGET OVERVIEW

    Our 2005 budget request for current appropriations is $11.0 
billion. The Department anticipates collection of $10.1 billion in 
receipts in 2005, equivalent to 92 percent of our current 
appropriations request.
    The 2005 request includes $10.0 billion for programs funded in the 
Interior and Related Agencies Appropriations Act, an increase of $228.4 
million or 2.3 percent over the 2004 enacted level.
    Our budget also includes $1.0 billion for programs funded in the 
Energy and Water Development Appropriations Act, an increase of $21.8 
million, or 2.2 percent above 2004.
    Interior's 2005 budget request provides the single clearest 
statement of how we plan to work toward our goals in the upcoming year. 
Our budget fulfills the President's commitments to fully fund the Land 
and Water Conservation Fund; address the backlog of park repair and 
maintenance needs; fix Bureau of Indian Affairs schools; and re-
establish healthy forests and rangelands.
    Our 2005 budget also advances other key goals. It accelerates the 
cleanup of abandoned coal mine lands; expands opportunities for 
cooperative conservation; advances trust reform; seeks to mitigate 
water problems throughout the West through Water 2025; and supports the 
goals of the National Energy Plan.

                  ADDRESSING LONG-STANDING CHALLENGES

    Abandoned Mine Lands: Since enactment of the Surface Mining Control 
and Reclamation Act in 1977, the Department has partnered with States, 
Tribes, local governments, and others to reclaim over 225,000 acres of 
damaged and dangerous lands. Despite these accomplishments over the 
past two and a half decades, dangerous abandoned coal mines remain 
within one mile of the homes of more than 3.5 million Americans. Since 
1999 a total of 100 people have died in incidents related to abandoned 
coal mines.
    The primary impediment to completing reclamation of abandoned mines 
is the fundamental imbalance between the goals of the 1977 Act and the 
requirements for allocating funds under the Act. The statutory 
allocation formula limits the ability of the Office of Surface Mining 
to meet its primary objective of abating the highest-priority abandoned 
coalmines. The majority of funding in the program is distributed to 
States on the basis of current production. Yet there is no relationship 
between current production and the number of priority sites in each 
State, which is a function of pre-1977 production.
    Over the past 25 years, the allocation formula has enabled some 
States and Tribes to complete reclamation of all abandoned coal mines. 
Others are decades away from completing work on the most critical, 
high-priority sites. We estimate it will take 60 years to reclaim 
dangerous abandoned mine sites in Pennsylvania and 50 years in West 
Virginia.
    Our 2005 budget proposal seeks to correct this problem. We propose 
to direct reclamation grants to sites where the danger is greatest. The 
reauthorization proposal will allow all States to eliminate significant 
health and safety problems within 25 years and would remove 142,000 
people from risk annually. At the same time, by shifting funds to speed 
resolution of serious health and safety problems, the proposal will 
reduce fee collections and spending by $3 billion over the life of the 
program.
    Under our proposal, States and Tribes that have certified 
completion of high- priority projects will be paid their accumulated 
State share balances in the abandoned mine lands fund as of September 
30, 2004. These payments will be made over a ten-year period. Going 
forward, the grants would be distributed for high priority mine 
reclamation projects.
    The 2005 budget proposes an appropriation of $243.8 million for the 
abandoned mine lands program, including $53.0 million for the initial 
State share balance distribution to certified States and Tribes.
    Indian Trust Programs: Fulfilling the Department's trust 
responsibilities continues as one of our highest priorities and 
greatest challenges. The assets of the trust today include over 56 
million acres of land. On these lands, the Department manages over 
100,000 leases for individual Indians and Tribes. We collect 
approximately $194 million per year from leasing, use permits, sale 
revenues, and interest for 260,000 open individual Indian money 
accounts. About $378 million per year is collected in 1,400 tribal 
accounts for 300 Tribes. In addition, the trust manages approximately 
$2.9 billion in tribal funds and $400 million in individual Indian 
funds.
    For 2005, we are seeking $614 million for our Unified Trust budget, 
a net increase of $161 million.
    In 2003, we began to reorganize trust functions in the Bureau of 
Indian Affairs and the Office of the Special Trustee for American 
Indians. The new organization is based on a detailed analysis and a 
year-long consultation process with tribal leaders. Our reorganization 
reflects a synthesis of the views heard during the consultation 
process. When fully implemented, the new organization will better meet 
fiduciary trust responsibilities, be more accountable at every level, 
and operate with people trained in the principles of fiduciary trust 
management.
    To support continued implementation of the new organization, the 
2005 budget proposes a net increase of $7.2 million, including funding 
for 85 new trust-related positions at the local level. We request an 
additional $4.0 million to quicken the pace at which probate cases are 
resolved.
    Improving our trust organization will not by itself resolve the 
issues that we face in managing the trust. A still greater challenge 
remains. That challenge is the fractionation, or continuing 
subdivision, of individual Indian interests in the land that the 
Federal government holds in trust. Indian trust lands are primarily 
transferred through inheritance. With each passing generation, 
individual interests in the land become further subdivided among heirs, 
each of whom holds a smaller and smaller interest in the land. Many 
acres of trust land are already owned in such small ownership interests 
that no individual owner will derive any meaningful value from that 
ownership. Without corrective action, this problem will grow 
exponentially.
    As the number of interests grows, we expect the cost to the Federal 
government for managing, accounting for, and probating these interests 
to increase substantially, possibly to as much as $1 billion at the end 
of the next 20 years.
    The Indian Land Consolidation program, which acquires small 
ownership shares in allotted land from willing sellers, is a critical 
component of trust reform. We have conducted this program as a pilot 
for several years. The pilot has taught valuable lessons about the need 
to target purchases to maximize return of land to productive use and 
allow closure of accounts associated with fractional interests.
    The 2005 budget proposes an unprecedented amount of $75.0 million 
for Indian land consolidation, an increase of $53.3 million. This 
funding will support an expansion beyond the seven pilot reservations 
to include additional reservations with the most highly fractionated 
lands. On a nationwide basis, we are targeting opportunities to 
purchase the most fractionated interests. Interior plans to use 
contractual arrangements with Tribes or private entities to acquire 
individual interests.
    This commitment to end fractionation will also require legislative 
action to provide for workable probate reform, disposal of unclaimed 
property, and partition of land. We want to continue to work with the 
Congress to find meaningful and constructive solutions to these issues.
    The 2005 budget also proposes funding to address the issue of 
accounting for past transactions in the trust. As the Committee is 
aware, the American Indian Trust Management Reform Act of 1994 requires 
the Secretary of the Interior to ``account'' for ``the daily and annual 
balance of all funds held in trust by the United States for the benefit 
of an Indian Tribe or an individual Indian which are deposited or 
invested pursuant to the Act of June 24, 1938.''
    The Department is currently involved in a major class action, 
Cobell v. Norton, and 25 tribal suits over the Department's management 
of Indian trust funds. On January 6, 2003, as ordered by the District 
Court in the Cobell litigation, the Department filed The Historical 
Accounting Plan for Individual Indian Money Accounts. This plan 
provides for an historical accounting for about 260,000 individual 
Indian accounts over a five-year period at a cost of approximately $335 
million. The accuracy of the transactions would be verified by 
reviewing support documentation on a transaction-by-transaction basis 
for all transactions over $5,000 and by statistically sampling 
transactions under $5,000. The sampling methodology would be designed 
to provide a 99 percent confidence level at any error rate.
    On September 25, 2003, the Cobell court issued a structural 
injunction directing a far more expansive accounting and requiring that 
it be completed under more constrained time lines. We estimate that the 
cost of compliance with the structural injunction would be between $6 
to $12 billion. An appeal from the September decision is pending. The 
Court of Appeals for the D.C. Circuit has stayed the structural 
injunction. In addition, the 2004 Interior Appropriations Act provides 
that the Department is not required to commence or continue an 
accounting for IIM accounts until 2004 or the Congress amends the Trust 
Management Reform Act to delineate the Department's historical 
accounting obligations or until December 31, 2004, whichever occurs 
first.
    The 2005 budget includes $109.4 million for historical accounting. 
This increase of $65.0 million over the enacted 2004 appropriation is 
targeted to provide $80.0 million for IIM accounting and $29.4 million 
for tribal accounting. The budget for IIM accounting is based on the 
estimate of the Department's costs to continue implementation of its 
historical accounting process. This amount may be revised depending on 
how the Court of Appeals rules with regard to the structural injunction 
in the Cobell case and on whether Congress acts to delineate the 
specific historical accounting obligations of the Department as 
suggested in the 2004 Appropriations Act. The Department will continue 
to work with the Congress and trust beneficiaries to consider 
settlement of the historical accounting and related issues.

                       INVESTING IN CONSERVATION

    Healthy Forests and Rangelands: A significant, ongoing challenge we 
face is that of wild land fire and the risks that catastrophic fires 
pose to communities. The fires in California last fall were a poignant 
and tragic reminder that we must care for our forests and rangelands. 
Our Nation's communities must not continue to experience the unnatural, 
catastrophic fires that have devastated homes and habitat in recent 
years.
    This past December, President Bush signed the Healthy Forests 
Restoration Act. Developed with the help of this Committee, this 
landmark bipartisan legislation will help to restore forest and 
rangeland health and reduce threats from destructive wild fires. It 
will also encourage public participation in selecting and implementing 
projects to reduce unnaturally high levels of brush build up and overly 
dense tree stands.
    As part of our $743.1 million wild land fire proposal for 2005, the 
budget includes $209.3 million, a $25.0 million increase over 2004, to 
conduct fuels reduction projects and to monitor the results. In 
combination with forest and range improvement activities funded in 
other Interior programs, the 2005 budget includes over $300 million to 
advance the goals of the Healthy Forests Restoration Act. Including 
funding for the Forest Service, the 2005 budget includes $760 million 
to meet the goals of the Act.
    The 2005 request for the wild land fire program also includes 
$221.5 million, an increase of $28.6 million, to fund suppression 
activities, based on the ten-year average, and an increase of $6.5 
million for preparedness to address increasing costs in aviation 
contracts and for the fire program analysis system.
    Cooperative Conservation: Among Interior's most inspiring roles is 
its mission to conserve lands and waters across America. As we are all 
aware, nature knows no jurisdictional boundaries. Conservation in the 
21st century depends increasingly upon partnerships across a mosaic of 
land ownerships. At Interior, we recognize that we cannot manage 
federal lands successfully unless we are able to work with adjacent 
landowners, States, Tribes, and communities. We also recognize that the 
nation cannot achieve its conservation goals solely by relying upon--
and adding to--the federal dominion of lands.
    These two perspectives underscore the importance of cooperative 
conservation. Through a variety of conservation partnerships, 
Interior's land managers are joining with citizen stewards to remove 
invasive species, reduce stream bank erosion, and enhance habitat for 
threatened and endangered species. Through these partnerships, the 
Department is building the new environmentalism of citizen stewards 
called for by President Bush. These partnerships leverage federal 
dollars by a factor of two or more. They engage Americans in 
conservation. They help us work with citizens to find common ground and 
simultaneously achieve healthy lands, thriving communities, and dynamic 
economies. We look forward to working with members of Congress and 
their constituents in these conservation successes.
    The 2005 budget proposal expands opportunities for conservation 
partnerships with citizens, organizations, and communities throughout 
the Nation. The budget proposes to spend $507.3 million, a 20 percent 
increase, to expand opportunities for conservation partnerships with 
citizens, organizations and communities.
    A cornerstone of our conservation partnership budget is the 
Cooperative Conservation Initiative. The Department has a long history 
of working cooperatively with others to achieve its conservation 
mission. Yet the resources available to land managers to foster 
innovative and collaborative conservation have fallen short of the 
demand. Across the nation, citizens are working to overcome conflict 
and, instead, work together to maintain healthy lands and waters. Our 
Cooperative Conservation Initiative seeks to address this growing, 
giving managers the support necessary to leverage funds with private 
citizens, States, Tribes, communities, and businesses to protect and 
restore habitats, wildlife and plants.
    Our Cooperative Conservation Initiative builds on existing 
conservation partnership programs that have established productive 
relationships with local communities and citizens. In total, we propose 
that this initiative will provide $129.5 million, an increase of $25.5 
million, for a suite of seven programs: the challenge cost share 
programs in the Bureau of Land Management, the Fish and Wildlife 
Service, and the National Park Service; the FWS Coastal program; FWS 
Migratory Bird Joint Ventures; FWS Partners for Fish and Wildlife; and 
Take Pride in America.
    The budget proposes $29.6 million for challenge cost-share 
activities, an increase of $8.4 million over 2004. This request will 
enable land managers to undertake additional natural resource 
restoration and species protection projects on or impacting Federal 
lands. Dynamic partnerships with individuals, Tribes, State and local 
governments, non-profit organizations, and others will support an array 
of projects to restore damaged habitats and lands and achieve the 
conservation goals of the Department's land management agencies. 
Projects require a one-to-one match or better, thereby at least 
doubling the benefits of Federal dollars. The request for the bureau 
traditional challenge cost-share programs is $24.4 million.
    In 2003, challenge cost-share programs funded 256 resource 
restoration projects with more than 700 partners in 40 States and 
Puerto Rico. The ratio of matching non-Federal funds to Federal funds 
was nearly two-to-one, with the Federal portion at $12.9 million and 
total funding at $36.0 million.
    The 2005 budget includes $50.0 million for the Partners for Fish 
and Wildlife program. Through the Partners program, the Fish and 
Wildlife Service has established productive relationships with 
communities and over 30,000 landowners, providing financial and 
technical assistance and restoration expertise to private landowners, 
Tribes, and other conservation partners. Since its inception in 1987, 
the Partners program has restored 677,000 acres of wetlands; nearly 1.3 
million acres of prairie, native grassland, and other uplands; and 
5,560 miles of stream and streamside habitat.
    In 2005, the Partners program will leverage $5.0 million in the 
High Plans region through a public/private initiative that will restore 
grassland habitats and declining species over an 11-State region. In 
cooperation with landowners and other partners, the Fish and Wildlife 
Service will focus conservation efforts on restoring, enhancing, and 
protecting two million acres over the next ten years. The 2005 Partners 
budget also includes $6.2 million for partnership efforts in the Upper 
Klamath basin.
    Augmenting our partnership achievements is the work of over 200,000 
volunteers who provide over eight million hours to Interior's programs 
and projects throughout the Nation. These volunteers help repair and 
maintain trails, restore habitat, participate in monitoring and 
research programs, and assist our land managers in many other ways. To 
promote this spirit of volunteerism, the Department has reactivated the 
Take Pride in America program. In California, volunteers enlisted 
through Take Pride pledged 400,000 hours of service to help restore 
areas devastated by wild land fires. The 2005 budget includes $1.0 
million for the Take Pride program as part of the Cooperative 
Conservation Initiative.
    Also funded within the Cooperative Conservation Initiative is the 
Fish and Wildlife Service's Coastal program, for which we propose a 
funding increase of $2.9 million, bringing total funding to $13.1 
million. The Coastal program leads FWS conservation efforts in bays, 
estuaries, and watersheds around the U.S. coastline and leverages 
Federal funding at a rate of 4:1. We also propose to increase funding 
for the Migratory Bird Joint Ventures program by $1.2 million for a 
total of $11.4 million. The funding increase will allow FWS to enhance 
15 existing Joint Ventures and fund the Northern Great Plains and 
Central Hardwoods Joint Ventures.
    Endangered Species Grant Programs: The Department's cooperative 
conservation efforts also include a number of grant programs that 
provide expanded opportunities for State, tribal, local and private 
partners to participate in conservation and protection of endangered, 
threatened, and at-risk species. These programs will help this nation 
invest habitat protection and recovery of species--the ultimate goal of 
the Endangered Species Act. Through these investments, we can achieve 
on-the-ground conservation results and help avoid the conflicts, land 
management stresses, and procedural workloads that ensue when species 
become endangered.
    The Landowner Incentive Program provides competitive matching 
grants to States, Territories, and Tribes to create, supplement, or 
expand programs to protect and manage habitats on private lands that 
benefit listed species or species at risk. The 2005 budget includes 
$50.0 million to assist private landowners in conserving and restoring 
habitat for endangered species and other at-risk plants and animals. 
This is an increase of $20.4 million over 2004.
    The Private Stewardship Grants program provides grants and other 
assistance to individuals and groups engaged in local, private, and 
voluntary conservation efforts that benefit federally listed, proposed, 
candidate or other at-risk species. A panel of representatives from 
State and Federal government, agricultural and private development 
interests, and the scientific and conservation communities assess and 
make recommendations regarding these grants. The 2005 budget proposes 
$10.0 million for the program, a $2.6 million increase over 2004.
    The Cooperative Endangered Species Conservation Fund provides 
grants to States and Territories to participate in projects to conserve 
candidate, proposed, and threatened and endangered species. Grants to 
States and Territories allow them to participate in an array of 
voluntary conservation projects for candidate, proposed, and listed 
species. These funds may in turn be awarded to private landowners and 
groups for conservation projects. The CESCF grants include funding for 
States and Territories to implement conservation projects to support 
the development of Habitat Conservation Plans and to acquire habitat 
for threatened or endangered species. The 2005 budget proposes $90 
million, an increase of $8.4 million, for the appropriated portion of 
this program.
    Our grant programs also aid a wide variety of other wildlife. The 
2005 budget proposes $80.0 million for the State and Tribal Wildlife 
Grants program. These grants help develop and implement State and 
tribal programs for the benefit of wildlife and its habitat, not 
limited to species that are hunted or fished. The program exemplifies 
our cooperative conservation vision, allowing States and Tribes to 
tailor their conservation efforts in a manner that best fits local 
conditions. A $10.9 million increase for the program in 2005 will 
significantly advance efforts of State and tribal fish and game 
agencies to address on-the-ground wildlife needs. Based on the high 
level of interest in this program, we expect this program will have 
lasting benefits for fish and wildlife, while fostering stronger 
working relationships between Federal, State and tribal governments.
    Full Funding for the Land and Water Conservation Fund: Our 
cooperative conservation programs are an important component of the 
2005 Land and Water Conservation Fund budget request. Overall, the 
Department's budget seeks $660.6 million from the Land and Water 
Conservation Fund for 2005, including $153.3 million for land 
acquisition and $93.8 million for the State grant program. The 
Department's request, combined with the request for the U.S. Forest 
Service, brings total government-wide LWCF funding to $900.2 million.
    The 2005 LWCF budget includes the same mix of programs proposed in 
2004. This mix strikes an effective balance between Federal land 
acquisition and cooperative efforts to fulfill LWCF goals.
    We believe effective conservation of lands and natural resources 
cannot rely primarily on expanding the Federal estate through land 
acquisition. Such acquisitions remove lands from the local tax base. 
Equally significant, each time we acquire more Federal lands, future 
operations and maintenance costs ensue in perpetuity. Supporting local 
recreation and conservation through partnership programs enables us to 
leverage Federal funding. In many cases, these programs match Federal 
funds at a ratio of more than two to one. They give us an opportunity 
to work hand-in-hand with States, communities, and local landowners to 
build support for long-term conservation.

               MAINTAINING PARKS AND PRESERVING HERITAGE

    Park Maintenance Backlog: President Bush pledged to improve the 
condition of National Park Service facilities and resources and 
committed $4.9 billion over five years for park facility maintenance 
and construction. The 2005 budget continues to fulfill this pledge, 
investing $1.1 billion for maintenance, rehabilitation, and road 
repair. The National Park Service's budget includes $724.7 million for 
park facility maintenance and construction, a $25.0 million increase 
over 2004. An additional $310.0 million for park roads is included in 
the Administration's legislative proposal to reauthorize the Highway 
Bill.
    In addition to providing additional resources for park stewardship, 
the 2005 request continues to provide critical tools to improve 
accountability. Utilizing data from annual condition assessments, which 
have been completed for almost all of its regular assets, the Park 
Service has developed an estimated facility condition index, an 
industry standard for quantifying the condition of facilities. This 
baseline provides a launching point for monitoring and addressing the 
maintenance backlog. In 2005, $8.2 million of a $13.2 million increase 
in the repair and rehabilitation budget targets improving the condition 
of priority buildings to good condition. By focusing on one asset 
category, the Park Service will be able to monitor improvements to the 
facility condition index and evaluate the performance and efficacy of 
maintenance programs. The Park Service is committed to bringing all 
assets up to acceptable condition on average with funds provided 
through 2009.
    Historic Preservation: March 4, 2003 President Bush and the First 
Lady announced the Preserve America initiative to enhance the Federal 
government's assistance in protecting and supporting the contemporary 
use of historic properties. Developed in cooperation with the Advisory 
Council on Historic Preservation and the Department of Commerce, this 
initiative promotes heritage tourism and wide-ranging partnerships for 
the use and preservation of historic properties. Currently, 26 States 
have some form of heritage tourism program, an economic development 
tool that enhances education, creates jobs, and increases property 
values and tax revenues.
    The 2005 budget includes $10.0 million for Preserve America grants 
to support community efforts to demonstrate sustainable uses of 
historic and cultural sites and provide economic and educational 
opportunities related to heritage tourism. Grants will be awarded 
competitively to preservation entities, such as State and tribal 
historic preservation offices and designated Preserve America 
communities. The Save America's Treasures program, which helps preserve 
nationally significant buildings and cultural artifacts, with proposed 
funding of $30.0 million, complements Preserve America.
    Included within our LWCF Federal land acquisition request is $5 
million for partnerships with States and local governments to preserve 
Civil War battlefields, many of which lie amid areas of rapid 
development in the eastern States.

                       LAND MANAGEMENT CHALLENGES

    Invasive Species: Invasive species threaten the ecological and 
economic health of the Nation. The total national costs associated with 
invasive species may exceed $100 billion annually. An estimated 5,000 
to 6,000 invasive species have already become established in the United 
States. The most effective strategy to protect native species and their 
habitats is early detection to prevent the establishment of additional 
invasive species.
    The 2005 budget includes $58.3 million for a multi-agency effort to 
address invasive species challenges. Funding will be used to control 
invasive species such as salt cedar in the southwest and control of the 
brown tree snake population on Guam to prevent its establishment on 
other Pacific islands and the U.S. mainland. In addition, Interior 
agencies will focus on early detection and rapid response and conduct 
research to develop test methods and control strategies. The priorities 
for the use of invasive species funding are established by the National 
Invasive Species Council.
    Wild Horses and Burros: Approximately 39,000 wild horses and burros 
occupy public rangelands. Projected levels of removal and adoption are 
not keeping pace with the growth in the populations of these animals. 
The Bureau of Land Management predicts an unsustainable and 
unmanageable rise in the population based on current management 
regimes, creating the likelihood of ecological imbalance and 
degradation of rangelands, forage resources, and wildlife habitat. The 
2005 budget proposes increased funding for a long-term strategy to 
bring the number of horses to an appropriate management level. The 
budget includes an increase in appropriated funding of $10.5 million 
for the wild horse and burro program to undertake a collaborative 
program of population and habitat management. This increase is offset 
with decreases to programs that benefit from achieving appropriate 
management levels and with reductions to lower priority activities.

                           MANAGING RESOURCES

    Water 2025: Chronic water supply problems in the West will continue 
to challenge the Nation to find effective approaches to long-term 
management of water resources. Recent crises in the Klamath and Middle 
Rio Grande basins, where water shortages have affected American 
Indians, farmers, urban residents, and fish and wildlife vividly 
demonstrate the consequences of failing to address strategically the 
problem of competing demands for constrained water supplies.
    The 2005 budget includes $21.0 million for Water 2025 to minimize 
future western water crises by fostering conservation and interagency 
coordination, enhancing water supplies through improved technologies, 
and managing water resources in cooperation with others. Collaborative 
approaches and market-based water transfers will help address emerging 
needs. Federal investments in research and development will improve 
water treatment technologies such as desalination.
    A Water 2025 increase of $12.5 million for the Bureau of 
Reclamation will build on the 2004 Western Water Initiative, providing 
a total of $20.0 million to retrofit and modernize existing facilities, 
promote conservation and more efficient use of existing water supplies, 
improve water management by using excess capacity at Federal 
facilities, and facilitate research to provide alternative water 
supplies.
    The U.S. Geological Survey's 2005 budget includes $1.0 million for 
Water 2025 to conduct groundwater availability assessments, develop 
tools and techniques for protecting biological resources while meeting 
water supply needs, and to improve methods to characterize aquifers.
    Klamath Basin: The Department's partnership efforts are bringing 
about change in the Klamath Basin. Interior bureaus, partnering with 
other Federal agencies, are restoring habitat, removing fish migration 
barriers, acquiring land, using water banking, and researching the 
ecology of the federally-listed fish species. Through these partnership 
efforts, the Department is seeking long-term resolution of conflicts 
over water and land management.
    The 2005 budget includes $67.6 million for this effort, a $17.9 
million increase over 2004 funding levels. Other government agencies 
will provide an additional $38 million, bringing a total of $105 
million to this effort. In addition to the $6.2 million increase in the 
FWS Partners program mentioned earlier, the budget includes funds to 
remove the Chiloquin Dam, which impedes passage of endangered suckers 
to 70 miles of spawning habitat on the Sprague River, and to acquire 
lands adjacent to Agency Lake Ranch to increase water storage and 
fisheries habitat restoration. Additional funding will also support 
water banking, water supply enhancement, and water quality improvement.
    Energy: Lands and waters managed by Interior produce about 30 
percent of the Nation's energy supply. Approximately one-third of the 
natural gas, coal, and oil, one-half of geothermal energy, 17 percent 
of hydropower, and 20 percent of wind power are produced in areas 
managed by Interior. We are committed to implementing the President's 
National Energy Plan, a part of which focuses on a long-term strategy 
for producing traditional and renewable sources of energy on Federal 
lands while maintaining environmental protections and involving all 
interested persons in open decision-making processes.
    The 2005 budget request will help meet the Nation's energy needs by 
focusing on timely access to oil and natural gas resources on public 
lands, consistent with publicly developed land-use plans. We propose to 
maintain Bureau of Land Management oil, gas, and coal programs at the 
2004 funding level of $104.4 million through a combination of 
appropriated funds and $4.0 million in additional user fees generated 
through a proposed rulemaking to bring fees closer to costs for certain 
services. This funding level preserves significant increases that were 
appropriated over the last few years to continue making significant 
progress in reducing permitting backlogs and expediting access to 
energy resources. The budget also includes an $800,000 increase to 
enhance permitting of renewable energy development and processing of 
rights-of-ways for both renewable and non-renewable energy resources.
    As electric power plants shift from coal to clean-burning natural 
gas, the demand for natural gas is expected to increase significantly 
in the next 10 to 15 years. Gas hydrates present promise as an 
additional domestic source of natural gas to meet this skyrocketing 
demand. The 2005 budget for the Minerals Management Service proposes an 
increase of $200,000 to begin a tract-specific hydrate assessment to 
determine fair market value once production is practical. The Minerals 
Management Service proposes $400,000 to complete phase one of a two-
year study to examine the potential environmental impacts of the 
recovery of this energy source.
    The 2005 MMS budget includes an increase of $4.3 million for the 
Outer Continental Shelf Connect e-government initiative. The request 
represents the third year of a six-year project to dramatically reform 
and streamline offshore business operations by improving connectivity 
between the government and the public. The initiative will create a 
citizen-centered web presence and build an e-government infrastructure 
across agencies. Total funding for the initiative in 2005 will be $16.0 
million.
    To ensure that the government receives optimal value on lease 
permits, technology used by MMS must keep pace with the private sector, 
which has embraced and developed new technologies to meet the 
increasing challenge of competition in exploring for petroleum 
resources. The 2005 budget includes $1.9 million for a 3-D 
visualization room, additional geological interpretive tools training, 
workstation-ready well logs, and seismic data management. All of these 
technologies have been routinely used by the private sector since 1995 
for making fair market determinations on lease sales.

              MONITORING AND SCIENCE--KEYS TO PERFORMANCE

    Monitoring for Results: Central to Interior's resource protection 
and resource management efforts is an emphasis on results. The 2005 
budget proposes to increase monitoring programs to strengthen the 
Department's capacity to assess program results and use that 
information to improve management. The budget requests $77.6 million 
for the NPS Natural Resource Challenge, an increase of $4.4 million 
over the 2004 level, to enhance the Park Service's capability to track 
ecosystem health and water conditions. The increase will fund six 
additional vital signs monitoring networks, bringing the total networks 
to 28. The increase will also fund the remaining seven of 32 water 
quality monitoring networks.
    The 2005 budget request for the Bureau of Land Management includes 
an increase of $4.0 million to strengthen and enhance resource health 
monitoring. Information on the health of resources and trend data help 
land managers develop and revise long-term resource management plans 
and guide day-to-day operational and permitting decisions. Monitoring 
programs provide information needed to ensure that land use plans and 
management decisions are having their intended effect. Monitoring also 
identifies changes in the status of resources on public lands. The 2005 
increase, which builds on the $1.9 million provided in 2004, will allow 
BLM to increase monitoring of oil and gas activity, rangeland 
management, and overall implementation of land use plans.
    We also propose additional increases for monitoring in the Fish and 
Wildlife Service to strengthen migratory bird programs and in the wild 
land fire program as a component of the Healthy Forests Initiative.
    Science: Scientific research provides information needed to 
understand and resolve many of the complex issues faced by the 
Department. The U.S. Geological Survey is the Department's primary 
source of scientific research, earth sciences data, and other geologic 
information and conducts research on earth and biological processes, 
including natural resources and natural hazards. The 2005 budget 
request includes $919.8 million to continue the Department's science 
programs in the U.S. Geological Survey.
    The Department is increasing the role of science in improving the 
effectiveness of Federal resource management decision-making. We are 
also avoiding duplication in our science efforts. The 2005 budget 
requests an increase of $1.2 million for ``Science on the DOI 
Landscape'' to address priority bureau science needs.
    Earthquakes, volcanic eruptions, landslides, coastal storms, 
erosion, and flooding pose threats to lives and property and undermine 
local and national economic health. The Department is enhancing the 
quality and timeliness of information provided to communities so they 
can improve their warning systems, planning processes, response 
efforts, community education, and building modifications. The 2005 
budget maintains the 2004 funding of $4.4 million for the Advanced 
National Seismic System. During 2005, USGS will continue to upgrade and 
install new seismic monitoring stations. Information from these 
stations will support real time earthquake shake maps for emergency 
response in five metropolitan areas. The 2005 budget requests an 
increase of $800,000 to expand pilot high-technology radar 
investigations to develop a national monitoring capability. This 
capability will provide increased tracking of the behavior of 
volcanoes, including Yellowstone Caldera in Yellowstone National Park, 
Three Sisters volcano in Oregon, and four to six Alaskan volcanoes.

                 IMPROVING LAW ENFORCEMENT AND SECURITY

    The Department is second only to the Department of Defense in the 
number of facilities it manages and operates. Stewardship of the 
Nation's parks, refuges, public lands and facilities requires law 
enforcement and security expertise to ensure safety and security for 
employees, visitors, and facilities. Our 2005 budget request includes 
an increase of $39.2 million over the 2004 level for law enforcement 
and security.
    The 2005 budget for the Bureau of Reclamation budget includes $43.2 
million, an increase of $15.4 million, to continue security 
modifications at priority dams. To enhance security at major National 
Park icons, the budget includes operational increases of $2.1 million 
for the National Park Service and $2.0 million for the U.S. Park 
Police. We request an additional $2.0 million in construction funding 
to complete security improvements at Independence Hall in Philadelphia.
    The 2005 budget contains increases totaling $5.3 million in the 
National Park Service, Fish and Wildlife Service, Bureau of Indian 
Affairs, Bureau of Land Management, and the Departmental Office of Law 
Enforcement and Security to improve law enforcement efforts in border 
areas. The Department's land management agencies manage and protect 
public lands along the Nation's borders that comprise 39 percent of the 
southwest border, 31 percent of the southeast border (Texas to the 
Florida coastline), and 14 percent of the Canadian border. While 
primary responsibility for border security rests with the Department of 
Homeland Security, Interior agencies have an obligation to protect 
employees, visitors, natural resources, and agency facilities.
    The 2005 budget also continues to implement a Secretarial order for 
25 law enforcement reforms recommended by the Office of the Inspector 
General to improve accountability and efficiency. Key reforms include 
implementation of an off-the-shelf reporting system for law enforcement 
incidents to be used by all agencies within the Department. We request 
$5.2 million for this new system. Increases totaling $2.8 million in 
the National Park Service and Fish and Wildlife Service will support 
law enforcement management reforms in those agencies.
    The 2005 budget includes an increase of $7.8 million for the Bureau 
of Indian Affairs to operate eight new detention facilities serving 
Indian populations. These facilities, constructed through a joint 
initiative with the Department of Justice, will be completed by 2005. 
These new facilities meet current detention standards and alleviate 
conditions such as overcrowding and mixing of juvenile and adult 
detainees.

                       PAYMENTS IN LIEU OF TAXES

    Congress passed the PILT Act in 1976 to provide payments to local 
governments in counties where certain Federal lands are located within 
their boundaries. Local governments incur costs associated with Federal 
lands within their boundaries, but are unable to collect taxes on the 
lands. PILT payments are made to local governments in lieu of tax 
revenues and to supplement other Federal land receipts shared with 
local governments. Local governments use PILT payments to improve local 
school, water, and road systems, as well as for other necessary 
infrastructure. The 2005 budget proposes $226.0 million for PILT, a 
$1.3 million increase over the 2004 enacted level, and the highest 
level ever for the program.

                         MANAGEMENT EXCELLENCE

    Behind all of Interior's programs, out of the limelight, rests a 
management foundation that is vital to the accomplishment of our 
mission. The environment in which the department delivers services and 
carries out its mission is changing, driven by the same forces that are 
reshaping the Nation. The American people are demanding more from their 
public servants and calling for better business management practices, 
improved efficiency, financial transparency, and mission 
accountability. Management challenges facing the Department are 
increasingly complex, requiring more sophisticated approaches in human 
resource planning, organizational governance, facilities management, 
and technology security. Legislated requirements and government-wide 
innovations call for increased management rigor. In the past decade 
Congress has enacted extensive legislation including the Government 
Performance and Results Act, Government Management Reform Act, Chief 
Financial Officers Act, Federal Financial Improvement Act, Debt 
Collection Improvement Act, and Information Technology Management 
Reform Act.
    With a solid foundation of employees, volunteers, and partners 
working toward a common set of goals, we have made significant advances 
in our quest for management excellence.

  <bullet> Our bureaus are completing condition assessments of all 
        facilities so that we can maintain and manage them better. The 
        Bureau of Indian Affairs and the Bureau of Reclamation have 
        already completed their assessments and the other agencies are 
        well underway.
  <bullet> Our agencies are implementing 25 Secretarial directives to 
        strengthen our law enforcement programs and improve our ability 
        to ensure the safety of the visiting public and our employees 
        and volunteers.
  <bullet> We consolidated the purchase of information technology 
        systems to achieve significant savings and to provide 
        consistency and inter-operability within the Department.
  <bullet> We achieved an unqualified audit opinion for the Department 
        and each of our eight bureaus. We completed this process within 
        60 days of the close of the fiscal year, one of only eight 
        agencies to do so.

    In 2005, the Department will continue to support the President's 
Management Agenda and build on this foundation for management 
excellence. The 2005 budget includes increased funding for management 
priorities including two that are highlighted here, the Financial and 
Business Management System and the Enterprise Services Network.
    Our budget proposes $18.6 million for the Financial and Business 
Management System, a $7.0 million increase over 2004. This system will 
replace a combination of systems for processing financial and related 
transactions and meet the Department's needs for business management 
information. It will revamp administrative processes throughout the 
Department by modernizing and integrating financial management, 
acquisition, property management, grants administration, and other 
subsidiary systems.
    The Enterprise Services Network will integrate and consolidate the 
Department's networks, systems, and computing environmental to provide 
secure and robust telecommunications within the Department and to 
customers. The 2005 budget includes $8.0 million for this initiative.
    The 2005 budget also requests funding for bureau-specific 
improvements, including $2.7 million to address material weaknesses in 
the U.S. Geological Survey's financial management practices. The USGS 
budget also includes $1.8 million to modernize and centrally support 
key information technology management practices to enhance service and 
eliminate critical deficiencies in the bureau's information technology 
security infrastructure.

                               CONCLUSION

    The budget plays a key role in advancing our vision of healthy 
lands, thriving communities, and dynamic economies. Behind these 
numbers lie people, places, and partnerships. Our goals become reality 
through the energy and creativity efforts of our employees, volunteers, 
and partners. They provide the foundation for achieving the goals 
highlighted in our 2005 budget.
    This concludes my overview of the 2005 budget proposal for the 
Department of the Interior and my written statement. I will be happy to 
answer any questions that you may have.

    The Chairman. Thank you very much.
    I want to, for the record, Madam Secretary, follow along 
for just a couple of minutes on Senator Bingaman's concerns. 
First, I want to tell you that this business of responding to 
our questions, formal or informal, has to be addressed--the 
problem of non-responsiveness has to end. I want to tell you as 
chairman I consider it your responsibility to see to it that it 
ends. It is ludicrous that a Senator would get an answer about 
whatever it was Senator Bingaman asked about. Some staffer may 
think they do not like the question, but to answer him and say 
we consider it a Freedom of Information question and we are 
going to generously forgive you the $16 is unacceptable. I will 
tell you what I think. I think if that person is still in your 
Department and nothing has happened to him, then shame on you. 
First, you better find out, and secondly, that kind of person 
has got to be so uninformed or so without regard to who we are 
that I cannot imagine that he would still be around.
    I want to also tell you that Senator Bingaman was not the 
only questioner whose questions were not answered. We just 
checked the record for this Senate committee after the last 
hearing. I asked you 42 questions in writing. Adding up the 
rest of the committee, Senator Bingaman asked 55 questions and 
so on and so on. Now, I will acknowledge that we asked you to 
answer them quickly. But Madam Secretary, if that is an 
excuse--and it may be--then at least the committee is entitled 
to a direct communication from you that these questions, which 
were intended to clarify the hearing are not completed. You 
must tell us you cannot get it done, not leave them all to this 
day unanswered. Okay?
    So I hope we start this off with the idea that we are 
relatively important in your scheme of things. It may be that 
you think the appropriators are the only ones around. We have 
established already here on our committee that we have enough 
time, and we are not going to yield every time we get a 
difficult issue. We are going to solve it here, which means you 
are going to be answering to us through your people.
    So if we can have that understanding, I would like you to 
answer in the record if you got the point and if you will 
attempt to solve these problems.
    Secretary Norton. Mr. Chairman, I sincerely apologize for 
the oversights in not responding and not responding 
appropriately to the questions and the correspondence that we 
have received. I am going to establish within my Department 
tracking so that I get a personal report on all of your 
correspondence and the replies to that so that I will 
personally be able to assure that we are seeing that we are 
responding.
    The Chairman. I thank you very much.
    Now, the way I understand the hearing, I will have a few 
questions. Then Senator Bingaman is next. Senator Thomas is 
next. Senator Johnson is next, Senator Campbell, and then 
Senator Craig. We are doing this, Senator Craig, not on 
seniority but on time of arrival. When I am finished, I am 
going to leave for a little while and Senator Craig has 
willingly agreed to be chairman for a while.
    Madam Secretary, I have about four areas to discuss with 
you. I am going to be as brief as I can, and then I am going to 
submit a whole series of questions on these very same issues.
    First, I am going to talk about an issue in New Mexico. 
Because it is unique, I think it should be of interest to you. 
We have a Rio Grande River, which is our only significant 
river. It was called Rio Grande because Rio Grande in the 
Spanish language is not really Rio Grande. It is Rio Grande, 
meaning it was the big river as explorers approached the 
Southwest. Well, it is not very big anymore and it runs dry in 
its lower regions many, many times in many parts of the year 
and has historically.
    But there lives in that river a little minnow. The minnow, 
for the most part, is not where the water is, which is most 
unique. It is at the end of the river in sand and low water so 
that the river must run almost its entire length to reach the 
minnow. There is a vote at 11 o'clock, so we will handle that 
as we see best here.
    So what we have been doing over the years is trying to 
establish a biological working plan that feeds enough water 
into those minnow ponds. I can tell you, while this is not an 
issue that should be at your level, if you were from that 
State, it would be at your level. We have now had to transfer 
thousands of acre feet of water from our reservoirs to try to 
make the water run all the way down there.
    Now, I have submitted on behalf of a governor of an Indian 
tribe that abuts on this river and myself a request to the 
Bureau of Reclamation, Corps of Engineers, and Fish and 
Wildlife Service that they do something unique. That they bring 
the minnow to the water, instead of the water to minnow because 
this stream upstream has water all the time. We have suggested 
that alongside of it on Indian land, with their permission, we 
establish a sanctuary and that the minnows be put in the 
sanctuary. The minnow will then be able to live there without 
us having to move the river all these hundreds of miles to get 
to those lower river ponds.
    Now, Madam Secretary, I just want you to know that there is 
no more important issue to the people that live on that river. 
That is Albuquerque, that is all the communities along that 
river, and almost all the middle New Mexico agriculture that 
there is. They would cheer if there was some way to protect the 
minnow with a minimum waste of water.
    Now, I know that the technical people do not like 
innovation and I know they are not going to like this, but I 
would ask you if you would make sure that it is being given 
appropriate attention and that it gets up to your office before 
they tell us that we cannot do it. I am willing to ask my 
Senators to alter the law if something has to be done because I 
see no way of this being anything but a plus. Okay?
    Secretary Norton. Thank you. Mr. Chairman, it is my 
understanding that there is an analysis underway.
    The Chairman. There is.
    Secretary Norton. I will be happy to take a closer look at 
that.
    The Chairman. I appreciate it.
    Secretary Norton. I appreciate your ideas.
    The Chairman. I think if you would tell them that this is 
something that deserves serious attention and you do not want 
them to waste so much time, that would be enough for me.
    Now I want to talk about Healthy Forests for just a minute. 
The Forest Service held a meeting with all of its forest 
supervisors and spent a great deal of time explaining the 
administration's expectations on implementation of the Healthy 
Forests Restoration Act.
    Now, Madam Secretary, that is not your Department. That is 
Agriculture. What has your Department, the Department of the 
Interior, and the Bureau of Land Management done to inform your 
field managers as to the Secretary's expectations for 
implementing this important legislation? Have you established 
targets for each of your State directors and managers, and if 
you have, how many acres do you expect to accomplish in fiscal 
year 2004?
    Secretary Norton. That is something where we have a lot of 
attention focused on exactly how much fuels treatment is taking 
place. It is something that we did not have when I took office, 
but we now have a good system for tracking that. We anticipate 
1.1 million acres for 2004. If you look at both Interior and 
Forest Service, that will be 3.7 million acres.
    The Chairman. But what I want to know is if one of these 
Senators goes to their home State and there is a field director 
and they go up and ask them, we do not want them to tell us, 
well, we have not been told what the plan is for our State, for 
the State we are in. We go up the road and talk to the Forest 
Service and they will tell us they have got the plan. All I am 
saying is would you please be sure that in many States where 
the BLM land is as important as the Forest Service land in this 
regard, they know what they are doing with as much certainty 
and workability with the constituents as the Forest Service.
    Secretary Norton. Thank you very much, Mr. Chairman. I can 
assure you we have had a lot of training that has been done. We 
have guidance that has gone out. I have seen guidance as it has 
gone out on a number of different topics. I have personally 
visited sites. I was just at one in Nevada a few days ago. So 
we are really getting the word out to people in the field that 
this is very important.
    The Chairman. Now, with reference to this but on a little 
bit of a side issue, New Mexico has literally millions of pinon 
junipers. Thousands upon thousands of them are dying. I would 
like you to provide us with, if you do not have one, would you 
go to work on some kind of strategic plan for treating these 
areas of mortality as soon as practicable? Can you do that for 
us?
    Secretary Norton. I would be happy to look into that and 
see what our status is on that.
    The Chairman. I would also mention to you that in the same 
realm there are thousands of acres of private and State land 
that are suffering what we would call catastrophic mortality. 
Are there any programs in the Department that they can look to 
for help or that we can work together with the private sector 
on? If there are not, I would just like an answer. If there 
are, what are they? If you have some way of telling us that 
there could be if we would do something, then we would like 
that kind of response.
    Secretary Norton. We would be happy to provide that 
information. For the most part, we are trying to work from the 
bottom up on our fuels treatments and give the opportunity for 
communities to be involved in our planning process since we 
really want to get the communities that have those fire dangers 
involved.
    The Chairman. Thank you, ma'am. I have two questions left. 
Then I will yield to Senator Bingaman. I have some detailed 
questions about oil and gas issues and leases, but I just want 
to ask you a couple of general ones.
    We have continually attempted to say to you and your 
Department heads that have charge of public lands wherein there 
might be or there is oil and/or gas that we are not trying to 
change any laws. We continue to hear from our constituents that 
the process of permitting is still very slow. They tell us that 
when we say we are running out of natural gas. And we are. But 
they tell us we could produce a lot more, but it is taking too 
long.
    Now, ma'am, I want to know in all honesty, forgetting about 
the budget--if you want to tell it to us privately, fine--do 
you have enough people to do this job or not? And do you have 
enough people that are trained or trainable to do this job?
    And secondly, have you tried anything new to make this job 
more workable?
    We have all been talking about changing the law so there 
would be centers for perfecting the permits so you will not go 
one place for the initial permit, another place for the rest, 
but do it all in one or two or three centers. In fact, we had 
in the energy bill three or five centers I think, Senator 
Bingaman.
    Could you just address generally this issue? Frankly, we 
are going to hold you to this in terms of who is responsible 
for the delays.
    Secretary Norton. We have been looking at that issue with a 
great deal of attention because we have also been hearing 
concerns about that.
    First of all, we are improving the process that we have 
been using. That improvement has not been completed. We are 
still doing some additional analysis about how to do 
improvements. But, for example, I have heard of situations in 
the past where we had two different wells being drilled from 
the same pad and yet they did separate environmental 
assessments for each of those. That does not make sense.
    We are now consolidating things so that we work on a 
geographic area basis and look more broadly doing one set of 
analyses and consultations in order to clear more of the 
applications at the same time. So we are trying to work 
smarter.
    We also have increased staff in some of the areas that have 
the highest number of applications going forward.
    There are a number of areas where we had to do a land use 
plan or other environmental analysis, a major document and 
study, before we could go forward with processing individual 
applications. And in a number of areas, we have now reached the 
point where those major studies are done. In some areas, it 
still continues to be held up by litigation. But in several 
areas now, we are able to move forward with processing the 
applications.
    For example, in the Powder River area of Wyoming, I believe 
we have processed now 600 applications for permits to drill 
since October. So we are moving forward in a number of areas.
    Overall in the last 3 years, we have processed over 10,000 
applications for permits to drill, and the BLM has established 
the goal of a 35-day time period for processing an application. 
It was 58 days in fiscal year 2002.
    The Chairman. Well, I just want to say a goal is one thing, 
and the achievement is another. So it will be interesting to me 
if you have a goal, but if you would give us some idea of what 
it really is. You might have a goal of 38, but it still may be 
48. If you could have somebody do a survey and tell us, it 
would make me feel a lot better because they are still telling 
me that the delays are not 38 days. Thank you very much.
    Senator Bingaman will question the Secretary and we will go 
vote and return shortly. Thank you, Senator Bingaman.
    Senator Bingaman. Thank you very much, Mr. Chairman.
    I appreciate, Madam Secretary, your statement that you will 
look into this problem of lack of responsiveness.
    Let me mention one other issue that I also mentioned in my 
opening statement and that is these budget justification 
documents. In the case of the other agencies that I am familiar 
with, we get these at the same time we get the President's 
budget. Now, we got them from the Bureau of Reclamation. We got 
theirs. That is the one I am holding right here. We have still 
not received budget justification documents from the Park 
Service, from the BLM, from the Wildlife Service. We get those 
from the Department of Energy which comes before this 
committee. We get those for all the other agencies that I have 
dealings with.
    Could you also look into that problem and figure out how we 
can get these documents in a timely manner?
    Secretary Norton. I would be happy to look into that, and 
let me ask John Trezise who is our Director of Budget. I 
apologize I had failed to introduce him. Let me ask him to 
reply.
    Mr. Trezise. Senator, I can only apologize that all the 
justifications are not here yet. We have been working very, 
very hard with the bureaus and the Office of Management and 
Budget to get them completed. The Park Service and Fish and 
Wildlife Service justifications I believe will be going to the 
printer.
    The Chairman. I can just barely heard you. Maybe you could 
pull that up or push the button or something.
    Mr. Trezise. The Park Service and Fish and Wildlife Service 
justifications will be going to the printer very shortly.
    The challenge we face is that we have such a broad 
multitude of programs. We have more accounts than any other 
domestic agency. The justifications in total, when they are 
published in the hearing record of the House Appropriations 
Committee, run to 4,000 pages. It is a very difficult task. It 
has to be accomplished in a short period of time. We are trying 
to do better.
    Senator Bingaman. My impression is that previous 
administrations have done this. I am informed by the committee 
that the norm is for us to get these. It is just the last 
couple of years we have not.
    Mr. Trezise. Senator, I do not believe that is the case. 
This is my 13th or 14th budget, and I think that this has been 
a consistent problem that we have had going back as long as I 
have been involved in this process.
    Senator Bingaman. Well, I hope you can get it resolved some 
way or other because it makes it difficult for us to 
meaningfully question you about the budget if we do not know 
what the justifications are at the time we have these hearings.
    Let me ask on the Middle Rio Grande. Obviously, this is of 
concern to the Department. I have a copy of your Water 2025 and 
it is listed with Klamath Basin as a major problem area. I am 
concerned that the reclamation 2005 budget proposes to cut $9.5 
million from the Middle Rio Grande which leaves only $5 million 
for ESA compliance efforts there. This is in drastic contrast 
or significant contrast to Klamath Basin where the budget 
proposes $67 million among the various Interior agencies to 
address the water issues there. Both of these areas are listed 
in Water 2025 as high priorities, and the estimate I have seen 
from your own Department says that to comply with the 2003 
biological opinion, which you have agreed to comply with, it is 
going to cost $233 million.
    So how do we get from here to there if we are going to cut 
the budget by $9.5 million?
    Secretary Norton. As it currently stands, we have funding 
in the Bureau of Reclamation that should be sufficient to 
comply with the biological opinion for this coming year. We 
include costs of leasing water and other funds. There certainly 
is an eligibility to use some of our other funding for the 
Middle Rio Grande area. I have talked with the mayor of 
Albuquerque about some of these activities. I have been 
involved in getting briefings on this. So this is something 
that we see as a high priority.
    Senator Bingaman. Well, I will be amazed if you can comply 
with that biological opinion with the amount of money you have 
asked for, but we will continue to monitor that.
    Let me ask also, in the Land and Water Conservation Fund 
Act, there is a requirement that no less than 40 percent of the 
expenditures from the Land and Water Conservation Fund each 
year be used for Federal purposes that are defined as Federal 
land acquisitions. Now, your budget proposes considerably less 
than that for Federal land acquisitions. Am I missing something 
here? Is this just an ignoring of the legal requirement? Am I 
misreading the legal requirement? What is your view on that?
    Secretary Norton. Congress has over time funded a number of 
different programs out of the Land and Water Conservation Fund. 
As we look at the question of land acquisition generally, with 
the overall goal being making sure that we are taking care of 
natural resources, protecting habitat, and improving the land, 
we find that through our grant programs, for example, we can 
restore many acres of land for the cost of purchasing the land. 
In essence, when you look at protecting land by acquisition, we 
have to pay the acquisition price and then we have to pay 
whatever it takes to restore the land. Through our grant 
programs, we are able to not have the acquisition price but 
spend only what it takes to restore the land. So we really can 
have a much bigger impact.
    Senator Bingaman. But you are basically explaining why you 
do not agree with the law, the legal requirement that 40 
percent of the Land and Water Conservation Fund should be used 
for Federal land acquisitions. And I can understand that 
argument, but I guess my concern is that it is the law. The law 
has been passed and signed by the President and it says 40 
percent--not less than 40 percent shall be used for Federal 
land acquisition. Now, why does your budget not reflect that?
    Secretary Norton. We do not have the needs, as I assess 
them, to acquire that much additional land. We have to take 
care of what we have, and that is our main priority.
    Senator Bingaman. So you think that you can ignore that 
requirement because it is your view that it is not an 
appropriate requirement.
    Secretary Norton. It is essentially question not of my 
administrative discretion on spending money that has been given 
to me by Congress, but a question of what Congress 
appropriates. So the question is one for you all, in terms of 
the money that has been appropriated. We have certainly 
appropriately used the money that has been given to us.
    Senator Bingaman. But your recommendation to Congress is 
that the Congress not comply with that law.
    Secretary Norton. Our recommendation is that we follow the 
proposals that we think are very sound ones for using the money 
under the Land and Water Conservation Fund funding to do the 
best things for environments and protection of our lands.
    Senator Bingaman. Well, we are about to finish a vote, so I 
need to go to the floor like all the other members have. So I 
will put the committee in recess for a short period, and then I 
am sure one of them will pick up on the questioning. Thank you 
very much.

    [Recess.]

    Senator Craig [presiding]. We will ask the committee to 
come back to order.
    Madam Secretary, for the sake of your time and ours, we 
will continue with the questioning in response to your budget 
presentation. With that, let me turn to my colleague, Senator 
Johnson.
    Senator Johnson. Well, thank you, Senator Craig, and thank 
you again, Madam Secretary, for accommodating our schedule here 
today, as disrupted as it is.
    Due to the degraded images from the LANDSAT 7 satellite, 
data sales have, as you know, sharply declined. While we work 
to replace the hardware--and we will do that--it appears that 
the lost data sales are going to result in about a $5 million 
shortfall in funding for the EROS Data Center outside of Sioux 
Falls, South Dakota.
    What is the Department of the Interior doing to replace 
that funding, and how are we going to ensure that we do not 
wind up with a situation where we lose our technical 
capabilities and the technical expertise at that facility 
during this interim period until we can get the new satellite 
up and going? How are we going to deal with this so you do not 
wind up with this sort of pulling up by the roots the technical 
capabilities and expertise at that facility?
    Secretary Norton. It is certainly a big concern for us. I 
have seen the degraded images myself and it is very frustrating 
that a glitch in the computer system of a satellite is so 
difficult to fix and has such a tremendous budget effect for 
us.
    You are correct that the budget shortfall, because of the 
decline in data sales, is about $5 million. It is $5.1 million. 
We are anticipating covering that through a reprogramming. I do 
not think that that has been presented yet, but we are 
anticipating looking at that.
    For the longer term, I have met with leaders in the 
satellite imagery industry. We have talked about the long-term 
future of that. It is something that makes sense certainly for 
us as a country to have those wonderful tools available to us. 
Obviously, there is a very significant military component to 
that. We want to work to have an overall approach to that that 
makes sense, but that is also a very expensive proposition. So 
we look forward to continuing to work with you both on the 
current year funding and on the future.
    Senator Johnson. Do you feel that a reprogramming can take 
place which would fully replace this lost revenue for now?
    Secretary Norton. Let me defer to John Trezise on exactly 
what the details are on that.
    Mr. Trezise. Senator Johnson, for 2004, we are fairly 
confident that we can accomplish a reprogramming without 
harming other Geological Survey programs. The Mapping Division 
of the Survey is in the process of some rebuilding/
restructuring that will enable it to, in the short term at 
least, address this problem in 2004.
    Senator Johnson. I certainly appreciate your proactive work 
on this.
    One follow-up observation is we have been trying to do what 
we can on the appropriators side, which is another hat I wear, 
to see if there is anything we can do that way to augment the 
resources that are available to you. In discussion with our 
friends in the House of Representatives side, they requested a 
report from Interior to detail the scope and impact of the lost 
data sales, and so we are little held up until that report is 
concluded. I wonder if there is any progress being made on 
that. I would think that would probably be useful to you 
internally anyway, but I wonder the status of that.
    Mr. Trezise. Senator, once it was determined that the scan 
line corrector could not be fixed, the Survey began a market 
test to attempt to see what market there was for degraded data. 
That test is still going on.
    They are also doing some work on producing enhanced data 
that will match several degraded shots in a way that for some 
users at least we can produce more useful data. That work is 
going on now and we will be reporting to the Congress on the 
results.
    Senator Johnson. Very good. I appreciate your work on that 
and hope that we can remain in very close communication as we 
progress on this issue.
    Thank you, Mr. Chairman.
    Senator Craig. Senator, thank you very much.
    Until other colleagues get here, I will stick to the order, 
but it gives me an opportunity, Madam Secretary, to visit with 
you for a few moments.
    Again, let me thank you for your overall budget effort, 
especially in the healthy forests area. Obviously, we 
collectively and the agency spent a good deal of time the last 
year both with your agency and the USDA and the Forest Service 
and the administration in getting that legislation together. 
Now we need to get active on the ground, as you know.
    Having said that, I am a bit frustrated in a flat or 
slightly declining budget as it relates to rangeland 
management. While monitoring is important and the permitting 
process is in a backlog, there is another aspect of rangeland 
management that is declining in this budget and that is the 
non-smoking wildfire of BLM lands and Forest Service lands in 
the West. It is called weeds.
    We have vegetative deserts out there because of invasive 
weeds that have taken over and killed all of our grasses, are 
accelerating erosion because that dominant species does not 
even allow livestock or wildlife. Hundreds of thousands of 
acres are infested every year. We have started a variety of 
initiatives to get going on it. We have an initiative in Idaho 
that you have been helpful with in the past. We are finally 
beginning to see not wiping it out but in some instances just 
kind of, if you will, apprehending or at least slowing the 
spread.
    It is an issue that is becoming very sensitive in the West 
amongst livestock growers but amongst the environmental 
community too. Finally, they have awakened to the reality of 
weeds. They too understand that millions of acres are now 
infested in invasive weeds in a way that is every bit as bad as 
a fire going through and wiping out a habitat.
    I would hope that we could see some improvement there, and 
yet that is a flat-liner. In fact, it is a declining budget.
    Secretary Norton. Mr. Chairman, we have for the first time 
put together cross-cut budgets on all of our invasive species 
activities. We have a very active interagency council on 
invasive species to work across the various Departments. Our 
budget overall this year is $58 million for invasive species 
throughout Interior. It is a serious concern. One of the 
reasons that the land acquisition budget is something that I am 
not reaching out to do more and more of is because we need to 
stem the tide of invasives on the land we currently have 
responsibility for.
    We are going to be holding a conference in March that will 
address one of the invasive species that causes us a lot of 
concern and that is salt cedar, or tamarisk. That is a tree 
species that grows along many of our riverfront areas. It is a 
contributor to lack of water availability because it sucks up 
more water than the native vegetation. So we are looking at 
ways across Federal agencies, public and private, local 
governments to combat that. So in a number of areas, we are 
moving forward to combat the spread of invasive weeds.
    Senator Craig. Thank you. I will have other questions, but 
our colleagues have arrived back. Let me shift into that order 
and turn to Senator Craig Thomas of Wyoming. Senator?
    Senator Thomas. Thank you, Mr. Chairman.
    We just voted to reduce your budget in half.
    [Laughter.]
    Senator Thomas. I am kidding, of course.
    Secretary Norton. Good. You never know what you guys are 
going to vote on.
    Senator Thomas. Madam Secretary, in the park budget, there 
is a million dollar increase I believe, but it indicates $1.1 
billion set aside for maintenance backlog. Now, is that going 
to leave adequate operating funds?
    Secretary Norton. We have looked at our operating funds, 
our base funding for the various parks and actually have an 
increase in that area. That is something that is there for the 
park superintendents to use for their priority needs. Most of 
the reductions were as a result of earmarks that were removed. 
They may have been one-time projects or for other things like 
that, and there were $22 million of those activities that were 
removed from last year's budget.
    Overall, I think that the maintenance backlog is one of our 
biggest challenges and we now have in place the tools to be 
able to manage that well and have devoted the funding to taking 
care of that.
    Senator Thomas. That is good, and you have your priorities 
set as to where that goes.
    Secretary Norton. Yes, we do. We have projects identified.
    I should also mention we have the Natural Resource 
Challenge also has been increased and that focuses on the 
biological sides of our national park resources, making sure 
that we are taking care of the natural side of the parks at the 
same time we are also taking care of the maintenance 
challenges.
    Senator Thomas. Well, as you know, we have been having a 
little fun with the endangered species, wolves specifically and 
grizzly bears lately. But I notice the budget indicates that 
the increase would be for listing and the decrease in de-
listing. The fact is that there are between 1,200 and 1,300 
listed species and only 15 recovered. It seems to me your 
priorities are absolutely backward on that.
    Secretary Norton. That, as you know, is a very litigation-
intensive area. In the listing side of our budget, we have 
many, many lawsuits that are requiring that we comply with the 
deadlines in the act on listing species.
    On the recovery side, which is extremely important, we are 
moving toward cooperative approaches on recovery. This year we 
have requested increases in funding for two of the programs 
that I think are the most successful opportunities for the 
future. That is the landowner incentive program which we are 
requesting $50 million and the private stewardship grant 
program where we are requesting $10 million. Those are ones 
where we work with local communities, with private landowners, 
and so forth to recover habitat for threatened, endangered, and 
at-risk species. Those are great programs because they have 
people enthusiastically participating and not with the usual 
very conflict-oriented approach that we see in some of our 
other endangered species areas.
    Senator Thomas. Well, it seems like it is pretty obvious 
there is something systemically wrong with a system where the 
idea ought to be to recover species and there is very little 
effort on recovery. Grizzly bears. We have had beyond the 
number for 10 years. They are still not recovered. They still 
are not delisted. But you continue to list. I just think there 
are some real problems in that program. Quite frankly, States 
like ours and yours feel this pretty strongly, and it has a lot 
of impact on our economy and other things that we do.
    Secretary Norton. We have had great success that we want to 
replicate in some other areas. A couple of successes. In Idaho 
with the slick spotted pepper grass is not being listed because 
of conservation efforts. We also have the mountain plover in 
Colorado that, by working together with the Audubon Society and 
farmers, we are able to protect the birds without having to 
list them under the endangered species program. So we have got 
some great things that are going on in recovery and in our 
areas to try to help species.
    Senator Thomas. We have had some things like Preble's 
jumping mouse that have not even made sense.
    Finally, the wild horse thing I already mentioned. It is 
one thing to be able to gather, and that is what the Department 
is always proud of. We gathered the horses. They do not have 
anything to do with them after they have gathered them except 
rent them out to somebody for $20 a month or whatever. There 
has got to be some sort of solution to that, and we do not seem 
to be making any progress.
    Secretary Norton. We are trying to get ahead of the curve. 
They are reproducing at about 20 percent a year out on the 
range, and so we want to get their population levels down to 
something we can maintain. We are working on fertility 
controls.
    You are correct. We have a huge problem of keeping them in 
pasture when we pull them off the range. We have been trying to 
adopt them out and we are looking at more efforts to enhance 
that. It is a tough issue. We have a $12 million reprogramming 
that we are looking at this year so we can try to get ahead of 
the curve on the populations. We would really like to work with 
you on trying to solve that problem.
    Senator Thomas. You might look at qualified adopters, who 
should be able to take more horses than they do now or do 
something that is different.
    Secretary Norton. We are interested in looking at that.
    Senator Thomas. I know it is a difficult issue, but on 
AML--Abandoned Mine Lands--I have to confess to a little 
concern that policy has been established without paying much 
attention to the States that pay the most into it. This idea 
that you are going to pay the monies back, but funding still 
has to be appropriated apparently. It should have been paid 
before, but it has not been appropriated.
    Now, what does your budget do to ensure that the money that 
has not been paid to Wyoming, $400 million, is going to be 
paid?
    Secretary Norton. You are correct that that is subject to 
appropriation.
    Senator Thomas. But we need to change that. Why should it 
not be just like mineral leases, for example, where half goes 
to the State? That is what the law says, but it does not go 
there.
    Secretary Norton. We have in our budget requested the 
amount that would go to the States under our new approach, and 
we do look forward to working with you to try to address that.
    Senator Thomas. Well, you might have suggested changing the 
law sometime as well if it is not working.
    I would like very much to see a breakdown of how the money 
has been spent, for instance, in Pennsylvania since 1977. Do 
you think you can provide that?
    Secretary Norton. All right. We would be happy to.
    Senator Thomas. Thank you. Thank you, Mr. Chairman.
    The Chairman [presiding]. It looks like Senator Campbell is 
not here, so Senator Craig?
    Senator Craig. I was able to get a question in and I have a 
couple more, Mr. Chairman. So thank you very much.
    I too, Madam Secretary, am concerned about the wolf and our 
ability to get it into a State management plan or multiple 
State management plans and delisted. We think we have 30 plus 
wolf packs in Idaho today. They are devastating our elk and 
deer herds at an unprecedented rate. While some would accept 
that as normal, a good many of us think that that has now gone 
beyond where it ought to be.
    I understand your difficulty with Wyoming. I hope you can 
work it out. I mean, Wyomingites were honest when they called 
the wolf a predator. It is the supreme predator, and I 
understand there is a little difficulty in the way it would be 
proposed to be managed in Wyoming under that definition. I hope 
we can get that corrected in a way that brings the three-State 
area together into a management scheme where the States can get 
the wolf population in a manageable controlled environment.
    Having said that, I do appreciate the cooperative kind of 
work that has been done on slick spot pepper grass. While that 
is humorous and we understand that, it has the potential of 
being what the minnow is in New Mexico. It could shut down vast 
acreages of public grazing land and other areas of our State. 
Thanks to your leadership, and the leadership of our State 
director in Idaho, we are hopefully going to get some balance 
there and work that out to save the slick spot pepper grass.
    Having said that, in the fiscal year 2005 budget request, 
your Department proposes instituting a cost recovery program 
for BLM activities, including the processing of hard rock 
mining applications. I am disappointed that the Department's 
attention would be more on, if you will, generating revenue 
from the activity than on fixing it. I say it in the context 
because in 2001--I don't know that I pronounce this correctly, 
Madam Secretary--the Behre-Dolbear study looking worldwide at 
regulatory environments for mining activities. The regulatory 
process in this country is the most inefficient of all of the 
countries studied. We were dead last. This study, I would 
suggest, is an embarrassment to our country unless you hold the 
attitude that mining ought not ever go forward again. 
Bureaucracies have beautiful ways sometimes of ignoring the law 
by simply encumbering the process to a point where it does not 
happen anymore and costs incur and people go away.
    And they are going away. Mining in the lower 48 States and 
in Alaska is declining at the same rate that oil and gas 
exploration and development declined a decade and a half ago, 
and now most of our production companies are overseas. That 
will happen in mining as it has in oil production. We will 
develop the same kind of dependency on foreign resources, and 
shame on us.
    That blind, silly attitude out there that has dominated 
some public policy in this area is wrong. We know we can do it 
in an environmentally sound way. The Clean Air Act, the Clean 
Water Act and all of the dictates, mining application and a 
management development plan today are environmentally sound 
approaches toward a critical resource.
    What is the rationalization for instituting cost recovery 
for a process within your Department that is so fundamentally 
broken?
    Secretary Norton. Senator Craig, as you have identified, 
there is very little mining going forward in this country at 
this point. We have addressed one of the concerns that we heard 
through the mill site opinion.
    Senator Craig. Thank you.
    Secretary Norton. So that is one step that we have taken to 
address a misinterpretation of the law.
    The proposal within our budget is to apply the Consumer 
Price Index to the mining fees and that is required under the 
Omnibus Budget Reconciliation Act of 1993. So we are applying 
the formula that is required in the statute.
    Senator Craig. Is it not the Department's obligation to 
institute better management practices and create a timely 
mechanism for these applications prior to looking at, if you 
will, cost recovery schemes? I mean, it is part of the very 
thing we looked at in trying to formulate an energy policy in a 
central location for application and licensing.
    Secretary Norton. We have been focusing on the energy side 
of things to make sure that we understand how to appropriately 
handle processes as well as on the Healthy Forests side of 
things. There are some aspects of that that can be applied to 
other areas.
    The mining applications tend to be more site-specific and 
do not have the same sort of numerous applications that are 
very, very similar like we see, for example, with coal bed 
natural gas wells. So there are some things that are unique to 
mining.
    Senator Craig. Well, I do appreciate that. I think you are 
probably familiar with the recommendations made by the National 
Research Council in 1999, the report on hard rock mining on 
Federal lands. In one of its primary recommendations, that 
report urged Interior to plan for and implement a more timely 
permitting process. I guess the question there is, has the 
Department analyzed the NRC report recommendations and have you 
moved on any of those toward implementation?
    Secretary Norton. I would be happy to provide an answer for 
the record.
    Senator Craig. Okay. Thank you very much.
    Mr. Chairman, thank you.
    The Chairman. Thank you, Senator.
    Senator Smith.
    Senator Smith. Thank you, Mr. Chairman.
    Secretary Norton, welcome. It is nice to see you.
    I would begin my remarks, Mr. Chairman, by asking that my 
statement be included in the record as if read.
    The Chairman. That will be made part of the record, 
Senator.
    [The prepared statement of Senator Smith follows:]
   Prepared Statement of Hon. Gordon Smith, U.S. Senator From Oregon
    Mr. Chairman, as the Senate begins its deliberations on the 
President's fiscal year 2005 budget request, I appreciate your 
convening this timely hearing to review the Department of the 
Interior's budget. I also want to welcome Secretary Norton to the 
Committee today.
    Madam Secretary, I want to thank you and the entire Administration 
for your ongoing commitment to the farmers and ranchers of the Klamath 
Basin, and to a successful resolution of the difficult issues that the 
stakeholders in the Basin have been grappling with for years. I was 
very pleased that the President's budget request provides over $100 
million for activities throughout the Klamath Basin.
    I want to ensure, however, as we move forward with the fiscal year 
2005 appropriations process, that the Congress and the stakeholders in 
the Basin have an explicit understanding of how certain proposed 
actions are going to be credited against the Endangered Species Act-
obligations of the federal project, and whether these actions will help 
to restore flexibility to project operations and certainty to the 
irrigators.
    I realize that there need to be constraints on federal spending, 
but there are a number of other watersheds in Oregon facing pressing 
water problems. I hope to work with my colleagues to provide funding to 
authorized projects in Oregon, including the Tualatin Basin feasibility 
study, the Westland Ramos Project, the Deschutes Resources Conservancy, 
and the Bend Feed Canal. None of these important programs are included 
in the Department's request.
    I want to commend the Administration for including funds for forest 
management in the O&C lands of western Oregon. These lands have a 
unique statutory requirement for timber production that has gone unmet. 
These funds will help this Administration meet the timber promises of 
the Clinton Administration to rural Oregon.
    Again, I want to thank you, Mr. Chairman, for convening this timely 
hearing. I will have a number of questions for the record, and I hope 
that we will receive the Department's answers in the near future.

    Senator Smith. Madam Secretary, thank you for including in 
your budget substantial resources to help continue to resolve 
the issues in the Klamath Basin. I think that is a credit to 
you and our President and I know all the stakeholders are 
grateful for the attention and the dollars that back up the 
commitment.
    Also, I appreciate that your budget includes dollars for 
managing the O&C (Oregan and California) lands in Oregon. 
President Clinton made many promises as to harvest and 
management of those lands, and you are putting the dollars now 
behind them so that it will actually receive some action. I 
thank you, and a lot of people looking for jobs thank you.
    A couple of issues I simply want to bring to your 
attention. One is the Klamath. You may be aware that for a long 
time they were told to put in screens on the A canal. This has 
been done. It is a magnificent installation. I am wondering if 
you are aware of any operational flexibility that has been 
restored to the project because these screens are now in place.
    Secretary Norton. My understanding is that that gives us 
more flexibility overall as to our other improvements in 
habitats, as we expect to see with taking out the Chiloquin Dam 
and restoring 70 miles of endangered fish habitat because of 
doing that. It may not show up as directly translating in terms 
of water levels and water available for irrigation, but it 
certainly gives us more cushion to deal with the needs of 
endangered species in a way other than just cutting back on 
irrigation water.
    Senator Smith. My sense is that it has given them 
substantial additional flexibility but that that flexibility is 
not necessarily utilized yet. I just throw that out as an 
observation. If I am wrong, I stand corrected, but it is 
certainly something the Department may want to look into, as 
well as whether or not the Fish and Wildlife Service has 
developed a water management plan for the refuges yet in 
Klamath. I am not aware of that having occurred and just simply 
urge that that actually happen.
    Also, there used to be in the Bureau of Reclamation a small 
loan program and a rehabilitation and betterment act that had 
dollars that could be utilized to help resolve some of the 
difficult water problems in the Western United States. It is my 
understanding that these were not used by the last 
administration and I am really asking if these programs be 
reactivated or updated in a way to provide tools and resources 
to resolving water problems in the West? There are two 
programs, the small loan program, and the rehabilitation and 
betterment act.
    Secretary Norton. Senator, I would be happy to take a look 
at those laws to see if there might be some aspects of those 
that would make sense. That sounds quite similar to what we are 
trying to do through our competitive grant process under Water 
2025. That allows us to look essentially across the West at 
those areas where an irrigation district might be providing 
more irrigation efficiency and thereby free up more water for 
municipal use. It really lets us look across the West at what 
can give us the most for the money that we invest in helping 
address future water needs.
    Senator Smith. My only criticism of that program, as I 
understand it, is only $8 million last year was utilized for 
water projects. It just seems to me that there may be some 
other tools, and resources in these programs that could and 
should be utilized to the same end. So I just throw that out 
for your consideration.
    Finally, I want to bring to your attention the Tualatin 
project. It is a Federal reclamation project. It is an area 
experiencing a lot of suburban growth, competing with 
irrigation. There is a wonderful local partnership between 
urban and rural interests that has developed and worked out a 
plan. We have authorized that plan to go forward. I know you 
cannot do everything, but there was nothing in the Department's 
budget request to fund that study even though the locals are 
putting up 50 percent of the cost.
    I simply want to bring this to your attention. It is an 
area where there is a wonderful local solution that is being 
proposed which will otherwise, if it does not happen, leave the 
Tualatin Basin very much water constrained by 2011. So I throw 
that out for your consideration and thank you for any attention 
you can give to that study because that has to precede any 
development.
    Secretary Norton. Thank you.
    Senator Smith. Thanks.
    The Chairman. Thank you, Senator.
    I understand now that we have Senator Akaka and then 
Senator Murkowski. I wonder if, Senator, do you have enough 
time to stay for 10 minutes?
    Senator Murkowski. Yes.
    The Chairman. I am going to just wrap up a question and 
then yield to you to finish the hearing. I have to go see the 
Secretary of Health and Human Services for just a little bit.
    In my absence, Senator Bingaman asked a very pointed and 
specific question regarding the Middle Rio Grande in New 
Mexico, the Middle Rio Grande ESA Work Group. You have about 
$14 million in the budget, which is a 45 percent cut. Remember 
when I was explaining the river and the sanctuary. You have got 
to continue with the plan while you look at something new, and 
I challenge your statement that you have enough money for the 
plan for this coming year. Now, if there is not any money, we 
are stuck with a biological plan with no money to rent the 
water. So I would ask if you would double check whether you 
have enough funding for the Rio Grande ESA project. Would you 
do that please?
    Secretary Norton. Mr. Chairman, if I can make sure that I 
am accurate on something. First of all, as to our funding to 
meet the commitments of the biological opinion, we have been 
assured that that funding is sufficient. It does depend on the 
water conditions and if there is a continuation of the serious 
drought that we have seen, then reprogramming would be 
something that we would entertain to make sure that we do have 
appropriate funding there.
    There are some aspects out of the cooperative program that 
were a congressional earmark and those have not been continued.
    The Chairman. Well, if we have to, we will earmark ours, 
but we have to find out the reality of it. We understand that 
every year it looks like you have got enough, but there are 
litigation expenses that come in and then we never end up with 
enough and we have got this ESA to comply with. So if you would 
look at that, based on history, we would appreciate it.
    Secretary Norton. It is also my understanding the 
Commissioner John Keys is going to be meeting with you to 
address that in more detail.
    The Chairman. That is correct.
    Madam Secretary, I want to just lay one other issue before 
you. I try to bring as many issues as I can that I consider of 
big, big importance. You probably know that in the United 
States right now one of the most significant areas for the 
production of natural gas is on public lands in the so-called 
Four Corners area, in the Farmington and surrounding areas. As 
a matter of fact, that is one-ninth of America's production 
now, and there is currently a conservation order that wherever 
there is one well, you can move over and drill a second right 
in the same area. So it is very easy.
    But there is budding within the area a fight that we have 
never seen before. The farmer-rancher is joining forces against 
drilling of wells on the basis that they have a claim that must 
be protected, that is, the surface rights. I would tell you 
that there is a chance that if this gets out of hand, that this 
area will not be drilled in any timely manner. I would think 
somebody of real understanding should be assigned to try to 
solve that problem. I would ask you if you would look into it. 
You have got a BLM regional person who is really good. You 
brought him in, et cetera.
    But I keep reading stories and I would hate to see the 
project which is among the areas in the country that will 
really produce natural gas delayed. Like I told you, it is not 
like having to go find it. It is there. I would hate a fight 
between those who used to be brothers to occur without us 
knowing what is going on.
    Secretary Norton. Mr. Chairman, we have now required that 
the companies have an agreement with the surface owner, and if 
they cannot reach that agreement, that they post a bond to 
cover the cost of that. We have been a lot tougher on making 
sure that communication takes place between the surface owner 
and the energy developer.
    We certainly want to continue working forward on that. We 
have had a conference to look at best management practices and 
how we can improve things so that we are minimizing the visual 
effects, the water effects, all of those kinds of things.
    The Chairman. I did not want to leave the impression that 
one side is right or the other more right or wrong, but I do 
believe that you do not want to go with one side or another 
with more pressure. We need the oil. We need the gas. We just 
certainly do not expect those with the private surface rights 
to just think that as a right, they can prevent it all. I think 
under your leadership that will be balanced, and you are 
telling me that in your answer, if I hear you right.
    Secretary Norton. We want to work to see that we can have 
both the energy production that we need and also protect the 
interests of the surface owners. By getting them to 
communicate, we think that is the best approach.
    The Chairman. Senator Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman. I want to 
thank you for calling this hearing so promptly.
    I want to say aloha and welcome to Secretary Norton and 
Assistant Secretary Scarlett.
    I have some questions about the Land and Water Conservation 
Fund, also on Compact Impact Aid, and also on the Department's 
invasive species initiatives. I also have questions that I 
would like to submit for the record, Madam Chairman, about the 
U.S. Park Police protection around Federal monuments, as well 
as your Department's outsourcing efforts.
    Senator Murkowski. They will be in the record.
    Senator Akaka. Thank you, Madam Chairman.
    The Land and Water Conservation Fund, as we know, is a 
primary means of land acquisition for the national parks and 
refuges. And I realize, Madam Secretary, that you have a full 
plate and you have a lot of decisions to make and that hard 
decisions have to be made on the allocation of funding. We hear 
about these decisions through questions to you. I want to add 
another one.
    I see that over $130 million of the Department's LWCF funds 
are requested for programs and also understand--and you can 
correct me if I am wrong--that these are not authorized under 
the LWCF. I also noted that the 2005 budget does not include 
funding for the expansion of Hawaii's Pu`uhonua O Honaunau 
Historical Park that was enacted in 2002.
    So my question to you is to get a reading of where that 
historical park ranks in the budget lineup and when you expect 
to request the funding.
    Secretary Norton. Senator, I would be happy to provide some 
information about those specific proposals and where they are 
in the Park Service overall ranking.
    I do want to make clear something that we do not often 
focus on, that there are a number of other ways in which the 
Federal Government provides money for land acquisition besides 
just the Land and Water Conservation Fund. Those tend to be 
focused on the wildlife and habitat areas of acquisition and on 
State-side kinds of programs. But we do have funding, the 
Migratory Bird Conservation Fund, of $43 million. We have 
several hundred million dollars apiece for our major funding 
programs for wildlife and for fisheries. So there are a number 
of other ways in which we do provide funding to States and to 
Federal agencies for land acquisition.
    Senator Akaka. I did not mention it, but I wanted to tell 
you how much I appreciated your presence out there in Hawaii 
and our neighboring jurisdictions in the Pacific. I know the 
people out there really appreciated your visit.
    Secretary Norton. We greatly appreciated that as well.
    Senator Akaka. I thank you for working closely with me and 
with our delegation on issues of importance to the people of 
Hawaii and the Pacific. The progress we have made on the 
Compact Impact Aid I feel was good. I worked well with your 
staffers out there, and I think we accomplished quite a bit and 
especially that it was timely. So all of that was great. All of 
that reflected the relationship of the people out there and 
with your Department. So I continue to look forward to working 
with you to pursue the efforts to extend also the Federal 
policy of self-governance and self-determination for Native 
Hawaiians.
    While we have accomplished much, Madam Secretary, with 
respect to the Compact of Free Association, there is, as we 
know, still some more to do. I am pleased that the 2005 budget 
includes $30 million in mandatory funding for Compact Impact 
Aid for the affected areas of Hawaii, Guam, and the 
Commonwealth of the Northern Marianas.
    However, it is my hope that communications between the 
Office of Insular Affairs and Hawaii's Congressional Delegation 
will be better in 2005. Let me explain that we have worked 
closely together, but I was disappointed with the manner in 
which the Compact Impact Aid for 2004 was handled, as I said, 
by the Insular Affairs Office because we were not provided with 
the notice of the results of the census of FAS citizens in 
Hawaii, nor were we consulted about the division of funding for 
Compact Impact Aid.
    In addition, I was informed only yesterday that the $10.5 
million in fiscal year 2004 funds to be received by the State 
of Hawaii would be subject to new semi-annual reporting 
requirements. This is one example of OIA not being forthcoming 
about changes they are implementing as a result of the 2003 
amendments. An issue of this magnitude requires better 
communication and improved collaboration, and a field meeting 
with senior level staff would certainly help to address this 
matter.
    So my question to you on this is, what assurances, Madam 
Secretary, can you provide that this working relationship and 
communication and collaboration will improve with Hawaii's 
Congressional Delegation with respect to the issue of Compact 
Impact Aid funding?
    Secretary Norton. Senator, I would be happy to arrange for 
the head of our Office of Insular Affairs to meet with you and 
to discuss that. As you know, it is a fairly automatic formula 
based on the population census of immigrants from the Freely 
Associated States, and the $30 million is divided between 
Hawaii and the territories on that basis. So we do have a 
predictable formula now for the amount and will look forward to 
working with you on the utilization of that and making sure 
that that process operates well.
    Senator Akaka. Thank you very much for that.
    Also, I understand that the census which was used to base 
the distribution of funds in fiscal year 2004 will be used for 
the next 4 years. As history has shown over the past 18 years, 
the population of FAS citizens changes drastically in the 
affected areas on an annual basis, and I am concerned that the 
numbers from the last enumeration will no longer be valid, but 
we will have to see how that goes.
    What will the Department do to address this matter, and 
would you consider conducting an enumeration more frequently 
than every 5 years, perhaps even annually?
    Secretary Norton. Senator, I am not sure what the cost is 
for doing the census, and I do not know the exact answer to 
your question, so I will be happy to provide some more 
information for you for the record.
    Senator Akaka. Maybe we can further discuss that.
    Let me then ask you a question, as I mentioned, about 
invasive species. As you know, Hawaii continues to struggle 
with the problem of invasive species. Our State is threatened 
by both aquatic and terrestrial invasive species and the 
problem continues to grow. We like to claim that Hawaii is a 
special place, and it is. It has the most species that are 
affected there.
    It appears that the budget in brief document that, except 
for the Brown Tree Snakes, the species targeted for funding are 
not those using significant problems in Hawaii. The U.S. 
Geological Survey has stated that ``Hawaii's problem with non-
native species is the most severe of any State''--and that is a 
fact--and that ``invasive species are the State's dominant 
biological resource issue today.''
    Last year, I noted a commendable increase of 13 percent in 
funding for invasive species related programs. However, this 
year the increase is only 1 percent between fiscal year 2004 
and fiscal year 2005. Given the Department's initiative that 
recognizes invasive species as an enormous threat, I would 
expect to find a greater increase for the fight against 
invasive species in fiscal year 2005. Can you help me 
understand, Madam Secretary, the nearly level future funding, 
given the admitted magnitude of the invasive species problem 
nationwide?
    Secretary Norton. First of all, I did have the opportunity 
to, when I was in Guam, see one of the brown tree snakes. They 
are, indeed, ugly creatures and I am very pleased to be working 
on our efforts to prevent them from getting to Hawaii and 
causing the devastation we have seen to the bird populations 
especially in Guam.
    The invasive species are a very important issue. We are 
handling those in many areas by the individual land managers. 
So our park superintendents in Hawaii, for example, would be 
working on invasive species in their areas. That also is 
something that our cooperative conservation grant programs very 
often address. We had a chart that showed the increases in 
those programs. Many of the projects are ones that do address 
invasive species and their effect on habitat. So it is 
something we view as important. We have greater coordination 
taking place through our Invasive Species Council than we have 
had in the past to make our funds be used as effectively as 
possible.
    Senator Akaka. Finally I wanted to ask you to place in the 
record--and you can inform me about this with regard to my 
State. It is unclear what level of funding Hawaii can look 
forward to for the management and control of invasive species, 
and so what I am asking is whether you can provide me with a 
State-by-State breakout on this. You can write to me on that.
    Secretary Norton. We will see if we can provide that 
funding. We certainly do encourage getting proposals for 
various projects from citizens groups or local communities to 
address those kinds of issues and would be happy to provide you 
with information about the various grant programs that might be 
available to people in Hawaii that could help in addressing 
those invasive species problems.
    Senator Akaka. Thank you very much, Madam Secretary. I just 
want to say again, Madam Secretary, thank you for all you are 
doing and I look forward to working with you. And I wish you 
well.
    Secretary Norton. Thank you.
    Senator Murkowski. Thank you, Senator Akaka.
    Welcome to you, Secretary Norton. It is always nice to see 
you, always nice to hear what is going on at the Department. 
Like the good Senator from Hawaii, we certainly appreciate your 
visits to our State and look forward to at least one visit this 
spring.
    Secretary Norton. Thank you. I do look forward to visiting.
    Senator Murkowski. These are always good for, I think, both 
sides.
    I also want to take this opportunity to compliment not only 
you but all of those that worked with you, your staff, and all 
the personnel with BLM Alaska who were involved in the planning 
of the Northwest Planning Area of the National Petroleum 
Reserve in Alaska. It was a great pleasure to be with you at 
the time that you signed that record of decision for this plan. 
I certainly look forward to working with you and your staff as 
the lease sales move forward in June so that we can realize the 
same benefits from this area in terms of increased energy 
production on the North Slope that we are currently seeing in 
other parts. So that was a good step forward for us and we look 
forward to the next phase of that.
    Just a couple of comments on the budget initially and some 
of the highlights from Alaska's perspective. Of course, we have 
to start with mention of ANWR--the Arctic National Wildlife 
Refuge. I am certainly glad that the administration continues 
to recognize that oil and gas exploration on this very small 
part of ANWR will continue to--I would like to say 
``continue''--but will certainly render great benefits for 
America in terms of the energy that can be produced from this 
area. I will continue to work on legislation that will open up 
this area. I know that we can count on the support not only 
from the Department but certainly from the President on this. 
As we know, it is not only an energy issue in the sense of 
greater access to energy resources. It is an issue of economic 
and energy security for this country, and certainly as we talk 
about jobs across the Nation, this is one very specific area 
that we can cite and say the potential for success is very, 
very good and very, very great in terms of opportunities. So we 
look forward to working with you again on ANWR.
    Another area I would like to just mention is the payment in 
lieu of taxes program. I notice in the President's budget that 
we are calling for an increase of $1.7 million over the $224.3 
million enacted for fiscal year 2004. This is a huge area for 
us, as you know, in States like Alaska where so much of our 
land is Federal land, and we recognize that our local 
governments rely on these contributions, these PILT dollars. It 
is significant for our State and we will look forward to 
working with you to continue to increase funding for PILT.
    Other mentions of note certainly: the natural gas pipeline. 
We had some great news in the State just about a month ago with 
the submission of two applications to the State under the 
State's Stranded Gas Development Act. One application jointly 
from the three major producers, the other application from a 
pipeline company in conjunction with a native corporation and a 
private energy company. But the significance of the submission 
of these applications is huge for us as a State. We have had 
the 35 trillion cubic feet of natural gas sitting up there on 
Alaska's North Slope for a long time. We have just got to 
figure out the way to bring it to America. We are getting 
close, but with the submission of these two applications, I 
think it is fair to say that we are closer than we ever have 
been.
    But in order for those submissions to move forward and for 
any entity to proceed with construction of a natural gas 
pipeline, we have to have the provisions that were contained in 
the energy bill that we have been working on for this past 
year. As you know, that energy bill is still alive. It might be 
getting a little skinnier than before, but it is going to be 
critical for this country that we do move forward with certain 
provisions that were contained in that energy bill and 
certainly from our perspective the provisions that would 
provide for the authorization of this massive project to bring 
the number one source of energy or certainly the most desirable 
source of energy nowadays--it is clean. Everybody wants natural 
gas. We just have to figure out how we get more domestic 
production. So we look forward to working with you on that.
    It is also important to note that we focus a lot on that 
particular project and our ability to bring this free gas to 
the rest of the country. But I did note with interest that the 
Department is conducting research on the production of the 
unconventional gases like the methane hydrates and the 
opportunity that we again have in the Arctic regions with these 
formations, also in the marine sediment. So if we can figure 
out, again, how to untap these huge resources, again the 
potential is great, and we think we have got so much to offer 
in Alaska in terms of energy. Our big challenge, as you know, 
is how do we tap it, how do we get it out to be utilized.
    That brings me to a point that I believe Senator Craig 
brought up with you when he spoke to the mining issue and what 
kind of a mining policy we have. As you know, the mineral 
reserves in Alaska are huge in terms of our coal deposits and 
just minerals all across the board. The reserves are enormous.
    We had a conference in Fairbanks several weeks ago and had 
testimony from an individual within the mining industry talking 
about Alaska's position within the international mining world. 
In a period of just 2 years, we went from being ranked I 
believe it was 5th in the world, in terms of the potential for 
mineral reserves and just the opportunities for mineral 
production, to 11th. So the question is, what happened? We did 
not do anything. We did not extract anything. It is not as if 
our mineral potential has decreased at all.
    But what this gentleman concluded in his assessment were 
two very specific things. It is the investment opportunity and 
the desirability of these companies. When they look at Alaska, 
they do not view us as desirable to operate because of 
permitting restrictions and concerns and also the land use and 
land conveyance issues. It was one of those things that just 
kind of knocks you over the head and says, wait a minute. If we 
have got such vast potential, what is it that we can do to make 
it a more attractive investment opportunity. I would like to 
work with you and your Department as we explore that a little 
bit.
    One final point I would like to make is with regard to the 
Alaska's Minerals Information Project. This is a consortium of 
the BLM, the USGS Division of Geological and Geophysical 
Surveys, and the Department of Natural Resources. It is 
intended to ensure that existing minerals data is maintained so 
that this information that is compiled is not lost. It is also 
attempting to digitize the data and make it available to the 
public on the internet. The State is taking, I think, a very 
aggressive path to increase resource development and 
opportunities in the State. We recognize we have got a long way 
to go, but it is crucial to us that this kind of information 
not be lost.
    Apparently within the budget, you have chosen to request no 
new funding for this project. So I would like you to either 
speak to that or let us know how we can work with you to 
address that because we feel it is very important that we 
continue with this particular program.
    Secretary Norton. I do not know the details on that right 
off. So I would be happy to provide some information for the 
record on that.
    Senator Murkowski. That would be great. We would look 
forward to that.
    That appears to be the end of the questions. We are into 
the lunch hour, so we will let you go. Again, thank you for 
appearing before us this morning and for giving us the overview 
at this point in time. I look forward to your next visit to the 
State.
    Secretary Norton. Thank you very much. Look forward to 
working with you and the other members of your committee.
    Senator Murkowski. We stand adjourned.
    [Whereupon, at 12:13 p.m., the hearing was adjourned.]

                                APPENDIX

                   Responses to Additional Questions

                              ----------                              

                        Department of the Interior,
           Office of Congressional and Legislative Affairs,
                                     Washington, DC, March 4, 2004.
Hon. Pete V. Domenici,
Chairman, Committee on Energy and Natural Resources, U.S. Senate, 
        Washington, DC.
    Dear Mr. Chairman: Enclosed are responses to questions submitted 
following the February 12, 2004, hearing on the Department's Fiscal 
Year 2005 budget request.
    Thank you for the opportunity to provide this material to the 
Committee.
            Sincerely,
                                             Jane M. Lyder,
                                               Legislative Counsel.
[Enclosure]
              Responses to Questions From Senator Domenici
    Question 1. I know that the Forest Service held a meeting with all 
of its Forest Supervisors and spent a considerable amount of time 
explaining the Administration's expectations on implementation of the 
Healthy Forest Restoration Act.
    What has the Department of the Interior and the Bureau of Land 
Management done to inform your field managers of the Secretary's 
expectations for implementation of this important legislation?
    Answer. Since the signing of the Healthy Forests Restoration Act, 
the BLM has worked with the Forest Service to develop an implementation 
guide for field managers. On early March 11, 2004, all managers in the 
BLM will participate in a presentation and training session regarding 
the guide. This session will emphasize how to use the authorities of 
the Act to implement projects that will improve the health of BLM-
administered lands.
    Question 2. Have you established targets for each of your State 
Directors and District Managers related to implementation of this 
legislation? If so how many acres of treatment do you expect to 
accomplish in FY 2004?
    Answer. The BLM will establish targets for each State Director in 
early March 2004, which will reflect the number of projects that will 
be planned under the authorities of the Act in 2004. The BLM expects 
that 2004 will be a year to learn and gain experience with these new 
authorities. We expect to be able to send you estimates of the number 
and size of projects by May 2004. Actual on-the-ground implementation 
of most authorized projects will begin in FY 2005.
    Question 3. I continue to be very concerned about the treatment of 
the pinon juniper in my State. Thousands upon thousands of trees are 
dying. I would like you to provide me with a strategic plan for 
treating these areas of mortality, could you do that?
    Answer. The Department is also very concerned about the extent of 
mortality in pinon juniper woodlands in New Mexico and elsewhere in the 
Southwest. The BLM is a full partner with numerous other agencies, 
private land owners, Tribal representatives, and academia, (including 
New Mexico State), under the leadership of the NM State Forester, in 
developing a statewide Healthy Forest and Watershed plan. This Plan 
will address, on a strategic level, treatment areas and options to deal 
with forest health issues including Pinon die-off. The New Mexico 
Forest and Watershed Health Plan is scheduled for completion in 
December 2004.
    In addition to cooperating in the State's planning effort, the BLM-
New Mexico State Director developed an action plan in FY 2003 to 
address forest health issues on BLM managed lands in the State. This 
plan identified additional resources needed to address these 
conditions. To support this plan, the Bureau expects to hire 2 
additional foresters by Summer 2004. Also, additional funds have been 
allocated in FY 2004 for forest restoration projects in the Sate. Our 
Taos Field Office recently approved an area-wide fuel wood cutting 
program that allows the cutting of dead Pinon throughout the Field 
Office area. This will help to reduced the dead bio-mass and will 
provide local residents with fuel wood.
    Question 4. I am also concerned that we have thousands of acres of 
private and State land that are also suffering this catastrophic 
mortality. Are there any programs in the Department of the Interior 
that we can look to for help in dealing with this insect outbreak?
    Answer. We share your concern about this important issue. The 
primary programs providing state and private assistance for these 
purposes are in other agencies, most notably the Department of 
Agriculture. However, BLM funds may be used to treat adjacent non-
Federal State or private lands if the treatment benefits resources on 
Federal lands.
    Question 5a. Secretary Norton, it is our understanding that within 
the '05 budget, BLM is seeking to increase fees in an effort to recover 
additional administrative costs within the minerals program. Congress 
has increased the funding levels for BLM's Oil and Gas Programs over 
the past five years for inspection, the processing of permits and for 
the conducting of environmental assessments. This proposed increase in 
fees is of concern to many of those producers on federal lands who 
continue to struggle with the lack of progress being made with regards 
to expediting APD and Rights of Way.
    Does the BLM minerals program currently operate under a budget 
shortfall? How much revenue was generated through fees and royalties 
last year? Should it be expected that the program will now pursue 
generating additional receipts to cover its operating costs?
    Answer. BLM does not operate under a shortfall. Revenue is 
generated from Federal minerals through rent, royalty and fees. This 
revenue is not retained by BLM. In FY 2003, Federal onshore minerals 
generated the following:

Rent and Royalties Collected............................  $1,745,000,000
Fees....................................................        $605,000
First Year Rentals (paid separately)....................     $43,000,000
Bonus Bids..............................................    $167,000,000

    Rent, royalty and bonus bids compensate the public for commercial 
use of public resource. This money is deposited in the Treasury and 
disbursed as directed by statute, with 50% going to states and 40% 
going to the Reclamation Fund, except in the case of Alaska where 90% 
goes to the state.
    The fee increases proposed in connection with the FY 2005 budget 
will update charges for processing applications and permits for various 
energy and mineral activities. This will better ensure that public land 
users, rather than the general public, pay the costs of permitting 
these activities. It should also improve the BLM's ability to quickly 
respond to changing industry demand by providing resources to respond 
to workload peaks.
    Question 5b. Please identify the specific programs and states where 
this proposed increase in fees will be put to use. Have you identified 
particular field offices that will receive funds generated through the 
increase in funds?
    Answer. The BLM is proposing cost recovery for certain document 
processing actions in its Oil and Gas Program, Coal Program, and Other 
Minerals Program. The new user fees are estimated to generate $4.0 
million in revenues that would be retained by the BLM. This cost 
recovery proposal is accompanied by a $4.0 million reduction in the 
budget request for appropriations, thus maintaining budgetary resources 
for the programs at the 2004 level. The funds collected under the cost 
recovery proposal will be used to process applications in the office 
where the work is done, which would be those offices where leasing-
related applications are processed. In some cases a single application 
may require several offices to participate in its processing so the fee 
could be used in more than one office. The fees collected will replace 
appropriated funds that these offices would have otherwise been 
allocated.
    Question 5c. In the business world, when consumers are informed 
that the costs of service are going to increase, consumers have a right 
to know what they will be getting in return for their money. What 
additional services might minerals producers expect in return for the 
increase in fees? For example, how many new APDs might we expect to be 
processed?
    Answer. As noted in the response to question 2, the cost recovery 
proposal is offset by a reduction in appropriations, so the program 
capability will remain at the 2004 enacted level. It primarily applies 
to leasing-related document processing costs. The cost recovery 
proposal is designed so that the party who directly benefits from the 
government's work pays the cost of this work. We expect that the number 
of applications will remain the same. However, the cost recovery 
proposal will allow us to more rapidly respond to changes in demand or 
the location of that demand.
    Question 5d. BLM has received additional funds in the past to 
achieve specific goals in the minerals program, how do we know these 
funds will improve their ability to timely produce energy for our 
nation?
    Answer. As explained above, the 2005 cost recovery proposal does 
not provide additional funds to the Energy and Minerals Program. 
Instead, it is offset by a reduction in appropriations so as to 
maintain total program resources at the 2004 enacted level. However, 
reliance on user fees should improve program efficiency and performance 
in processing the subject documents, in terms of timely response to 
industry demand, because program resources and capability will be 
directly tied to industry demand. The funds needed to process the 
documents will be immediately available at the time the customer 
requests this service. The program will not be dependent on the 
uncertainties of budget requests, which are formulated based only on 
estimates of projected demand.
    Question 5e. Is the Department of the Interior planning on future 
fee increases for producers in future budgets? What about for other 
users of federal lands? Might they expect fee increases as well?
    Answer. We currently are not considering additional fee increases. 
We can of course not commit to what the Administration will do in 
future budgets with regard to fees.
    Question 6a. Secretary Norton, as you know, the Congress 
established the Abandoned Mine Land Program in 1977 as a 15-year 
program. Paid for with fees collected from today's operating coal 
mines, the expectation was to complete the Nations backlog of abandoned 
coal mine reclamation by 1992. This program as already been 
reauthorized once and of course we are about to take up consideration 
of a third time. Instead of a 15-year program, AML as developed a sense 
of permanency. Your budget proposes reauthorizing the fund for another 
14 years, but it also claims it will take another 25 years to address 
the remaining health and safety problems.
    There are many questions we will delve into in hearings over the 
coming weeks, but an you explain why this program has so dramatically 
exceeded its original timeline for completion?
    Answer. In the early years of Abandoned Mine Reclamation Program, 
most of the fees collected went directly to cleaning up abandoned coal 
mine sites. Some states and tribes with fewer abandoned coal mine sites 
finished their reclamation work relatively soon. However, under current 
law, those states and tribes were still entitled to receive half of the 
fees collected from coal companies operating in their states. In the 
early years of the program this didn't cause a considerable problem, 
because the Eastern states, where most of the hazardous sites were 
located, were also the states where most of the coal was being mined 
and were, therefore, receiving the majority of the AML fees.
    However, beginning in the 1980s, a shift occurred whereby the 
majority of the coal mined in this country began coming from mines in 
Western states. This shift revealed an inherent tension in the AML 
program which now allocates a large part of AML fees to states that 
have no abandoned coal mine sites left to clean up. By contrast, the 
states that still have hundreds of dangerous, life-threatening sites 
left to reclaim receive less and less money to address these pressing 
problems. Currently, we are only able to devote 52 percent of the money 
we collect to the purpose for which is it collected--reclaiming 
abandoned coal mine sites. That percentage will continue to decline 
each year unless the law is reauthorized and amended, and the 
fundamental problem is corrected.
    After having operated under the current statutory allocation 
formula which results in a progressive distribution of resources away 
from the most serious AML problems, almost $3 billion worth of listed 
high priority health and safety coal problems still remain. Even if we 
use all collections received between now and September 30, 2004, when 
the fee will expire, as well as $1 billion of the unappropriated 
balance, we would still be left with $2 billion in health and safety-
related problems.
    An OSM study last year estimated that more than 3.5 million 
Americans live less than a mile from health and safety hazards created 
by abandoned coal mines. These people are at risk of serious injury or 
even death until we clean up these hazards.
    Our plan attempts to addresses this disturbing fact by ending the 
state share and focusing all future collections in reclamation of the 
highest priority abandoned coal mine sites, providing all states with 
sufficient funds to complete their highest priority sites decades 
sooner than under current law, while also honoring commitments made to 
states and tribes in the past. The increase in funding reflected in our 
budget, which is contingent upon obtaining the needed legislative 
reform, demonstrates the Administration's commitment to addressing this 
problem in a way that recognizes the inherent tension between the goals 
established under SMCRA.
    Question 6b. If reauthorized, is there any assurance this process 
can be managed in a manner that will allow us to make this the last 
time?
    Answer. Currently, there are almost $3 billion in listed high 
priority health and safety coal problems that remain to be reclaimed. 
Under the Administration's proposed legislation, we will need to 
collect about $3.6 billion to fund all of the costs associated with the 
cleanup. With the phased-in fee reduction in the Administration's 
proposal, we can collect sufficient funds in the next 14 years to 
complete the high priority health and safety problems. States would 
receive the funds needed to address their high priority problems at the 
same rate or sooner than, under the current system and we would get all 
of the funds to the states in 25 years.
    By contrast, if we extend the program and retain the existing 
allocation system, we would still be required to distribute half of the 
money collected on the basis of current production which has no 
relation to the extent of the remaining AML problem. As a result, we 
would need to collect $6.8 billion to complete the $3 billion needed to 
complete remediation. It would take 23 years to collect these funds at 
the current rate. In addition, we would need 60 years to complete 
remediation in Pennsylvania and 50 years in West Virginia, with an 
overall average of 47 years to get the funds to the states. In some 
states, it could take more than a century to allocate the needed funds 
to address these high priority problems.
    Under the Administration's proposal, each State will receive 
sufficient funding to complete--two decades sooner and with a fee 
reduction of $3.2 billion--all of the remediation work at sites where 
recorded health and safety risks currently exist.
    Question 6c. Since fees are being collected from active coal mines 
means that today . . . in 2004, this program is largely being paid for 
by Western States. While the bulk of the abandoned mines needing 
reclamation are in the eastern half of the country. Has the Department 
explored other options for funding this reclamation?
    Answer. We recognize the difficulty in fashioning a solution to 
this problem that addresses both the ongoing problems faced by states 
with high priority coal-related health and safety issues while not 
disadvantaging the western states where the majority of fees are 
currently generated. Many of the options available did not strike an 
appropriate balance between remediation and returning fees to the 
states in which they are generated. For example, one option would be to 
simply retain the current allocation formula. However, this approach 
would only further delay the reclamation of high priority sites in the 
east because most of the current production takes place in the west. 
Indeed, certification of some states would take as long as 100 years 
under the current allocation distribution because of the amount of time 
it would take to collect sufficient fees to complete the work. Another 
option would be to direct all of the fees collected to the eastern 
states where the high priority sites exist. However, this option would 
result in the western states receiving no money.
    We determined that the best approach would be to strike a balance 
between the interests of the western states, while addressing the high 
priority health and safety needs existing in the east. Accordingly, we 
fashioned a proposal that addresses both concerns. The Administration's 
proposal serves to fulfill the promise made under SMCRA by freezing the 
state share balances as of September 30, 2004. As a result, certified 
states will receive the funds they were promised under SMCRA. Fees 
collected after September 30, 2004 will be directed to those states and 
tribes that need the funds to address their high priority health and 
safety reclamation needs. This will result in reclamation occurring 
much faster than under the current allocation formula, thereby 
addressing pressing health and safety concerns for millions of 
Americans who live on or near our Nation's coalfields. Finally, the 
proposal's graduated fee reductions make the program revenue neutral 
and have the added benefit of resulting in lower costs to consumers who 
purchase electricity from producers that burn coal in their plants.
    Question 6d. To my western colleagues and I, this program seems out 
of balance. Can we find a more equitable manner to distribute the 
benefits?
    Answer. Please see our response to the above question. We certainly 
are open to working with you and other members of the Committee on this 
issue.
    Question 7a. In the context of this continued drought, the BOR is 
bound to continue to meet contract deliveries. It is also bound to meet 
the provisions of the Fish and Wildlife Service 2003 Biological 
Opinion, which includes the projects specified in the Reasonable and 
Prudent Alternatives and providing water to meet minimum flow 
requirements. We have implemented the ESA workgroup to gain community 
support and cooperation, but the primary burden falls on the DOI. The 
BOR has various obligations under the 2003 Biological Opinion. Congress 
has provided funding for the past 3 years to assure BOR is in 
compliance with much of the requirements from the on-going litigation 
on the Middle Rio Grande. However, every year, the administrations 
budget proposal does not include funding to meet these obligations. 
Specifically, the Administration's budget proposes a $14.3 million 
dollar (45%) cut in the budget for the Middle Rio Grande project for 
2005.
    How will the BOR meet its court ordered and legislated mandatory 
obligations with this greatly decreased budget?
    Answer. We believe the requested funding is adequate to meet the 
requirements of the Biological Opinion (BiOp) and continue required 
channel maintenance. Because water storage and weather, (i.e., 
precipitation, temperature, etc.) cannot be predicted so far in 
advance, we will monitor the situation carefully and take the 
appropriate actions, if necessary.
    Question 7b. Is Interior considering the potential costs of leasing 
water to meet its obligations? Where would the money come from to meet 
those costs?
    Answer. Yes, the BiOp includes the leasing of water and these funds 
are provided for in the President's request.
    Question 8. Secretary Norton, the State of New Mexico remains in 
severe drought with projections that the Rio Grande will have less than 
60% of its normal flows this coming year. This comes on top of depleted 
reservoirs, dry soil conditions and increasing environmental demands. 
The DOI Budget in Brief recognizes that the Rio Grande has reached 
conditions similar to the trauma on the Klamath River.
    Will the Department of the Interior and the Bureau of Reclamation 
be prepared to address potential drought related trauma this summer?
    Answer. Yes, to meet the requirements of the BiOp, Reclamation was 
able to carry over some stored water from last year and is actively 
purchasing additional water from willing sellers. Given the February 1 
forecast, Reclamation currently anticipates it should have sufficient 
water for the Silvery Minnow.
    Question 9a. Commissioner Keys engaged in a series of public 
discussions on water issues over the last year including one in my home 
state of New Mexico. I am aware of much of the input provided to the 
Administration. However, what the Administration intends to do with 
that information is unclear. The Budget in Brief alludes to many 
advantages of this new effort but provides little concrete information 
on an actual program.
    Specifically, what will DOI do with the proposed $21 million in 
funding for ``Water 2025''? What parts of this funding simply regroups 
existing activities?
    Answer. As in the FY 2004 Western Water Initiative and in keeping 
with the Secretary's 4C's--communication, consultation, and 
cooperation, all in the service of conservation--the 50-50 Challenge 
Grant Program will continue to be an integral part of the Water 2025 
Initiative in FY 2005.
    With the $20 million in the request, Reclamation will continue to 
seek proposals from irrigation and water districts that would like to 
leverage their money and resources to create water markets and make 
more efficient use of existing water supplies through improved water 
conservation, efficiency, and water bank projects.
    It is essential that we maximize these Federal dollars with 
partnerships. With the 50 percent cost share requirement in the 
Challenge Grant Program, we are essentially doubling the amount of 
funds used to enhance the efficient use of available water. Moreover, 
it engages the Districts and communities in helping to solve their 
water supply problems.
    In addition to the Challenge Grant Program, Interior agencies, in 
conjunction with USDA, will closely monitor the western basins 
experiencing drought conditions. We are continuing to coordinate 
existing programs with other Federal agencies, such as the Corps of 
Engineers and the Natural Resources Conservation Service.
    Another component of Water 2025 will be educating civic leaders, 
farmers, conservationists, and citizens in certain ``hot spot'' areas 
of the situation that their community can and will face as it relates 
to water.
    Improving technology is important to purifying salty, brackish, and 
otherwise impaired waters to increase their utility. Water 2025's goal 
is to aid technological advances and reduce the high costs that slow 
adoption of new water treatment technologies, such as desalination 
technology.
    None of the funding regroups existing activities. While the 
philosophy of Water 2025 is practiced in many of the activities in 
Reclamation, the funding for Water 2025 focuses on technical and 
financial resources in areas in the West that are struggling with 
scarce water supply problems. Existing activities will continue in 
other areas of the West to help prevent future water supply crises.
    Question 9b. Do you envision ``Water 2025'' becoming the primary 
agency policy on water resources?
    Answer. We launched Water 2025 last year as our vision of the 
future role of the Department in the management of water in the West. 
Water 2025 is a problem-solving initiative that will help States and 
their citizens to manage scarce water resources, focusing on areas of 
the West where conflict and crises over water can be predicted. We 
simply cannot continue to have communities in the West experience water 
supply crises such as those that occurred in the Klamath or Middle Rio 
Grande basins.
    Water 2025 is about common-sense solutions that have been tested in 
the real world--conservation and new uses of technology in the 
management of water, market based transfers of water, collaboration 
instead of conflict and crisis, research into solutions for the future, 
and making the best use of the water supplies that we already have.
    Question 9c. What is the next major step in implementing this 
initiative?
    Answer. Water 2025 will continue focusing on the Water 2025 
``Tools'': Conservation, Efficiency, and Markets; Collaboration; 
Improved Technology; and Removing Institutional Barriers and increasing 
Interagency Cooperation. Specifically, Interior and Reclamation will:

  <bullet> For the FY 2004 50-50 Challenge Grant Program, announce the 
        selected grants by mid-summer. Implementation will begin in 
        early August. As stated earlier, this program will continue in 
        FY 2005.
  <bullet> Pursue opportunities in the West for collaboration tied to 
        demonstrable improvements in water supply.
  <bullet> Closely monitor the western basins experiencing drought 
        conditions and work with States, stakeholders and other Federal 
        agencies to coordinate available programs concerning drought 
        relief.
  <bullet> Educate civic leaders, farmers, conservationists, and 
        citizens of the west, particularly in ``hot spot'' areas.
  <bullet> Facilitate research to reduce the high costs that slow 
        adoption of new technologies, such as desalination technology.

    Question 10. Secretary Norton, we recently read the Departments 
call for proposals for the competitive grants program under the new 
Water 2025 program. While we applaud the goals of this program, it is 
not clear what the implications are for conservancy districts and 
similar organizations such as the Middle Rio Grande Conservancy 
District.
    Are there any criteria that you feel would eliminate such 
organizations from participating in the Competitive Grants Program?
    Answer. The FY 2004 appropriations for the Western Water Initiative 
included $1.75 million for the Middle Rio Grande Conservancy District. 
Reclamation is working directly with the Conservancy District to 
identify water conservation efficiency improvement projects, such as 
flow measurement devices, water management and data collection 
stations, diversion dam rehabilitation and other tools identified in 
Water 2025. The criteria and performance measures developed for the 
Challenge Grant Program will be used to select the projects. However, 
the District will not be competing with other projects, but instead 
will receive direct funding for FY 2004.
    Question 11a. The federal government's special relationship with 
Native American tribes often puts agencies in difficult positions. One 
example is playing out on the Rio Grande in New Mexico. A number of 
Pueblos are dependent upon the Bureau of Reclamation for their water 
delivery and irrigation infrastructure.
    The affected Pueblos rely upon the BOR to deliver water that they 
hold rights to when they Pueblos require it. Sometimes it appears that 
BOR has difficulty meeting these requests and it is often blamed upon a 
lack of available manpower or maintenance work being done upon the 
system. Furthermore, many of the Pueblos' water delivery systems and 
irrigation systems are breaking down and desperately require upgrading 
and modernization.
    Does DOI and BOR have sufficient funds to properly engage with the 
tribes and fulfill water delivery obligations?
    Answer. DOI has met its legal obligations to the Pueblos each year 
regarding their prior and paramount water rights. DOI and Reclamation 
have adequate funding and have fully engaged the tribes and fulfilled 
water delivery obligations in 2002 and 2003.
    Question 11b. What efforts are DOI and BOR undertaking to address 
these problems? Are funds available for the purpose of modernizing 
Pueblo irrigation systems?
    Answer. Operation and maintenance of Pueblo irrigation systems is 
provided by the Middle Rio Grande Conservancy district via a contract 
with the Department. Through the Bureau of Indian Affairs, the 
Department is currently renegotiating this contract with the District. 
One of the goals of the contract negotiations is to improve the 
operation and maintenance services provided for Pueblo irrigation 
systems.
    Question 11c. The Pueblos have raised concerns that they cannot 
effectively manage their water resources because their water rights are 
unquantified. They have expressed interest in having their water rights 
quantified so that they can lease water to help the demands of other 
water users and environmental demands in the Middle Rio Grande. Will 
the Department commit to help the tribes and Pueblos with their 
quantification issues?
    Answer. The Departments of the Interior and Justice have a long-
standing policy of working toward addressing Tribes' water rights. We 
recognize the need to work cooperatively with states and local entities 
to ensure the scarce resource of water is effectively utilized.
    Question 12. You have stated that operation and maintenance costs 
for project operations will increase as BOR implements additional 
security measures. As part of the FY 2005 budget, DOI intends to pass 
these increased O&M cost on to contractors. However, part of these O&M 
costs are related to meeting Trust responsibilities to Tribes.
    Do you have an estimate of the security related costs and can you 
tell us what portion of them you intend to pass on to the many western 
water contractors beginning in 2005 and thereafter?
    Answer. Beginning in FY 2005, annual costs associated with 
activities for guarding facilities will be treated as project 
operations and maintenance (O&M) Costs subject to reimbursement based 
upon project cost allocations. Reclamation will work closely with its 
stakeholders in analyzing security-related O&M costs to determine the 
beneficiary's reimbursable obligation in FY 2005, consistent with 
Reclamation policy and project-specific authorizations and contracts. 
Reclamation estimates it will pass on approximately $12 million of the 
annual $18 million guards and surveillance program to project 
beneficiaries.
    Question 13. Madam Secretary, you are aware of the on-going 
negotiations between the states of Arizona and New Mexico with respect 
settlement of the Central Arizona Project allocation and the upper Gila 
River issues.
    I would like to remind you that the authority for NM to enter into 
a water transfer agreement with an entity in Arizona was granted in the 
Colorado River Basin Protection Act of 1968.
    I would like your commitment that the Administration will more 
fully engage in working with New Mexico, where appropriate, so these 
issues can be resolved and New Mexico can obtain its water allocation 
and necessary funding as legislated in the 1968.
    Answer. The Administration looks forward to continuing to work with 
Tribes in Arizona affected by this legislation as well as the States of 
Arizona and New Mexico to resolve these issues.
    Question 14a. This year the estimated cost for completion of ALP 
jumped 50%. There have been accusations that the BOR had poor 
oversight, that the priority contracting process for Native Americans 
is to blame, that outside groups unrelated to the project sponsors 
influenced engineering decisions without contractor engagement in those 
decisions and so forth. Nevertheless, we know that this project is 
critical to the states of Colorado and New Mexico.
    The Project Plan calls for $65 million dollars this year, but the 
Administration's plan only requests $52 million with the statement that 
$52 million is sufficient until the projects problems are resolved. We 
have received multiple assurances from the BOR that the project is back 
on track and the issues are resolved. I intend to hold a hearing in the 
Appropriations Subcommittee on Energy and Water in March to investigate 
these issues in more depth.
    What remaining issues are important enough to delay construction?
    Answer. Reclamation has taken some aggressive actions to complete 
the Animas-La Plata Project in the most cost effective and efficient 
way possible. Reclamation established a new construction office with 
the sole responsibility to construct the project, an organizational 
structure that we are confident will be successful. Reclamation has re-
initiated and increased the level of coordination and consultation with 
the project sponsors so that they are properly involved in decisions on 
the project, and has developed a system to allow for open and complete 
cost accountability. Reclamation believes the new project cost estimate 
is adequate to complete the project provided indexing is accounted for.
    Question 14b. How great a delay is likely if the full construction 
funding is not available?
    Answer. We cannot give you a certain answer at this time. The 
Administration is developing legislation to extend the authorization of 
appropriations for the project. This legislation will establish a 
revised timeframe that takes into account the increased project costs.
    Question 15a. A proposed Navajo water rights settlement has been 
released for comment by the Department of Justice, Navajo Nation and 
the State of New Mexico. This proposed settlement calls for completion 
of the Navajo Irrigation Project and funding of a set of pipelines to 
provide potable water to most of the chapter houses on the Navajo 
Nation.
    However, the Bureau of Indian Affairs 2005 proposed budget for land 
and water settlements is reduced by $25.1 million dollars or 42%.
    What is the DOI position on the feasibility of the proposed water 
conveyance structures for this settlement?
    Answer. The Bureau of Indian Affairs and Reclamation are studying 
the feasibility of the project. We have reached no conclusion with 
respect to feasibility at this time. Further, neither the Department of 
the Interior nor the Administration has taken a position on the 
proposed settlement, including what share of the costs of the San Juan 
settlement should be paid by the United States.
    Question 15b. Is the Administration preparing to support the 
additional funding needs required if the Navajo Water Settlement is 
complete?
    Answer. We understand the Navajo Nation and the State of New Mexico 
have not yet approved a settlement agreement. At this point, neither 
the Department nor the Administration has taken a position on the 
proposed settlement or committed to fund it. Once a settlement is 
reached and approved by the parties, the Administration will consider 
the appropriate Federal cost share.
    Question 16a. The Aamodt Indian Water Rights settlement on the Rio 
Grande is nearing completion. The parties appear prepared to issue 
similar proposed settlement documents. We anticipate a relatively large 
cost for pipeline construction and other settlement costs.
    Has the DOI been fully engaged in the development of this water 
rights settlement?
    Answer. The Federal negotiation team appointed by DOI participated 
with and assisted the settlement parties as they developed a proposed 
settlement. However, the proposed settlement has not been formally 
approved by any of the negotiating parties. The parties continue to 
negotiate on the issue of how the settlement might be funded. Neither 
the Federal negotiation team nor the Administration has taken a 
position on the proposed settlement or the funding for the settlement.
    Question 16b. What is the DOI position on the technical feasibility 
of the proposed water supply systems?
    Answer. The study of the proposed Santa Fe-Pojoaque Regional Water 
System has not yet been completed by Reclamation, and no DOI position 
has been developed.
    Question 16c. Are there remaining issues with this settlement that 
DOI feels need to be resolved prior to introduction of legislation?
    Answer. One of the goals of involving the Federal negotiation team 
in settlement discussions has been to minimize issues in the proposed 
settlement that might be of concern. Nonetheless, the settlement has 
not yet been fully reviewed within DOI, at the Department of Justice, 
and at the Office of Management and Budget. This review process may 
identify issues of concern to the Administration. One issue already 
identified is the issue of how much of this settlement funding, if any, 
the Federal government should shoulder. Moreover, the source of the 
water for the proposed settlement is uncertain. Settlements without a 
clearly defined and identified water source have a poor chance of 
success and create the potential for additional federal costs.
    Question 17a. Madam Secretary, the drought conditions in many of 
the Western states have reached critical levels. In my home state of 
New Mexico, we are entering our fifth consecutive year of drought and 
forecasts call for 56% of average annual precipitation in 2004. We 
anticipate that this year will exacerbate an already dire situation.
    Water 2025 touts the value of water treatment technology in order 
to help provide increased useable water supplies in the Western U.S. 
However, the Research budget of the BOR, the only place that true water 
treatment technology work is done within DOI, is decreased by $4.8 
million or 33%. This does not appear to be a strong commitment on the 
part of the Administration to providing improved water treatment 
technology for the nation.
    Under the current budget proposal, how large a cut would occur in 
the desalination research program within the BOR?
    Answer. Under the FY 2005 budget proposal, desalination research is 
funded under Water 2025, the Water Reclamation and Reuse Program (Title 
XVI), the Science & Technology Program, and the Desalination and Water 
Purification Programs. Funding for external cooperative agreements and 
grants, under the Desalination and Water Purification Program, is 
$100,000 to allow completion of ongoing efforts, but no new research 
starts due to the expiration of the Program's authorization (i.e., the 
Water Desalination Research and Development Act of 1996, P.L. 104-298 
a.k.a. the Desalination Research Act) on September 30, 2004.
    Funding for internal research related to desalination is included 
within the Science and Technology Program's Enhancing Water Supply 
Technologies allocation of $1,800,000. In the past, much of this 
funding has been directed to desalination; however, funds are also used 
to address other research water treatment technology issues at the 
nexus of water quality and water supply. Approximately $1,500,000 for 
research relevant to desalination is included in the Title XVI budget. 
The FY 2005 Water 2025 budget includes $4,000,000 for cost-shared water 
treatment demonstration projects, including desalination projects. 
Therefore, the total FY 2005 budget for desalination research is 
approximately $6,900,000.
    The FY 2004 enacted budget for Desalination Research and 
Development was approximately $9,575,000. The $7,375,000 enacted 
specified that $6,600,000 shall be used for the construction of the 
Tularosa Basin National Desalination Research Facility and cooperative 
research. Another $1,200,000 was enacted for the desalination part of 
the Advanced Water Treatment activity, and approximately $1,000,000 
enacted under Title XVI.
    Question 17b. Would that cut undermine the continued construction 
of the Tularosa Desalination Demonstration facility in NM?
    Answer. Funding for Tularosa was an earmark in the 2004 budget. 
Funding was not requested in FY 2004 or 2005. However, we feel 
confident that it will compete effectively for grants within the Water 
2025 program.
    Question 17c. What do you believe the appropriate role of the 
federal government should be in helping communities make use of water 
technologies such as desalination and water reuse to meet their water 
needs?
    Answer. We believe there is a role to work in partnership with 
water users and organizations, but that state, local, and private 
entities are best positioned to address local water issues.
    Question 17d. Do you believe that research is necessary to achieve 
a sustainable water supply for the semi-arid regions of the Western 
United States?
    Answer. Research, whether government or privately sponsored, is one 
of many components to addressing the challenges inherent in achieving a 
sustainable water supply.
    Question 18a. The U.S. Geological Survey provides critical data 
collection and analysis on water resources to agencies throughout the 
federal government and through collaborative programs with States.
    The overall USGS budget request decreases by over $18.2 million 
dollars which doesn't include an additional $8.1 million of increased 
uncontrollable costs and a shift of $45.1 million from basic programs 
to create an information technology and security group. This means that 
the critical science and monitoring programs of the USGS will be 
decreased $71.4 million (7.6% of total funding). This comes on top of 
flat funding for the USGS for the last 8 years.
    Of particular concern is a complete elimination of the Water 
Resources Research Institute (WRRI) support provided to 54 State based 
institutions. This only saves $6.4 million but eliminates a critical 
program for my state.
    Why is it appropriate for the USGS of all the agencies in DOI to 
take such a dramatic cut in programs when science has been such an 
administration priority?
    Answer. We are working very hard to better integrate USGS world-
class scientific work with the science needs of our other bureaus to 
ensure that on-the-ground decisions are based on the best possible 
science.
    Much of the ``reduction'' in the USGS comes from the fact that our 
budget does not continue Congressional earmarks from the FY 2004 
budget. In USGS there were $17.1 million in FY 2004 earmarks. Although 
the work funded by these earmarks has merit in many instances, it 
doesn't necessarily address the highest priority science needs of the 
USGS or the Department.
    Our effort to make the highest and best use of our resources is not 
limited to looking at earmarks. Within the USGS budget, we have several 
reductions in base programs that allow us to fund higher priority 
needs, including $2.8 million for increased research in the Klamath 
Basin.
    In addition, the transfer of $45.1 million to create the Enterprise 
Information activity did not reduce program funding. This reflects the 
base transfer of funding for IT functions from the science disciplines 
to a centralized enterprise information activity within USGS. This 
transfer will eliminate duplication and improve efficiency.
    Question 18b. How can DOI justify elimination of the WRRI 
institutes?
    Answer. The WRRI have been successful at generating funds from non-
USGS sources. Now, the contribution that the USGS gives the WRRI makes 
up a very small share of the Institutes' total funding. For every 
dollar that the USGS gave the WRRI in 2003, they had an additional 
$19.00 collected from other sources. The USGS has higher priority 
science needs that could benefit from the $6.4 million.
    Question 19a. It appears that the USGS is being oriented to work 
solely on federal lands. This agency provides decision makers and the 
public with information about matters unrelated to Interior lands 
including information about floods, fault zones and earthquakes, 
groundwater quality and availability, and the spread of invasive 
species.
    The House Appropriations Committee strongly urged the 
Administration ``to continue to fund these critical science programs in 
the base budget in future years.'' The Senate Appropriations Committee 
urged the Administration ``to bear in mind the expressed public support 
across the United States for the Survey's programs.''
    Has DOI engaged the public, non-federal decision makers and 
industrial users of critical USGS information in formulating the 
current and future USGS budgets?
    Answer. We openly solicit opinions and we listen whenever possible. 
The USGS, the Department, and the Office of Management of Budget have 
met with a variety of USGS constituents and we do understand their 
views.
    Question 19b. Does DOI intend to continue to decrease the 
involvement of the USGS on non-federal lands?
    Answer. Decisions by the Department's land managers and other 
program managers need to be informed by the best science available. As 
have USGS budgets for several years, the 2005 budget emphasizes the 
importance of ensuring that the world-class science conducted by USGS 
is relevant to and available for management decisions. This does not 
mean that USGS is withdrawing from its broader role of providing 
science to the Nation. The budget continues funding a broad range of 
science activities and provides selective increases for high priority 
programs, such as the use of Interferometic Synthetic Aperture Radar to 
monitor the ground deformation that precedes volcanic eruptions. As 
part of USGS significant contribution to the DOI Stategic Plan Goal of 
Serving Communities, the USGS has a vital national and international 
role in monitoring hazards such as earthquakes, volcanoes, and 
landslides, in monitoring the Nation's streams, coastal zones, and 
migratory bird populations, and in cooperative programs with the States 
to understand our water resources and map the land.
    Question 20a. The President's budget request for the Department of 
the Interior's Bureau of Reclamation includes $15 million for the 
CALFED program activities that can be undertaken within existing 
statutory authorities. Of this $15 million, a total of $8 million is 
provided for the Environmental Water Account (``EWA''). In contrast, 
only $2 million is requested for much-needed storage studies for 
Shasta, Los Vaqueros, the Sites Reservoir, and the San Joaquin River 
Basin.
    Why is there more funding requested for the EWA, as compared to 
storage studies?
    Answer. The Administration is committed to the ongoing storage 
studies, and the President's budget requests funding for those studies 
to continue. There is more funding for EWA because funding and 
implementation of the EWA is important to several components of the 
CALFED Program including ESA consultation for the Operations Criteria 
and Plan (OCAP), advancing the South Delta Improvement Program, and 
implementing the DMC/CA Aqueduct Intertie project. Completing the 
current consultation on OCAP is critical to other priority actions 
including CVP Long-Term Contract Renewals and the Trinity River 
Restoration Program Supplemental EIS.
    Over the last 4 years a total of $181.3 million has been invested 
in implementation of the EWA. The state contribution was $153.8 million 
and the Federal was $27.5 million.
    Question 20b. How will this funding discrepancy impact the timeline 
for the storage studies?
    Answer. In line with a CALFED-wide effort to re-examine the project 
milestones in the existing Record of Decision to more realistically 
reflect likely funding and pace of the Program, the surface storage 
feasibility investigations are funded in this request at $500,000 each. 
These levels will also lengthen the completion dates of the feasibility 
studies that may ultimately be considered by Congress.
    Question 20c. Shouldn't both the EWA and the storage studies 
receive adequate funding?
    Answer. We believe that this funding level is adequate for FY 2005 
and will keep these actions in balance within the CALFED program.
    Question 20d. How much funding Administration-wide is requested in 
the President's budget for CALFED-related activities? Will the 
Administration provide us with a cross-cut budget for the CALFED 
program? When can we expect that cross-cut budget?
    Answer. The Administration is currently updating the CALFED budget 
crosscut we prepared last year, and will share it with the Congress 
when it is complete, sometime this spring.
    Question 20e. How does the federal share of CALFED funding in the 
areas of water quality and water supply compare to the state share?
    Answer. We will have to research this information and provide it 
for the record.
    Question 21a. Secretary Norton, the National Park Service is 
requesting $42.5 million for land acquisition in 2005. The vast 
majority of funds, $40 million, is to protect the Big Cypress National 
Preserve by acquiring the Collier oil and gas holdings.
    What is the significance of the Collier oil and gas holdings?
    Answer. The Collier oil and gas holdings are privately held mineral 
rights that underlie the surface estate owned by the United States in 
the Big Cypress National Preserve. It should be noted that the $40 
million request for Collier is part of a $84.3 million National Park 
Service request, not a $42.5 million request.
    Question 21b. What is the urgency for acquiring the Collier oil and 
gas holdings at this time?
    Answer. The Collier Resources Company has filed numerous plans of 
operation for exploration and production within the Big Cypress 
National Preserve. Stakeholders in Florida believe that oil development 
in this protected area could undermine the implementation of the 
Comprehensive Everglades Restoration Plan, a 35-year effort to restore 
the South Florida ecosystem while providing water for the area's fast-
growing population. Acquiring these holdings would preclude further 
development in this area.
    Question 21c. Will $40 million acquire all Collier oil and gas 
holdings in Big Cypress or do you anticipate future budget requirements 
to settle this matter?
    Answer. The existing agreement between the Department and Collier 
Resources has expired so the total project amount is yet to be 
determined. We would like to work with the Collier family, while using 
the Departments new guidelines and procedures for appraisals. It is 
premature to specify future budget requirements.
    Question 21d. How many other land acquisitions is the National Park 
Service authorized to conduct and how much do you estimate it will cost 
to complete them all?
    Answer. The National Park Service has 84,398,239.81 acres within 
its authorized boundaries. Of these acres, 5,392,683.04 are not 
administered by the National Park Service. Of the non-NPS acres, 
3,649,263 acres would not be considered for acquisition because they 
are either protected through zoning, protected through ownership by 
other Federal, State or municipal governments, or managed for 
compatible ongoing uses. The remaining 1,743,420 acres, or 11,297 
tracts, could be considered for possible acquisition although most 
would not be candidates because they are not high priorities or 
available from willing sellers. Nor would this be practicable, since 
the estimated cost of acquiring all of this land is approximately $1.64 
billion. The Department of the Interior continues to review its land 
acquisition priorities, policies and procedures. We have developed land 
transaction principles that apply across the Department and guide our 
decision making. The Department's highest priority now is addressing 
the backlog of deferred maintenance on the lands that are currently 
owned by the Federal government in our national parks.
    Question 22. In 2001, the Administration estimated the maintenance 
backlog would require approximately $4.9 billion to correct.
    What progress has the National Park Service made in the past three 
years to address the maintenance backlog and how much funding do you 
estimate it will take to complete the remainder of the effort?
    Answer. One of the Administration's highest budget priorities for 
the National Park Service (NPS) is addressing the backlog of deferred 
maintenance in our national parks. We again reflect that priority in 
this year's request of $1.112 billion to address deferred maintenance 
of park facilities and roads. This is nearly double the amount for the 
same categories just seven years ago. With this request, we are on 
track to exceed the President's goal of investing $4.9 billion over 
five years to address the backlog by improving facilities and roads in 
our parks. In the four budgets of this Administration. nearly $3.9 
billion to date has been proposed to address deferred maintenance in 
parks. The funds provided are achieving tangible results. The National 
Park Service has undertaken over 1,300 projects using repair and 
rehabilitation funding in FY 2001-2003 with another 400 more 
anticipated to be done in FY 2004.
    Park roads make up a significant portion of the deferred 
maintenance backlog. The President's proposal for the next highway 
authorization bill contains over $300 million annually for NPS 
transportation, which is roughly double the amount of funding made 
available for park roads under the last six-year authorization. This is 
the amount needed to raise the overall condition of our road network 
from mostly poor to acceptable. Current versions of the legislation 
under consideration in Congress, unfortunately, would not enable us to 
meet this goal. The Administration will be working closely with the 
Congress as the legislative process continues to try to sustain the 
President's objectives.
    Complementing these efforts has been an increase in cyclic 
maintenance, the funding used for routine, preventive maintenance, to 
keep facilities from gradually falling into disrepair. Since FY 2002, 
funding for cyclic maintenance increased from $32 million to a budget 
request in FY 2005 of $65 million. Other targeted funding increases 
will protect the improvements achieved with recent investments.
    As you know, a National Park Service estimate, cited in the 1998 
General Accounting Office report (``Efforts to Identify and Manage the 
Maintenance Backlog'' GAO/RCED98-143), placed the deferred maintenance 
backlog at approximately $4.9 billion. That figure represented 
compilations of desired projects in parks--desires of individual site 
managers, not projects validated by systematic, comprehensive condition 
assessments of the true condition of the NPS assets.
    Since that time, we have learned that maintenance condition is best 
defined using a grading system that compares total cost to completely 
replace facilities with the total sum of undertaking all repairs that 
would put a facility in perfect condition. Using a state-of-the-art 
facility management system, one used by commercial property managers 
across the nation, the Park Service now has ``grades'' for its 
facilities and other assets. These grades result from what is called a 
facility condition index. We can combine that grading system with 
criteria for determining which facilities are high priorities, what 
types of improvements are most important to ensure safety and visitor 
enjoyment, and whether to change the type or scale of a facility as we 
repair or replace them. These decisions, in combination, give us a 
roadmap for determining annual resource needs to maintain and manage 
park facilities.
    Thus, this management system, in addition to investments proposed 
in the budget as described above, will enable us to take care of park 
assets far more effectively and efficiently than in the past. Through 
this system, we are answering four basic questions about each building 
or asset which we will refer to as ``the 4 W's.''

  <bullet> What is the asset and what is its management priority? For 
        the first time, we have a comprehensive inventory of our 
        industry-standard assets--which are mainly buildings, paved and 
        unpaved roads, trails, campgrounds, houses, and water and 
        wastewater plants. For the first time, we are using a 
        systematic, interdisciplinary process to set management 
        priorities for our assets on a park-by-park basis.
  <bullet> What condition is it in? For the first time, NPS is using a 
        uniform software system at all the parks, so that everyone is 
        collecting and posting information about their assets in the 
        same way. We have done initial condition assessments at all 
        parks, except for four of the most asset-intensive parks 
        (Gateway, Golden Gate, Yellowstone, and the Appalachian Trail), 
        which are all on schedule to be completed by the end of this 
        fiscal year.
  <bullet> What will it cost to improve the asset to acceptable 
        condition? For the first time, we have preliminary estimates of 
        what it will cost to improve the industry-standard assets to 
        acceptable condition. Decisions about what to spend money on 
        will be influenced by management considerations, as well as the 
        condition and priority information.
  <bullet> What are the long term costs to maintain that asset? For the 
        first time, we are developing preventative maintenance 
        schedules so that we will know not only how much it will cost 
        over the long term to maintain those assets, but also when we 
        need to make investments to avoid having them become part of 
        the deferred maintenance backlog.

    We are now well on our way towards knowing those answers, with more 
work to be done to achieve full implementation of our asset management 
system by the end of FY 2006. For example, we have learned from the 
work completed thus far that:

  <bullet> our trails and campgrounds, while not perfect, are in 
        reasonably acceptable condition;
  <bullet> our wastewater treatment facilities, which are far less 
        visible, meet code but need capacity and other upgrades; and
  <bullet> many of our paved roads are in poor condition.

    Information about asset conditions and priorities does not 
automatically tell us what to spend. We still need to decide whether to 
demolish--rather than repair--redundant facilities, for example. We 
also must decide whether to simply repair or, instead, upgrade a 
facility to larger capacity. These decisions depend upon overall 
management goals in relationship to visitor enjoyment and resource 
protection needs. The decisions will still be made by on-the-ground 
park managers, but they will be more informed decisions, factoring in 
the information contained in the facility condition index and the asset 
priority index.
    Question 23a. The National Park Service Park Police face unique 
challenges protecting icons from terrorist acts while making the sites 
accessible to the public. Your FY 05 budget request includes a $3.3 
million increase for the Park Police.
    What has the Department of the Interior done in the past two years 
to improve National Park Service Park Police operations?
    Answer. U.S. Park Police (USPP) responsibilities encompass a full 
range of law enforcement functions, including protection of the 
Nation's historic monuments, memorials, and institutions, and ensuring 
visitor safety to these same cultural icons of America. Increased 
visitor use and expansion of the National Park System, combined with 
homeland security responsibilities, continue to require the USPP to 
adapt to an increasingly complex mission. The Department has undertaken 
a comprehensive review of the USPP mission and budget, with the 
expectation that the USPP will be restructured to focus on certain core 
responsibilities, such as icon protection. In addition to this internal 
review, the NPS has contracted with the National Academy of Public 
Administration (NAPA) to conduct a similar study. This NAPA study is 
well underway and follows up on an effort that began in 2001.
    Question 23b. What do you hope to, accomplish with the $3.3 million 
increase?
    Answer. The 2005 request builds on the U.S. Park Police budget that 
has been increased significantly in recent years. From FY 2001 through 
FY 2004, the U.S. Park Police operations budget has increased by $20.3 
million or 35 percent, as compared to the overall increase of four 
percent for Interior's programs. The 2005 budget includes $81.2 million 
for USPP operations, a $3.3 million increase from the 2004 enacted 
level. An increase of $2.0 million will support security efforts under 
threat condition yellow requirements. Additionally, a one-time increase 
of $1.0 million is included for costs related to the January 2005 
presidential inauguration. The remaining $317,000 part of the increase 
request is for uncontrollable cost changes, such as anticipated pay 
increases.
    The 2005 request also includes funding to allow the Park Police to 
use the Department's integrated reporting system. An increase of $2.2 
million is budgeted in the National Park Service for this incident 
management, analysis and reporting system that will be used by the Park 
Police and park rangers.
    Question 24a. The President's budget request for the Department of 
the Interior's Insular Areas program includes $78.9 million in 
discretionary appropriations, which is an overall decrease of $3.2 
million from FY 2004.
    A $1 million increase has been requested for the development of 
performance indicators for all of the insular governments. Please 
describe this new initiative.
    Answer. The $1.0 million increase will support the development of 
consistent and useful performance indicators for all of the insular 
governments. This will strengthen core performance measurement and 
assessment activities such as statistical data collection, 
benchmarking, and surveying required for performance management 
planning.
    Question 24b. The President's budget request reflects a $5.3 
million decrease for the rehabilitation of the water supply system for 
the Commonwealth of the Northern Mariana Islands, economic development 
assistance, and Enewetak support. Is it correct to assume that the 
decrease for Enewetak reflects the mandatory funding for the Enewetak 
food program recently provided by this Committee in the Compact of Free 
Association with the Republic of the Marshall Islands? Please explain 
the Administration's rationale behind the decrease for the Northern 
Marianas and overall economic development assistance.
    Answer. Yes, the decrease in the OIA discretionary budget does 
reflect the move of the Enewetak support to permanent funding under the 
new Compact of Free Association. This freed up about $1.3 million in 
discretionary funding that we are proposing to use for increased postal 
service costs and increased audit costs.
    The decreases for the Northern Marianas and for overall economic 
assistance reflect lower priority funding that was added on as earmarks 
by Congress in the 2004 budget. The Department did not request to 
continue this funding in 2005 in order to fund higher Administration 
and Departmental priorities within the budget request.
    Question 25a. The relationship between the United States and the 
Commonwealth of the Northern Mariana Islands (``CNMI'') is governed by 
a 1976 Covenant (P.L. 94-241). Among other things, this law provides a 
$27.7 million annual entitlement, the allocation of which is 
periodically renegotiated. The Committee was quite surprised to read a 
recent Departmental press release regarding an agreement between the 
U.S. and the CNMI amending the Covenant that was apparently initialed 
on February 9, 2004.
    Why were these negotiations conducted--and an agreement 
initialized--without any consultation with the Congressional 
authorizing committees?
    Answer. The Covenant to Establish a Commonwealth of the Northern 
Mariana Islands (CNMI) provides for multi-year periods of financial 
assistance and requires the President and the Governor to appoint 
special representatives to meet before the expiration of each financial 
assistance period and develop recommendations for future assistance. 
The agreement recently initialed by the Deputy Assistant Secretary of 
the Interior for Insular Affairs and the Lt. Governor of the CNMI, 
serving as appointed Special Representatives, does not amend the 
Covenant. The two Special Representatives reached an agreement on 
future financial assistance that can be implemented within existing 
law.
    Question 25b. According to the press release, this agreement still 
needs approval from OMB and the Appropriations Committee. Is it the 
Department's position that there is no need for hearings and approval 
of any changes to the Covenant by this Committee?
    Answer. Implementation of this agreement, which involves the 
discretionary allocation of funding within a mandatory total, will 
require approval from OMB and the Appropriations Committees through the 
budget process. While no new authorization is required, the Department 
will be happy to brief the authorizing committees and obtain their 
input on the financial assistance agreement.

               Responses to Questions From Senator Craig

    Question 26. In the fiscal year 2005 budget request, the Department 
of the Interior proposes instituting a cost recovery program for BLM 
activities, encompassing hardrock mining applications. The fact is that 
it is taking years--in some instances over a decade--to complete these 
permitting processes. According to a 2001 Behre Dolbear study looking 
at worldwide regulatory environments for mining activities, the 
regulatory process in this country is the most inefficient of all the 
countries studied.
    Do you agree that a simple and very basic management practice to 
implement in the near term would be to put in place an adequate 
tracking system for these permit applications, both so that the 
Department could measure its own performance and so that Congress could 
perform better oversight of how long permit processing is actually 
taking?
    Answer. Yes, the Department is committed to reducing the time of 
the permitting process. A tracking system would be one way to measure 
progress in that regard.
    Question 27. I know your department is familiar with the 
recommendations of the 1999 National Research Council (NRC) report on 
``Hardrock Mining on Federal Lands''. In one of its primary 
recommendations, that report urged Interior ``to plan for and implement 
a more timely permitting process.''
    Has the Interior Department analyzed the NRC report 
recommendations? Have any of them been considered or implemented?
    Answer. Yes. The BLM carefully reviewed the 1999 NRC report and has 
implemented many of its recommendations. For example, the BLM revised 
the regulations at 43 CFR subpart 3809--Surface Management. These 
regulations control the permitting process for the use of the public 
lands under the General Mining Law of 1872 and the Federal Land Policy 
and Management Act of 1976. The revisions established new bonding, 
inspection, compliance, and enforcement procedures for exploring and 
mining on the public lands under the General Mining Law.

              Responses to Questions From Senator Campbell

    Question 28. The FY05 request includes $109 million dollars for the 
DOI to conduct ``historical accounting'' activities. Is this amount 
for:

          a. conducting accountings for the Cobell v. Norton case 
        pursuant to the Court Order of September 2003?
          b. conducting accountings for tribal lawsuits filed against 
        the U.S. in recent years?
          c. Or for some other accountings that we're not aware of?

    Answer. The FY 2005 budget request for Historical Accounting is 
$109.4 million, an increase of $65.0 million from the FY 2004 enacted 
level. The $109.4 million will provide $80.0 million for Individual 
Indian Money (IIM) accounting and $29.4 million for tribal accounting.
    The FY 2005 budget for IIM accounting is based on an estimate of 
the Department's costs to ``begin full implementation of the Historical 
Accounting Plan for Individual Money Accounts after December 31, 2004. 
This plan is the plan the Department filed with the district court on 
January 6, 2003. The request is not based on the Court Order of 
September 2003 which would require an accounting estimated to cost as 
much as $13 billion. That order has been stayed pending its review by 
the Court of Appeals for the District of Columbia.
    The amount of the request may be revised depending on how the Court 
of Appeals rules, and on whether Congressional action is taken to 
delineate the specific historical accounting obligations of the 
Department as suggested in FY 2004 Interior and Related Agencies 
Appropriation Act. The Department will continue to work with Congress 
and trust beneficiaries to reach a settlement on the historical 
accounting and related issues.
    The $29.4 million for historical accounting of tribal trust funds 
supports activities related to 25 current lawsuits filed by 19 tribes. 
The Office of Historical Trust Accounting (OHTA) expects to be involved 
in many of these cases and has already conducted a number of briefings 
for these tribes and tribal organizations. These briefings are a first 
step in the Department's efforts to address unresolved tribal 
accounting issues, and are a prelude to anticipated discussions and 
negotiations with tribes to develop tribe-specific work plans or other 
means to resolve the outstanding accounting issues and the litigation. 
In FY 2005, OHTA expects to complete reconciliation work regarding five 
tribes' trust fund accounts and image approximately three million pages 
and code 1.3 million tribal documents. To Support IIM reconciliation 
efforts, OHTA expects to image about five million pages of trust 
records and code more than one million documents.
    Question 29. As you know, the FY 2004 Interior Appropriations Law 
provided a ``cooling off period'' through December 2004 during which 
your Department does NOT have to provide the accounting ordered by the 
Judge in September 2003 to give the Authorizing Committees some time to 
try and resolve the case without spending hundreds of millions of 
dollars on such accountings.
    My question is this: given these facts, isn't it premature for 
Congress to appropriate $109 million this year for such accounting 
activity?
    Answer. No. The $109 million request takes into account the 
``cooling off period.'' It is for activities to be conducted after 
December 2004. As we mentioned in the above answer, if the court or the 
Congress delineates specific historical accountings obligations of the 
Department that are different than the Department's plan, revisions 
would be proposed as needed.
    If the Department did not request funding in FY 2005 to continue to 
implement the plan, or to conduct some other form of accounting as 
specified by the courts or Congress, then funds to implement that 
direction would be delayed until FY 2006.
    Question 30. Indian country has been clamoring for more 
Consultation with your Department and with the Government generally on 
a whole host of issues. The FY 2005 Request includes $1.1 million to 
create an Office of Tribal Consultation, which I surmise a lot of 
tribes would appreciate.
    Can you elaborate on this proposal for the Committee?
    Answer. The BIA FY 2005 budget includes an increase of $1.1 million 
to formalize and institutionalize the consultation process with the 562 
Federally-recognized American Indian tribes. This office will provide a 
stable, continuous point of contact for tribes and maximize both the 
financial and human resources needed to fulfill responsibilities to 
consult with tribes on the myriad of issues facing the BIA. This office 
will be responsible for the day-to-day activities and quarterly 
reporting on the status of all consultation issues, as well as a formal 
annual report on the outcome of consultation.
    Question 31. I've previously spoken with Forest Service Chief 
Bosworth about the difficulty of planning a budget for wildfires 
considering the unpredictability of mother nature and unplanned 
significant deviation from the ten year fire average.
    Do you expect to have similar budgeting issues this year for fire 
fighting efforts?
    Answer. Budgeting for wildfire suppression is inherently difficult 
because future levels of fire activity cannot be predicted with 
precision. However, use of the 10-year suppression cost average has 
proved to be a reasonable and durable basis for suppression budgeting. 
Although suppression costs have exceeded the 10 year average in the 
past several fire seasons, looking back historically there have been 
many years in which suppression costs were below the average. For 
example, during the four fire seasons from 1995 to 1998 costs were 
below the average in three seasons and less than $2 million above the 
average in the fourth.
    It is worth mentioning that, as fire suppression costs increased 
over the last few years, so has the 10-year average. As a result, our 
FY 2005 budget request increases suppression funding to $222 million. 
This is a $28.6 million, or 15%, increase over the 2004 enacted level. 
It is a $62.2 million, or 39%, increase over the original appropriation 
provided for this past fire season. Along with ongoing suppression cost 
control efforts, these funding increases should alleviate, whether in 
whole or in part, the need for supplemental funding in FY 2005.
    Question 32. As you know, addressing the Park Service's maintenance 
backlog was identified as one of the President's priorities. I couldn't 
help but notice that the FY 2005 budget for construction and 
maintenance to address this backlog has remained more or less constant 
over the past two years. One would expect this area to receive more 
attention. What are some of the reasons your budget has remained at or 
below past years' levels for addressing this backlog?
    Answer. Reducing the backlog of deferred maintenance in our 
national parks continues to be a high priority for the Administration. 
The chart below illustrates that commitment.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    This Administration has proposed in the 2005 budget a total of $1.2 
billion, a 37 percent increase over FY 2001, to address the deferred 
maintenance of park facilities and roads. Of this amount, $724.7 
million is proposed for NPS construction projects and for the Facility 
Maintenance program, an increase of $24.7 million over 2004. An 
additional $310.0 million for park roads is included in the 
Administration's legislative proposal to reauthorize the Highway bill, 
nearly doubling the $165 million provided annually under TEA-21.
    With this request, we are on track to exceed the President's goal 
of investing $4.9 billion over five years. In the four budgets of this 
Administration, nearly $3.9 billion has been proposed or appropriated. 
These funds are achieving tangible results. NPS tackled approximately 
1,300 projects using repair and rehabilitation funding in just two 
years with another 400 anticipated to be done in FY 2004.
    Question 33. As you know, only six animal species in the U.S. have 
ever been recovered by the Endangered Species Program in its thirty 
year existence and none have been de-listed in the last two decades. 
Unfortunately, more species have been de-listed due to extinction 
(seven) than recovery.
    In light of these facts, can you explain why in the FY 2005 budget 
for endangered species listing has increased by more than $5 million 
while the budget for recovery has gone down by almost $10 million? What 
good does it do to keep listing species if we aren't making good 
strides to recover species already on the list?
    Answer. The overall reduction in the endangered species program is 
largely due to the elimination of pass through funding included in the 
2004 Appropriations Act. While the work funded with these funds is 
recovery-oriented, it covers lower priority activities compared to 
other recovery actions included in recovery plans. The reductions in 
these pass through funds have been offset with substantial increases in 
related grant programs that support recovery of at-risk, threatened and 
endangered species. For example, the Landowner Incentive Program was 
increased by $20 million, to $50 million, and the Cooperative 
Endangered Species Conservation Fund increased by $8 million, to $90 
million. The $5.0 million increase for listing program activities is 
required to meet resource protection goals and address the growing 
litigation-driven workload. Taken as a whole, the President's budget 
reflects a continued commitment to the protection and conservation of 
endangered species through the use of partnerships and collaboration.
    In the last two decades (since 1985), a total of 7 animal species 
in the United States have been delisted because they have been 
recovered. These species are the Atlantic Coast population (FL, AL) of 
brown pelicans (1985), the American alligator (1987), the gray whale 
(1994), the Arctic peregrine falcon (1994), the American peregrine 
falcon (1999), the Aleutian Canada goose (2001), and the Douglas County 
population of the Columbia white-tailed deer (2003). In addition, 2 
plants in the United States (Robbins cinquefoil and Rydberg milk-vetch) 
have been recovered.
    Question 34. I noticed that while the overall DOI budget for 
wildland fire management remains fairly constant, there is a $6.9 
million decrease in monies for fire science. In light of the 
President's Healthy Forest Initiative, can you share the rationale for 
this decrease?
    Answer. The President's Budget for the Department of the Interior 
does not reflect a decrease for the fire science program. The 
Department's request for Fire Science in 2005 is $8 million, $99,000 
more than appropriated in 2004.

               Responses to Questions From Senator Smith

    Question 35. Are you aware that the Bureau of Reclamation intends 
to bid the third phase of the Northwest Area Water Supply (NAWS) 
pipeline on February 26, 2004?
    Answer. It is actually the State of North Dakota that is preparing 
to bid the third phase of the NAWS pipeline.
    Question 36. Meanwhile, the House Appropriations Committee has 
asked for a report by March 1, 2004, on the issue of current corrosion 
criteria for pipelines. Has this report been made available? Is the 
current advertised bid following the recommendations of this report? If 
the report is not available, should the current bid be postponed until 
the report is available?
    Answer. The House Appropriations Committee, in report language, 
asked Reclamation to conduct a study on the current corrosion criteria 
and to report to the Committee by March 1, 2004. The report requested 
by the Committee is not yet complete. We do not believe the State of 
North Dakota should postpone its planned bid.
    Question 37. The Reclamation study was to address long-term value 
and cost-effectiveness for pipeline facilities. The report language 
specified that Reclamation should follow its current corrosion standard 
until the issue is resolved. Is the current bid following Reclamation's 
own current corrosion standard, which specifies a bonded coating for 
pipe over 24 inches in diameter? If not, why is the Bureau ignoring its 
own standard?
    Answer. NAWS is a State of North Dakota project. Therefore it is 
not subject to Reclamation's standard. Through the Dakota Water 
Resources Act of 2000 (DWRA), pass-through funds are made available to 
M&I entities for projects which are not designed or constructed by 
Reclamation and which remain out of Federal ownership once construction 
is completed. Reclamation approved the State of North Dakota's 
specifications for the NAWS project which incorporated un-bonded 
polyethylene encasement on ductile iron pipe larger than 24 inches in 
diameter. The state's design for NAWS incorporates data from a detailed 
soil analysis performed along the pipeline route. This analysis was 
performed to determine the soil characteristics and the associated 
corrosion protection requirements necessary to adequately protect the 
pipe. The corrosion protection system was designed by a certified 
corrosion engineer in accordance with applicable industry standards for 
the option of steel pipe and also for the option of ductile iron pipe. 
The design was reviewed for adequacy by Reclamation as well as by an 
independent firm specializing in corrosion protection. Reclamation 
views the design as offering two viable pipe options.
    Reclamation's current corrosion prevention guidelines are outlined 
in a table entitled ``Corrosion Prevention Criteria and Requirements.'' 
The table currently recommends the use of polyethylene encasement with 
ductile iron pipe with diameters of 24 inches or less.
    Question 38. Numerous recent studies have been done on corrosion 
that highlight the decaying state of the United States' infrastructure 
utilizing current industry standards. One report put the cost of 
corrosion for water systems at over $19 billion per year. Does the 
requested report address the best current knowledge on how to improve 
this decaying infrastructure? Are there recommendations on how to 
improve the current industry standards?
    Answer. Reclamation is reviewing corrosion prevention measures for 
pipe and is preparing a response on its findings. The review completed 
to date indicates a lack of scientific consensus across the industry 
regarding the use of un-bonded polyethylene encasement on ductile iron 
pipe as part of a corrosion mitigation system. A final Reclamation 
decision on this issue is anticipated by December 2004.
    Question 39. It is my understanding that the Fish and Wildlife 
Service's budget contains funds for land acquisition for refuges in the 
Upper Klamath Basin, and that this may be used toward acquisition of 
the Barnes Property? Can you tell me specifically how lands acquired 
with these funds will be managed? If the lands are inundated, how will 
the stored water be used? What benefit, in terms of certainty of 
supply, will there be to the project beneficiaries of the federal 
Reclamation Project as a result of these acquisitions?
    Answer. The Service's budget contains $4.578 million for 
acquisition of the 2,560 acre Barnes property, formerly part of Upper 
Klamath Lake which was converted from lake and emergent wetland habitat 
to agricultural lands in the 1960s. It has been identified as a key 
parcel in providing additional water storage capacity in the Upper 
Klamath Basin, and potential habitat for endangered fish and water 
birds. Lands acquired with these funds are to be managed as part of 
Upper Klamath Lake and would be inundated during winter and spring 
months and drawn down during summer months. Stored water, which is 
currently the limiting factor in the Project area, will be available 
for use by Project irrigators, by Refuges, and for anadromous fish 
species downstream of the Project.
    Question 40. Several years ago, I sponsored legislation help 
facilitate participation by the Confederated Tribes of the Warm Springs 
as co-licensees of the Pelton Round Butte hydroelectric project in 
Oregon. It is my understanding that the parties have been involved in 
settlement negotiations over the past year for the relicensing of this 
project. Can you tell me the status of those discussions?
    Answer. The parties have negotiated and resolved the major 
substantive issues, and will be meeting at the beginning of March to 
discuss final language and resolve any outstanding issues. The parties 
will then be working with FERC to obtain time to draft the formal 
settlement agreement.

              Responses to Questions From Senator Bunning

    Question 41. The amount of funding for Abandoned Mine Land (AML) 
Program has not increased significantly over the past several years. 
Many states, including Kentucky, believe that the level of funding has 
prevented them from making significant headway in restoring areas 
affected by mining that pose a danger to residents around those mines. 
Why has the funding for the AML remained stagnant in recent years? Do 
you think that the Department of Interior's budget for Fiscal Year 2004 
will enable states to adequately address and abate the abandoned mine 
hazards that threaten the health and safety of Kentucky coalfield 
residents?
    Answer. We fully support the AML program, and recognize the 
importance of protecting people by reclaiming hazardous mine sites. The 
funding level for AML in FY 2004 was the best possible given competing 
budget priorities and other urgent funding needs. The President's 
budget for FY 2005 includes $53 million in additional funding for the 
AML program. This additional funding will provide for the certified 
States and Tribes to receive their unappropriated balances on an 
expedited basis, over the next ten years, an increase over current 
funding levels of $15 million. Paying the certified States and Tribes 
will remove them from the funding pool, which will free up more 
funding, $38 million over current levels, for the States like Kentucky 
with on-going AML problems. This change to the program's allocation 
formula will provide Kentucky with sufficient funding to reclaim its 
currently recorded health and safety sites in 22 years.
    Question 42. Kentucky has seen its annual appropriation from the 
AML fund decrease in recent years. The Kentucky program has seen less 
than one-half of the amount paid into the AML fund by coal operators. 
Despite the work that has been accomplished in Kentucky since the start 
of this program, many work remains to be done while new problems 
continue to manifest. Do you expect Kentucky's state share of the 
funding to be fully returned to it?
    Answer. Yes. The Administration is committed to ensuring that each 
State receives its State share provided under the current law. The 
Office of Surface Mining estimates that under the Administration's 
reauthorization proposal, Kentucky would receive approximately $390 
million over the next 22 years. However, it is important to note that, 
based upon Energy Information Administration data, it is projected that 
even though Kentucky's production is estimated to remain relatively 
constant over the next 20 years, its percentage of the national total 
of coal produced will decrease. Thus, under the current allocation 
structure, Kentucky's future grants will continue to decline as it has 
over the past (e.g., $281,369 decrease from 2003-2004).
    Under the proposed legislation, reclamation grants to noncertified 
states like Kentucky would be based solely upon a state or tribe's 
historic production. In future years, as other states complete their 
AML reclamation and those funds are redistributed to the remaining 
states, Kentucky's grant will increase giving it sufficient funds 
(approximately $390 million) to reclaim its highest priority sites 
within 22 years instead of the 32 years projected under the current 
law. This exceeds the State share balance estimated to be approximately 
$127 million as of September 30, 2004.
    Question 43. The Administration's budget in recent years has 
counted receipts and disbursements of the AML Fund as funding for 
budgetary purposes other than for reclaiming abandoned mines. Does 
Fiscal Year 2005 budget stop this practice? If not, why does it not?
    Answer. Yes.
    Question 44. The AML Fund authorization expires on September 30, 
2004. Does the Administration plan to submit legislative proposals to 
Congress to reauthorize the AML Program? If so, will the proposals 
incorporate my concerns about its operation?
    Answer. Yes. The Administration's legislative proposal, the 
Abandoned Mine Reclamation Program Extension and Reform Act of 2004, 
was submitted on January 30, 2004. It was introduced by Senator Specter 
as S. 2049 on February 3 and by Representative Peterson as H.R. 3778 on 
February 4. As noted in the response to question 41, under the 
Administration's proposal, certified states and tribes would receive 
their unallocated state and tribal share balances as of September 30, 
2004, subject to appropriations. As a result, certified States and 
tribes would no longer be part of the funding pool, making more money 
available for states like Kentucky to address ongoing AML problems. The 
Administration's proposal to restructure the AML program is designed to 
direct more of the AML funding to reclamation of high priority coal 
problem sites, thereby removing the dangers to those living in or near 
our Nation's coalfields.

              Responses to Questions From Senator Bingaman

    Question 45a. The Middle Rio Grande basin continues to struggle 
with the competing needs of water users and the requirements of the 
Endangered Species Act. Given the ongoing potential for serious 
conflict, I am very concerned that Reclamation's 2005 Budget cuts $9.5 
million from the Middle Rio Grande, leaving only $5.9 million for ESA 
compliance efforts. I contrast this with the Klamath basin where the 
Budget proposes $67 million among the different Interior agencies to 
address similar water issues ($101 million from all federal agencies). 
Both of these river basins are mentioned as priorities in your Water 
2025 initiative yet they are treated very differently in the Budget.
    During the hearing you responded that the money requested in the FY 
2005 Budget is sufficient for compliance with the biological opinion. 
But it is my understanding that the Department's own estimates are that 
the cost of complying with the 2003 biological opinion is approximately 
$233 million. At the meager funding level proposed in the Budget, how 
will we be able to make significant progress in complying with the 
Endangered Species Act?
    Answer. The funding within the request is sufficient to meet the 
requirements of the Biological Opinion and to accomplish the required 
maintenance of the channel. The level of funding for the project was 
based upon our assessment of the work that needs to be accomplished in 
the future within the context of Reclamation's overall funding level.
    Question 45b. To avoid a water crisis similar to that experienced 
in the Klamath basin, I believe a multi-agency approach is needed to 
support river restoration and improved water management and 
conservation. Do you agree? If not, why?
    Answer. We would agree that a multi-agency approach is the best 
method to resolve complex issues such as those in the Middle Rio 
Grande. The Bureau of Reclamation is working with the U.S. Fish & 
Wildlife Service and the U.S. Geological Survey along with State, 
local, and private entities to develop workable solutions.
    Question 46. The Bureau of Reclamation recently issued a report 
describing the basis for the projected cost-overruns on the Animas-La 
Plata project. One of the factors leading to the enactment of the 
Colorado Ute Settlement Act Amendments of 2000, which allowed 
construction of the project to proceed, was the agreed-to reduction in 
both the scope and cost of the project. Obviously, the cost reductions 
will be smaller than that represented in the project planning report 
and EIS. What specific cost containment measures are being put in place 
to ensure that the costs of this project do not continue to escalate. 
Also, is there any chance that the actual costs will be less than that 
projected in the November 2003 report to the Secretary?
    Answer. Reclamation has taken some aggressive actions to complete 
the Animas-La Plata Project in the most cost effective and efficient 
way possible. Reclamation established a new construction office with 
the sole responsibility to construct the project, an organizational 
structure that we have full confidence in being successful. Reclamation 
has re-initiated and increased the level of coordination and 
consultation with the project sponsors so that they are properly 
involved in decisions on the project, and have developed a system to 
allow for open and complete cost accountability. Reclamation believes 
the new project cost estimate is adequate to complete the project 
provided indexing is accounted for.
    Question 47. In October 2002, the Department appointed a federal 
negotiating team to assist in the settlement discussions taking place 
between the State of New Mexico and the Navajo Nation regarding the 
Navajo's water rights claims in the San Juan River basin. In December 
2003, the State and the Navajo jointly released a draft settlement for 
public review and comment. It is my understanding that the Department's 
negotiating team has not provided any feedback to the parties regarding 
the proposed settlement. This seems to defeat the purpose of appointing 
a team. Will the Department provide any meaningful feedback to the Stag 
and Navajo Nation regarding the proposal? If not, why?
    Answer. The Department of the Interior received the draft 
settlement from the State and the Navajo Nation in December 2003. The 
draft settlement is extremely complex and the Department is carefully 
considering it. The Department is gathering comments from the team, 
involved Departmental agencies, and Departmental officials. Upon 
completion of our internal review, we will we will engage in further 
discussions with the State and the Navajo Nation.
    Question 48. For the third year in a row, the President is 
proposing to cut by half the funding that has historically gone to the 
Navajo Indian Irrigation Project (NIIP) for completion of that long-
delayed project. My understanding was that the Department would return 
to increased funding levels once the Navajo Nation had reorganized the 
management structure of the Navajo Agricultural Products Industry, the 
entity that utilizes the water made available by NIIP. It's also my 
understanding that progress has been made in this reorganization.
    Does the Department believe that progress has been made in the 
management of NIIP? If so, please explain the basis for the reduced 
funding in the 2005 budget. What is anticipated for future funding 
levels and what impact will this level of funding have on construction 
of the project?
    Answer. Improvements have been made to the day-to-day operation of 
NIIP by the Navajo Nation. The Navajo Nation has also made improvements 
in their NAPI Management Board. There are, however, a number of 
unresolved issues with respect to the project. We have been involved in 
discussions with the Navajo Nation, and we expect those discussions to 
continue. We cannot predict at this time what our future funding level 
requests will be.
    Question 49a. I have a strong interest in watershed management and 
restoration as a means of addressing natural resource problems. We have 
had some good success in New Mexico such as in the Rio Puerco 
Watershed.
    What is the Bureau doing in this area?
    Answer. We agree that the management of the Rio Puerco Watershed 
has been a success. The Rio Puerco Watershed Act (1996) created the Rio 
Puerco Management Committee (RPMC) to operate through 2006, and 
authorized $7.5 million over 10 years. The RPMC is a collaborative 
organization consisting of State, Federal, and tribal entities, soil 
and water conservation districts, representatives of county government, 
residents from the rural communities within the watershed, 
environmental and conservation groups, and interested members of the 
public. It is charged with compiling information and developing best 
management practices to reduce erosion, increase native vegetation, and 
improve riparian habitat while supporting the watershed's rural, 
agrarian, and cultural traditions. The group is also operational in 
nature. The committee has many on-the-ground projects that have 
produced successful results. For example, the RPMC is working with 
private landowners in two degraded tributaries to the Rio Puerco to 
create a showcase water quality improvement project through erosion 
control, livestock grazing management, and control of undesirable 
vegetation.
    Question 49b. How much funding in the FY05 Budget is devoted to 
watershed management and restoration.
    Answer. For BLM, funding for watershed restoration and protection 
is drawn from several of the BLM's programs. Included in the FY 2005 
Budget is a $2.2 million increase in BLM's traditional Challenge Cost 
Share program to improve the health of watersheds and landscapes, 
sustain biological communities, and protect cultural and heritage 
resources by allowing the BLM to expand partnership opportunities and 
leverage funds.
    Question 49c. What additional legal authorities would be useful to 
the Bureau in conducting watershed restoration activities?
    Answer. Currently, we do not need any additional authority for 
these activities.
    Question 50. Many parts of the West are experiencing a record 
drought. What is the Department doing to anticipate and address the 
effects of the drought? Are there any specific programs that are 
available to mitigate the impacts of drought on Indian reservations?
    Answer. The Water 2025 initiative builds upon the western water 
initiative which was launched by Secretary Norton in FY 2004. Drought 
happens everywhere in the West at some time, and it is true we continue 
to deal with a major drought in many areas of the West. One of the key 
purposes of Water 2025 is to set forth a framework to identify the 
problems, solutions, and a plan of action to focus dialogue with state, 
local, tribal governments and the private sector to meet water supply 
challenges caused not only by natural drought, but also by exponential 
population growth and increased water demand. Water 2025 establishes 
four key tools designed to assist in preventing water crises: (1) 
Conservation, Efficiency and Markets; (2) Collaboration; (3) Improved 
Technology; and (4) Removal of institutional barriers and an increase 
in interagency coordination. The FY 2005 budget proposes a $20 million 
program, which will include a competitive grant program, and increase 
of $12.5 million from FY 2004.
    The Bureau of Indian Affairs provides basic technical assistance in 
the area of Drought Management Planning. Drought planning helps tribal 
governments and their planning partners to move from crisis to risk 
management. Crisis management calls for impact assessments, response, 
and recovery through reconstruction. Risk management involves 
preparedness, prediction and early warning. When disaster does occur, 
mitigation is provided, typically through activities like trucking 
water to those in dire need. We provide mitigation to address immediate 
compelling needs. Through prediction and early warning, impacts can be 
significantly reduced. In addition, the USGS is prepared to provide 
adequate streamflow data and will continue to provide information on 
groundwater storage and depletion.
    An example of our prediction development is found in the BIA's 
preparation of an Environmental Impact Statement (EIS) for a Drought 
Management Plan for Flathead Lake, Montana. In the alternative 
development process in this EIS, the BIA developed advanced hydro-
climate prediction methods allowing for an accurate (88% accuracy rate 
over the history of hydroclimate data collection) method for predicting 
drought at the beginning of each water year. Historically, 
hydroelectric project operators, flood control managers and others, 
waited for predictions developed using snow pack data which is not 
available until well into the winter months and after significant 
operational decisions have been made. This precedent setting effort 
allows for planning for the drought and early operational decisions 
that have the ability to significantly reduce the impacts of drought to 
tourism, recreation, farming, tribal fisheries management and a host of 
other activities.
    Question 51a. There are critical water supply needs in rural 
America to be addressed and I believe it is appropriate federal policy 
to assist those small communities in meeting those needs. Last year, 
the President's budget provided no funding for several Congressionally 
authorized rural water projects. This year, fortunately, the 
Administration has changed course and has included funding for these 
projects (although at a lower level than enacted by the Congress).
    The Budget document indicates that legislation will be proposed to 
establish formally a BOR rural water program. When can we expect to see 
this legislation?
    Answer. A proposed bill authorizing a rural water program was 
transmitted to the Congress on March 3, 2004.
    Question 51b. Does the Administration support providing across-the-
board authorization for construction of such projects, or does it 
instead support authorization on a project-by-project basis?
    Answer. The Administration supports construction authorizations on 
a project-by-project basis within the framework of an overall rural 
water program authorization.
    Question 51c. The Budget in Brief document also references a 
restructuring of the 11 Federal programs that provide drinking water to 
rural communities. Please provide a list and description of these 
programs. What is the time frame for completing this restructuring?
    Answer. The Administration is convening an interagency working 
group to study areas of overlap among the 11 different Federal programs 
that address rural water infrastructure needs, looking for potential 
efficiencies that can be gained from streamlining and consolidating 
program operations in order to improve service in these communities. 
Recommendations from this review will be incorporated into the 
President's 2006 Budget.
    Below is a list of the specific programs being considered as part 
of this crosscutting analysis (which will be augmented by a cross-
cutting PART analysis); however, it is premature to say that any or all 
of these programs would be consolidated. The working group will come up 
with a list of recommendations, which may include a broad range of 
potential actions, including consolidation of all or some of the 
programs. It is also possible that the federal efforts on rural water 
can be improved by taking less drastic actions, and the working group 
will consider those options as well.

  <bullet> Department of the Interior, Bureau of Reclamation: rural 
        water project;
  <bullet> Environmental Protection Agency:

          Drinking Water State Revolving Fund
          Clean Water State Revolving Fund
          Alaska Native Villages program
          Mexico Border program

  <bullet> Department of Agriculture, Rural Utilities Service: Water 
        and Wastewater Disposal Loan and Grant Program;
  <bullet> Department of Health and Human Services, Indian Health 
        Service: Sanitation Facilities Construction program;
  <bullet> Department of Commerce, Economic Development Administration: 
        Economic Development Assistance Programs (EDAP);
  <bullet> Denali Commission;
  <bullet> Appalachian Regional Commission;
  <bullet> Delta Regional Authority.

    Question 52. Do you have the funding you need to provide for site 
security at the dams, monuments and other critical infrastructure 
administered by the Department?
    Answer. Yes. Congress has been very responsive to the Department's 
requests for additional funding for site security at the dams, 
monuments and other critical infrastructures. Following the events of 
9/11/01, there have been several enhancements to our security programs, 
both through increased base funding and through supplemental 
appropriations. The improvement of our security posture is an ongoing 
process, and we have a number of security studies are still underway. 
We have attempted to be very disciplined in our approach to these 
matters by completing our various security assessments before seeking 
additional funding from Congress. As we complete the assessments that 
are still in progress, it may be necessary to seek additional funds 
through the normal appropriations process.
    Question 53. The Budget request for the Bureau of Reclamation 
reflects a significant decrease in funding for wastewater recycling and 
reuse projects. Why?
    Answer. The Program Assessment Rating Tool (PART) review completed 
during development of the 2004 budget for Title XVI (Water Reclamation 
Reuse and Recycling) determined that Reclamation did not have well 
determined long-term goals. The annual performance accomplishments were 
difficult to control because local non-Federal sponsors implement 
projects, and Reclamation does not control construction schedules. 
Reclamation is developing improved performance measures and a web site 
to make it easier for clients and the general public to track progress 
in constructing projects and developing reclaimed water supplies. The 
Administration is concerned about new earmarked projects for this 
program, and is focusing resources on finishing construction of the 
originally authorized projects. While the Administration supports the 
widespread use of water reuse and recycling technology, this type of 
project is primarily a state and local responsibility.
    The water treatment technology development component of Water 2025 
seeks to find ways to reduce the high cost of water treatment such as 
desalination so that it can be utilized and applied on a broader scale.
    Question 54. What rulemakings is the Department anticipating during 
the remainder of FY04 and FY05? Please list these rulemakings 
(including draft and final rules) by subject matter and Bureau with 
expected date of publication.
    Answer. Enclosed is a copy of the Department's semiannual agenda of 
regulatory actions as published in the Federal Register on December 22, 
2003. The agenda is a comprehensive listing of all proposed and final 
regulations that the Department expects to publish, along with 
anticipated publication dates. The semiannual agenda has been published 
every Spring and Fall since 1983 as required by the Regulatory 
Flexibility Act. The current agenda is also available online at http://
www.gpoaccess.gov/ua/index.html.
    Question 54a. Will you commit to consulting with us prior to the 
issuance of draft and final rules?
    Answer. The Department and its bureaus will strive to ensure that 
you are afforded every opportunity to comment on proposed and final 
rules, as appropriate.
    Question 54b. What Solicitor's Opinions are currently under review? 
What Solicitor's Opinions do you expect to review during the remainder 
of FY04 and FY05? Please provide a list.
    Answer. At this time, there are no Solicitor's Opinions under 
review or planned for review.
    Question 54c. The Budget Highlights document indicates that for 
many Bureau accounts, uncontrollable costs will be ``absorbed''. For 
each account where this is indicated, please explain how these costs 
will be absorbed and what activities, if any, will be cut as a result.
    Answer. The 2005 budget assumes a 2005 pay raise of 1.5% and funds 
pay and other fixed costs at about 56% of the total need. Within this 
amount the budget fully funds selected fixed costs including workers 
and unemployment compensation, GSA rent, and payments to the 
centralized billing portion of the Department's Working Capital Fund.
    The budget funds a portion of the 2004 and 2005 pay raise and 
health benefit cost increase, the balance of these costs, $55.4 
million, are absorbed by each bureau and program. The Department 
believes that this absorption can be successfully managed through 
improved efficiency and productivity, as well as savings from 
management reform initiatives.
    Question 55. We understand that the Department is engaged in an 
outsourcing initiative. Please provide the Committee with specific 
information on a Bureau-by-Bureau basis as to how this initiative is 
being implemented. What lay-offs or reductions in FTE's have occurred 
and what are anticipated in each of the Bureaus? Please provide a list 
of positions and functions that have been and will be outsourced in 
each bureau.
    Answer. The Department has a competitive sourcing review process 
underway as part of the President's management agenda. This is not an 
outsourcing initiative. As part of our competitive review process, the 
Department has completed studies covering more than 2,617 FTE to date 
and has studies underway covering approximately 600 FTE. Interior is 
about to announce studies involving another 2,000 FTE. Of the 2,617 
positions studied to date, 1,102 have been maintained in house and 
1,515 have been contracted out. Throughout this process, no permanent 
Interior employees have lost their jobs. In instances where activities 
were contracted out, vacancies were eliminated, personnel retired, or 
permanent employees were placed elsewhere in the organization.
    The Department is compiling the list requested by the Committee and 
that information will be provided under separate cover.
    Question 56a. The Budget materials repeatedly reference a PART 
review process. Please describe the process. How were programs selected 
for review? Please provide a listing of all the program of the 
Department that were reviewed under this process and the outcome of the 
review. Please provide a copy of the PART analysis and any report with 
respect to each program of the Department that was the subject of the 
PART review.
    Answer. The PART is a standardized program evaluation which 
consists of approximately 30 questions. It examines four areas of 
assessment--purpose and design, strategic planning, management, and 
results and accountability. The first set of questions gauges whether 
the programs' design and purpose are clear and defensible. The second 
section involves strategic planning, and weighs whether the agency sets 
valid annual and long-term goals for programs. The third section rates 
agency management of programs, including financial oversight and 
program improvement efforts. The fourth set of questions focuses on 
results that programs can report with accuracy and consistency. The 
answers to questions in each of the four sections result in a numeric 
score for each section from 0 to 100 (100 being the best). These scores 
are then combined to achieve an overall qualitative rating of either 
Effective, Moderately Effective, Adequate, or Ineffective.
    Programs that do not have acceptable performance measures or have 
not yet collected performance data generally receive a rating of 
Results Not Demonstrated. The PART helps determine a program's 
strengths and weaknesses and focuses particularly on a program's 
performance. The PART is best seen as a complement to traditional 
management techniques, and can be used to stimulate a constructive 
dialogue among program managers, budget analysts, and policy officials. 
The PART findings and recommendations are intended to provide useful 
information in making spending, management and other decisions on 
programs. For more detailed information regarding PART guidance and 
PART worksheets, you can refer to the OMB website at www.omb.gov/part.
    OBM Guidance indicates that program selection should reflect 
activities that are important and meaningful operationally in terms of 
management and budget decisions. Each year, the Department works with 
OMB to select 20 percent (based on budget amounts) of our programs for 
review. The selection process considers such factors as program size, 
availability of or need for independent management review information, 
potential for cross bureau synergies in undertaking program reviews, 
and other factors relating to management needs. Program selection is a 
shared responsibility between agencies and OMB. In each of the previous 
two fiscal years, Interior and OMB officials met to establish the final 
list of programs that would be evaluated using the Program Assessment 
Rating Tool (PART). The Administration's annual evaluation target of 
twenty percent of programs was based on the percent of the total 
Interior budget or the percent of total programs, depending on the 
specific bureau.
    Question 56b. What programs are currently being reviewed under the 
PART process?
    Answer. Attached is a listing of all the programs of the Department 
that were reviewed under this process and the outcome of the review and 
a copy of the PART analysis. Final decisions on programs to be reviewed 
for 2006 have not been made.
    Question 57. The Committee did not receive the Fiscal Year 2005 
Budget Justifications, for many of the agencies within the Department 
prior to the Committee's hearing on the Department's Budget. This 
hindered preparation for the hearing. Can we get your commitment that 
all of the Budget Justifications will be provided to the Committee for 
next fiscal year on the day that the President's Budget is transmitted 
to the Congress?
    Answer. We cannot commit that all budget justifications will be 
provided to the Committee on the day the President's budget is 
transmitted to the Congress. The Interior budget is extremely complex, 
and the budget justifications often are more than 4,000 pages. Because 
of the length and complexity of these documents, the Department is not 
able to complete all justifications by the date of release of the 
President's budget. This is not a new problem, but dates at least to 
the change in the fiscal calendar in the 1970's. Recognizing this 
problem, and to provide the Congress and the public an overall picture 
of the Interior budget, the Department annually prepares its Budget in 
Brief document for release with the President's budget. We are working 
hard to further expedite the completion of the budget justifications.
    Question 58. What activities is the Bureau (MMS) undertaking with 
respect to site security? Is the Budget request adequate in this 
regard?
    Answer. In FY 2003, MMS provided critical support to the U.S. Coast 
Guard (USCG) in developing maritime security regulations that will 
ultimately help safeguard our Nation's most important oil and gas 
facilities on the OCS. MMS was instrumental in developing the 
``threshold characteristics'' that the USCG will use to determine which 
of the more than 4,000 fixed and floating facilities would be subject 
to specific security measures mandated by the Maritime Transportation 
Security Act of 2002. In addition, MMS has worked with the American 
Petroleum Institute to develop industry-wide recommended security 
practice, ``RP70 Security for Offshore Oil and Natural Gas 
Operations.'' MMS also revised the ``OMM Threat Advisory Guidelines for 
OCS Operations'' and Emergency Notification System Standard Operating 
Procedures to improve the Bureau's response during a crisis. MMS 
continues to actively participate in regional coordination groups to 
increase vigilance, identify potential security risks, and establish 
procedures for communication and reporting suspicious occurrences near 
offshore production and transportation facilities.
    In FY 2004, the Bureau is increasing its focus on improving OCS 
security awareness and prevention measures and providing a similar 
emphasis to that traditionally afforded to response and recovery. MMS 
is working closely with the Naval Engineering Facilities Center to 
develop a security awareness training program for all MMS personnel 
that routinely go offshore. In FY 2005, MMS will work to incorporate 
measures in support of the new Homeland Security Presidential Directive 
7, and continue to work with the USCG, industry, and other appropriate 
federal and state agencies to improve OCS security. The budget is 
adequate to support efforts planned for 2005.
    Question 59. The Budget highlights book indicates the inclusion of 
$1.9 million to ``acquire new interpretive tools to support Gulf of 
Mexico oil and gas evaluations and estimates.'' Please describe.
    Answer. Geological Interpretive Tools (GIT) were implemented in the 
MMS in December 1993 and have been routinely used in support of mission 
goals since 1995. GIT allows the MMS to maintain technological parity 
with the private sector in order to ensure accurate evaluations for 
fair market value determinations, field determinations for new 
producible leases, gas hydrates, royalty relief, unitization, reservoir 
analysis conservation, and shallow hazards processes. The accurate and 
improved quality of interpretation allows for better evaluations and 
estimates.
    The cost of keeping pace with the private sector is significant. 
The private sector has embraced or developed new technology to meet the 
increasing challenge of competition in exploring for petroleum 
resources. Major technological advancements include 3-D depth 
migration, which provides imaging of complex structures, and 4-D and 4-
C seismic acquisition. Improved interpretation techniques include 
amplitude versus offset (AVO), coherence/variance cube technology, and 
visualization technologies.
    A detailed description of the interpretative tools proposed for 
funding in the budget and their supporting activities follow:
3-D Visualization Room ($750,000)
    A visualization room is a major technology implemented by operators 
to minimize risk. Visualization is used for multi-disciplinary 
teamwork. project review sessions, detailed project work, and data 
quality assurance. Visualization technology allows faster and more 
accurate evaluation and validation of geologic resource 
interpretations. Efficiencies stem from increased collaboration where 
multiple people can view, evaluate, and analyze data and 
interpretations at one session. Visualization rooms have been in use in 
the private sector since 1997, and over 100 have been installed in the 
world for use by the oil private sector.
Geological Interpretive Tools (GIT) Training ($200,000)
    To keep costs minimized, GIT training is provided using the train-
the-trainer concept. Under this program, software champions are 
provided expert training and in turn train other users of the software. 
Unfortunately, it takes an extended period of time for a champion to 
become a software expert and this sometimes delays critical training. 
With the implementation of visualization technology, upgrades to 
critical software, and the integration of existing technologies from 
the Offshore Minerals Management (OMM) OCS Connect initiative, 
technologies will be introduced too quickly for the train-the-trainer 
approach. The train-the-trainer approach needs to be supplemented or 
the implementation of critical new technologies will be delayed, the 
immediate benefit will be lessened, and the return on investment of the 
new technologies may be delayed. In order to maximize benefits, 
training will need to be contracted directly with software vendors for 
150 scientists in the GOMR.
Digital Well Log Contract ($543,000)
    For the GOM to meet its mission objectives, particularly with 
respect to fair market value, royalty relief determinations, and 
conservation of resource decisions, the use of state-of-the-art 
Geological Interpretive Tools (GIT) software is required. To use the 
full interpretive potential of the GIT software, accurate, complete, 
and properly processed workstation-ready digital well log data are 
required. An additional $543,000 is required to fully fund all of the 
tasks outlined in the Digital Well Log contract and provide the 
advanced processing techniques necessary to provide the MMS with 
digital curve data comparable to that used by the private sector.
Seismic Data Management Contract ($450,000)
    The MMS acquires seismic data needed to perform critical functions 
in the Offshore Program, i.e., tract evaluation, field determinations 
of producible leases, royalty relief, unitization, reserves inventory, 
etc. Tremendous amounts of seismic data are in the OMM inventory, which 
exceeds 16 terabytes. These data are mostly received in the private 
sector standard digital SEG-Y format, and are analyzed by the MMS's 
geoscientists using the Geological Interpretive Tools (GIT). The 
seismic data are stored on magnetic tape in their original SEG-Y 
format. The data that are used, or expected to be used, by the 
geoscientists are stored on line on hard disks in the proprietary 
format required by GIT.
    The goal of this initiative is to have a geophysical data service 
company to act on a continuing basis as OMM's storage/archive facility 
for the original format data (SEG-Y), and to serve as the repository of 
these data, actively managing the data to ensure they are recoverable 
when needed, and to deliver the data to OMM electronically as 
communication technology permits. The geophysical data service company 
would also be the repository that the public would be directed to, as 
the data become nonproprietary. The data would be released to the 
public at a nominal service fee paid to the service company.
    Question 60. With respect to legislation to grant the Secretary 
authority to authorize non-oil and gas energy projects on the OCS, do 
you believe the Secretary should be given discretion to establish 
reasonable forms of payment, including those based on energy production 
or throughput? How can the Secretary ensure that the public receives 
fair market value for the use of the OCS?
    Answer. In support of the President's National Energy Policy 
recommendation to simplify permitting for energy production in an 
environmentally sensitive manner, the Administration developed a 
legislative proposal in 2002 to facilitate the permitting and 
development of alternative energy-related projects on the Outer 
Continental Shelf (OCS). The legislative proposal would amend the Outer 
Continental Shelf Lands Act (OCSLA) to set up a comprehensive framework 
for permitting alternative energy-related uses on the OCS not already 
expressly covered by existing statutes. Placing this authority under 
the OCSLA, which already provides the statutory framework for oil, gas, 
and other mineral activities, will allow the Department to build on 
many of the provisions already embodied in that Act, including: the 
authority to coordinate with and enter into agreements with other 
federal agencies; requirements for occupational safety for activities; 
authority for site access to facilities; and the authority for imposing 
civil and criminal penalties. Using the OCSLA as the umbrella statutory 
authority will allow the Department the flexibility to tailor the Act's 
relevant provisions to innovative alternative energy-related 
activities.
    The legislation would provide for the sound management of offshore 
public lands by ensuring that principles of safety, environmental 
protection, multiple use, fair compensation, and conservation of 
resources are all addressed before a project is initiated. The 
legislation would protect the public's interest in capturing fair 
market value for the use of the Federal OCS by authorizing the 
Secretary to require an appropriate form of payment such as a fee, 
rental, or other payment for use of the seabed. In the case of an 
easement or right-of-way, the Secretary would be permitted to issue 
that easement or right-of-way on either a competitive or non-
competitive basis. In addition, the Secretary would be able to require 
financial surety to ensure that any facilities constructed are properly 
removed at the end of their economic life.
    The Administration's proposed bill included the following language: 
``The Secretary shall establish appropriate forms of payment for any 
easement or right-of-way granted under this paragraph, which may 
include, but is not limited to fees, rentals, or cash bonus payments.'' 
Both the conference report on H.R. 6 and S. 2095 revise that language 
by adding the statement that ``Such payments shall not be assessed on 
the basis of throughput or production.'' While the Administration's 
original bill would give the Secretary greater discretion in setting 
payments, both versions allow sufficient flexibility to ensure the 
receipt of fair market value.
    Question 61. The MMS recently completed a rulemaking relating to 
natural gas production from deep wells in shallow waters of the OCS. Do 
you believe that legislation on this topic is necessary? What budgetary 
impacts are expected as a result of this initiative?
    Answer. The Department has not requested legislation at this time 
and has not taken a position on whether legislation on this topic would 
be necessary.
    Our analysis shows that significant new Federal revenues will be 
generated from fields which would not be otherwise developed. While 
this program will reduce Federal OCS royalty collections initially 
[$1.1 billion or 3% over the rest of this decade], it will raise 
royalties in later years [$1.4 billion or 4% over the next decade] 
because of the new gas production that it generates above what 
otherwise would have been produced and in amounts beyond the royalty 
suspension volumes.
    Question 62. The use of AML funds for the reclamation of non-coal 
sites is very important in New Mexico. What changes does the 
Administration's proposed legislation make in the ability of states to 
use AML funds for non-coal reclamation? Please describe and include 
references to the relevant sections of the legislation that make these 
changes.
    Answer. The Administration's legislative proposal, which was 
introduced on February 3 as S. 2049 and on February 4 as H.R. 3778, 
would not impose any additional restrictions on the expenditure of AML 
funds on non-coal sites for States and tribes that have not certified 
the completion of all coal-related reclamation.
    Under section 409 of SMCRA, the Secretary is authorized to approve 
the expenditure of AML funds for qualifying non-coal sites upon request 
by the Governor of a State or the head of the governing body of an 
Indian tribe. The proposed legislation retains this provision for non-
certified states.
    Section 402(g)(1) of SMCRA currently allocates 50 percent of all 
reclamation fees collected from operations within the jurisdiction of a 
State or Indian tribe to that State or tribe. Once a State or tribe 
certifies the completion of all coal-related reclamation, the State or 
tribe may use grants awarded from the State-share allocation to reclaim 
non-coal sites.
    In keeping with the effort to focus on the reclamation of high-
priority, coal-related sites, the Administrations legislative proposal 
would end the State-share allocation currently found in section 
402(g)(1) and remove the authorization for the Secretary to make grants 
to certified States and tribes for non-coal reclamation. However, 
section 102(6) of the legislative proposal would add a new section 
401(d)(2) to SMCRA, which, among other things, would authorize 
certified States and tribes, subject to appropriation, to receive 
distributions of the currently unappropriated balance of their State-
share allocations over ten years. State and tribes could use those 
funds for any purpose that they desire, including the reclamation of 
non-coal sites.
    Question 63a. The OSM 2005 budget request includes a $53.3 million 
increase in the Abandoned Mine Reclamation Program. Legislation 
transmitted by the Administration to reauthorize that program indicates 
that $53.3 million will be paid each year for 10 years to the states 
and tribes that have certified completion of their coal-related work.
    1. Please provide a list of which states and tribes are certified 
and will receive payment and how much will be paid to each.
    Answer. To date, six State and Tribal AML programs have certified 
that all of their coal reclamation has been completed. Although it has 
not formally certified to date, the Crow Tribe is eligible to certify. 
The Administration proposes to pay these States and Tribes the amount 
of their respective State Share balances as of September 30, 2004. The 
balances will be returned over the next 10 years in annual payments.


------------------------------------------------------------------------
                                                       Estimated annual
                                                        payment amount
                     State/Tribe                          (rounded in
                                                           millions)
------------------------------------------------------------------------
Louisiana...........................................          $ 0.1
Montana.............................................            4.7
Texas...............................................            2.0
Wyoming.............................................           41.9
Crow Tribe..........................................            0.8
Hopi Tribe..........................................            0.6
Navajo Nation.......................................            3.0
------------------------------------------------------------------------
    Total...........................................          $53.0
------------------------------------------------------------------------

    It is important to note, however, that these payments to the 
certified states and tribes over the next ten years free up the money 
that would have gone to these states and tribes in the form of regular 
grants. Thus, by making these payments to the certified states, an 
additional $38 million dollars is made available to the noncertified 
states each year over the life of the program.
    Question 63b. What amounts will be paid to states and tribes that 
certify after September 30, 2004?
    Answer. Upon certification, the Administration is committed to 
paying each State and tribe any remaining balance that has accumulated 
in its State share account. This balance will be paid out within the 
same ten-year period as those states that were certified before 
September 30, 2004, i.e., by 2015.
    Question 63c. What is the rationale for lowering the AML fee?
    Answer. The Administration's proposal attempts to balance eastern 
and western interests while focusing on more quickly cleaning up real 
health and safety threats. At this time we are collecting fees far 
faster than they can be spent on reclamation. As a result, a large 
balance has accumulated in the AML Fund. We can phase in a reduction in 
the next several years so that what we collect is comparable to what we 
spend. As a bonus, we expect the reduction in the fee to be passed on 
to coal customers, largely electrical utility companies, which could 
result in savings for electricity consumers.
    Under the current system, because so much of the money collected 
goes into state share accounts and does not go toward reclaiming mined 
lands, we will have to collect $6.8 billion to get the $3 billion we 
need to clean up the remaining high-priority problems. That would take 
about 23 years. If, instead, we are able to spend the money where it is 
needed most, then we will only need to collect another $3.6 billion.
    Question 63d. Does SMCRA currently provide authority for the 
extension of the AML fee?
    Answer. Yes, but the extension of the fee is for the purposes of 
the United Mine Workers of America Combined Benefit Fund (CBF), not for 
the purposes of AML reclamation. Section 402(b) of SMCRA currently 
specifies that, after September 30, 2004, ``the fee shall be 
established at a rate to continue to provide for the deposit referred 
to in subsection (h).'' Section 402(h) requires that interest earned by 
and paid to the AML, fund be transferred to the United Mine Workers of 
America Combined Benefit Fund for debit against that Fund's unassigned 
beneficiaries' premium account.
    Question 64. The Budget highlights book indicates that of the 
increase in the wild horse and burro program, $10.5 million will be 
offset with decreases to ``programs that will benefit from achievement 
of appropriate management levels and with reductions to lower-priority 
activities.'' Please provide a list of these programs and activities 
together with their funding levels in fiscal years 2004 and 2005.
    Answer. The table below shows the 2004 enacted level, the 2005 
request level, and the 2005 reduction associated with the Wild Horse 
and Burro proposal.


------------------------------------------------------------------------
                                                       2005
                                             2004     budget    2005 WHB
                                            enacted   request  reduction
------------------------------------------------------------------------
     Management of Lands and Resources
    101Soil, Water, and Air               $36,038   $34,238      -$948
    102Rangeland Management                72,459    68,204     -1,907
    103Forestry Management                  8,093     9,025       -106
    104Riparian                            22,015    21,540       -579
    105Cultural Resources Management       15,479    15,142       -407
    106Wild Horses & Burros                29,051    39,612          0
    111Wildlife Management                 22,387    25,428       -295
    112Fisheries Management                11,711    12,456       -308

    1Threatened & Endangered Species       21,940    21,452       -576
    121Wilderness Management               17,673    16,677       -465
    122Recreation Resources Management     44,603    43,209       -574
    142Cadastral Survey                    16,691    13,768        -39
    143Land and Real Management            34,635    35,563       -105
    161Resource Management Planning        48,510    50,056       -638

    1Resource Protection & Law             16,283    15,042       -192
      Enforcement
    164Hazard Mgmt. & Resource             16,497    16,080       -479
        Restoration
    165Operations Management                6,311     6,151     -1,661
    165Annual Maintenance Management       31,846    31,045       -838
    165Deferred Maintenance Management     12,349    11,036       -325
    165Infrastructure Improvement          31,027    28,236       -816

    4Land & Resource Info. Systems         18,757    18,317       -493
    181Information Systems Operations      18,527    19,928       -244
------------------------------------------------------------------------
                                                              -$10,500
------------------------------------------------------------------------

    Question 65. What assumptions does the FY05 Budget make with 
respect to leasing in the Arctic National Wildlife Refuge?
    Answer. The budget assumes that legislation will be enacted in the 
upcoming congressional session authorizing leasing in the ANWR. The 
first lease sale would be held in FY 2006, producing $2.4 billion in 
receipts from bonuses that would be shared 50/50 between the Federal 
government and the State of Alaska. The Federal share of the bonuses 
from the first sale would be transferred to DOE for energy conservation 
programs. Subsequent sales would be held in FY 2008 and 2010 with 
bonuses estimated at $100 and $50 million. respectively.
    Question 66. What is the total amount of funding for the oil and 
gas I&E program included in the request for FY05? Please provide a 
table showing the funding for this program (both requested and enacted) 
for the previous 6 years.
    Answer. The BLM's 2005 budget request does not specify a funding 
amount for oil and gas Inspection and Enforcement (I&E). The BLM 
estimates that I&E funding in 2005 will be about the same as 2004. 
Those specifications are done within BLM after the budget has been 
enacted. The following is a table showing the BLM's I&E program funding 
over the last six years.


----------------------------------------------------------------------------------------------------------------
                                            FY 1999     FY 2000     FY 2001     FY 2002     FY 2003     FY 2004
----------------------------------------------------------------------------------------------------------------
Enacted I&E Funding.....................  14,850,000  15,365,000  20,042,000  22,673,000  24,000,000  26,000,000
----------------------------------------------------------------------------------------------------------------

    Question 67. What is the total amount of requested funding for oil 
and gas NEPA compliance for FY05? Please provide a table showing the 
funding for NEPA compliance (both requested and enacted) for the 
previous 6 years.
    Answer. The BLM's 2005 budget request does not specify a funding 
amount for NEPA compliance within the Oil and Gas program. Similarly, 
the costs of NEPA compliance are not individually tracked within BLM's 
oil and gas financial management system. They are aggregated across 
various portions of BLM's oil and gas budget, such as APD processing 
and inspection and enforcement.
    The following is a table which estimates BLM's NEPA compliance in 
the Oil and Gas program over the last six years.


----------------------------------------------------------------------------------------------------------------
                                            FY 1999     FY 2000     FY 2001     FY 2002     FY 2003     FY 2004
----------------------------------------------------------------------------------------------------------------
Estimated Funding.......................   9,000,000   9,500,000   9,600,000  10,000,000  10,500,000  11,750.000
----------------------------------------------------------------------------------------------------------------

    Question 68. What is the total backlog of APDs? Please provide a 
table showing the backlog over the last three years.
    Answer. The following is a table showing the number of APDs that 
were pending (on Federal and Indian lands) at the end of each of the 
last three fiscal years, as well as the number pending as of February 
13, 2004. A portion of the increase in pending APDs at the end of FY 
2003, versus the end of FY 2002, is attributable to an increase in 
proposals to develop coalbed natural gas resources in the Powder River 
Basin in Wyoming.

                                   APDs PENDING AT THE END OF THE FISCAL YEAR
----------------------------------------------------------------------------------------------------------------
                                                                                                    As of 2-13-
                                                                  FY 2001    FY 2002    FY 2003        2004
----------------------------------------------------------------------------------------------------------------
Pending APDs...................................................    2,845      2,386      3,080       2,886
----------------------------------------------------------------------------------------------------------------

    69. How many APD's did you issue during the last fiscal years? 
Please provide a table displaying this information on a state-by-state 
basis.
    Answer. The following is a table showing the number of APDs issued 
on Federal and Indian lands during the last four fiscal years, by 
state.

                              APDs APPROVED
------------------------------------------------------------------------
      Geographic State         FY 2000    FY 2001    FY 2002    FY 2003
------------------------------------------------------------------------
Alabama.....................       0          2          0          8
Alaska......................      11         34         13          6
Arkansas....................       5          2          2          6
California..................     117         74        108         73
Colorado....................     169        227        189        254
Kansas......................       8          6          3          7
Kentucky....................       0          2          2          0
Louisiana...................       8          5          0         15
Michigan....................       1          3          0          0
Mississippi.................       6          6          4         14
Montana.....................     139        119        130        211
Nevada......................       0          0          5          0
New Mexico..................     916      1,057      1,117      1,127
New York....................       0          0          2          0
North Dakota................      16         43         54         53
Ohio........................       1          8          0          4
Oklahoma....................      12          4          5          9
Pennsylvania................       0          0          0          0
South Dakota................       1          2          4          1
Texas.......................      15         19         16         25
Utah........................     300        420        434        319
Virginia....................       0          1          0          0
West Virginia...............       2          2          1          1
Wyoming.....................   1,686      1,827      1,638      1,626
------------------------------------------------------------------------
    Total...................   3,413      3,863      3,727      3,759
------------------------------------------------------------------------

    Question 70. How many acres have you put under oil and gas lease 
during each of the past three fiscal years. Please display this 
indicating how many acres were leased competitively and how many were 
leased noncompetitively. Also please display on a state-by-state basis.
    Answer. The following are six tables showing the acreage, by state, 
of both competitive and non-competitive leases.

                  COMPETITIVE OIL AND GAS LEASES ISSUED
                           [FISCAL YEAR 2001]
------------------------------------------------------------------------
                     State                        Leases        Acres
------------------------------------------------------------------------
Alabama.......................................        3         4,205
Arizona.......................................       18        14,138
Arkansas......................................       36        52,302
California....................................       37        23,296
Colorado......................................      520       502,818
Kansas........................................        3           599
Louisiana.....................................        8           547
Mississippi...................................       27        15,189
Montana.......................................      170       236,312
Nebraska......................................        3         7,046
Nevada........................................      133       173,353
New Mexico....................................      192       107,762
North Dakota..................................       72        36,780
Oklahoma......................................       26         8,539
South Dakota..................................       27        37,906
Texas.........................................       71        59,129
Utah..........................................      121       145,087
Washington....................................       17        13,497
Wyoming.......................................    1,007     1,057,382
------------------------------------------------------------------------
    Total.....................................    2,492     2,495,887
------------------------------------------------------------------------


                NON-COMPETITIVE OIL AND GAS LEASES ISSUED
                           [FISCAL YEAR 2001]
------------------------------------------------------------------------
                     State                        Leases        Acres
------------------------------------------------------------------------
Alabama.......................................        1           281
Arizona.......................................        6        21,446
Arkansas......................................       53       119,447
California....................................        5         1,994
Colorado......................................        9       190,071
Louisiana.....................................        1            59
Mississippi...................................        1            69
Montana.......................................      158       310,181
Nebraska......................................        1            80
Nevada........................................      162       573,047
New Mexico....................................       11        10,286
North Dakota..................................       13        12,905
Oregon........................................        5         4,272
South Dakota..................................       26        53,974
Texas.........................................        4           236
Utah..........................................       73       139,498
Washington....................................        3         2,800
Wyoming.......................................       90       105,558
------------------------------------------------------------------------
    Total.....................................      704     1,446,304
------------------------------------------------------------------------


                  COMPETITIVE OIL AND GAS LEASES ISSUED
                           [FISCAL YEAR 2002]
------------------------------------------------------------------------
                     State                        Leases        Acres
------------------------------------------------------------------------
Alabama.......................................        9         4,185
Arkansas......................................       67        33,086
California....................................       48        26,359
Colorado......................................      372       371,787
Illinois......................................        1           112
Kansas........................................        4         2,378
Kentucky......................................        1           441
Louisiana.....................................        9         3,033
Michigan......................................        4         3,939
Mississippi...................................       88        32,676
Montana.......................................      142       110,133
Nevada........................................       35        36,494
New Mexico....................................      208       131,949
North Dakota..................................       65        34,052
Oklahoma......................................       21         5,938
Pennsylvania..................................        1           561
South Dakota..................................        2         2,760
Texas.........................................       99        33,469
Utah..........................................       76        95,016
Washington....................................        7         8,083
Wyoming.......................................      506       459,786
------------------------------------------------------------------------
    Total.....................................    1,765     1,396,237
------------------------------------------------------------------------


                NON-COMPETITIVE OIL AND GAS LEASES ISSUED
                           [FISCAL YEAR 2002]
------------------------------------------------------------------------
                     State                        Leases        Acres
------------------------------------------------------------------------
Arizona.......................................        1         6,983
Arkansas......................................       13        37,881
California....................................        4         2,720
Colorado......................................       53        75,639
Idaho.........................................        3         5,798
Mississippi...................................       30        14,641
Montana.......................................      159       183,208
Nevada........................................       74       223,426
New Mexico....................................       35        59,615
North Dakota..................................       13         5,142
Oregon........................................        6         5,006
Texas.........................................        3         4,687
Utah..........................................       56       127,054
Washington....................................        3         3,461
Wyoming.......................................       72        77,801
------------------------------------------------------------------------
    Total.....................................      525       833,062
------------------------------------------------------------------------


                  COMPETITIVE OIL AND GAS LEASES ISSUED
                           [FISCAL YEAR 2003]
------------------------------------------------------------------------
                     State                        Leases        Acres
------------------------------------------------------------------------
Alabama.......................................       12         8,990
Arizona.......................................        0             0
Arkansas......................................       52        71,516
California....................................       55        53,820
Colorado......................................      248       243,874
Florida.......................................        2         3,368
Illinois......................................        0             0
Kansas........................................        8         2,950
Kentucky......................................        0             0
Louisiana.....................................        4           511
Michigan......................................        4         1,150
Mississippi...................................       35        10,768
Montana.......................................       89        55,869
Nebraska......................................        2         1,600
Nevada........................................       58        62,744
New Mexico....................................      195       161,484
New York......................................        0             0
North Dakota..................................        7         1,311
Ohio..........................................        0             0
Oklahoma......................................       23         3,701
Pennsylvania..................................        0             0
South Dakota..................................        1           450
Texas.........................................       20        18,353
Utah..........................................      122       137,288
Virginia......................................        0             0
Washington....................................      105       185,088
West Virginia.................................        5         9,830
Wyoming.......................................      481       419,791
------------------------------------------------------------------------
    Total.....................................    1,528     1,454,456
------------------------------------------------------------------------


                NON-COMPETITIVE OIL AND GAS LEASES ISSUED
                           [FISCAL YEAR 2003]
------------------------------------------------------------------------
                     State                        Leases        Acres
------------------------------------------------------------------------
Arizona.......................................        3         3,040
Arkansas......................................        4        24,276
Colorado......................................       10         7,797
Idaho.........................................        1           671
Kansas........................................        4         2,814
Michigan......................................        5         2,560
Mississippi...................................       18         4,322
Montana.......................................      130       117,005
Nebraska......................................        2           240
Nevada........................................       31        53,548
New Mexico....................................       35        78,011
North Dakota..................................        3         1,320
Oklahoma......................................       16         8,688
Oregon........................................        1           160
Texas.........................................       25        25,204
Utah..........................................       49       103,239
Washington....................................       14        25,100
Wyoming.......................................      110       126,026
------------------------------------------------------------------------
    Total.....................................      461       584,021
------------------------------------------------------------------------

    Question 71. How many acres of lands administered by the Forest 
Service and the BLM in states west of the hundredth meridian are 
currently under oil and gas lease? Please display by state and agency.
    Answer. The following is a table listing the acreage under oil and 
gas leases on BLM and FS managed lands in states West of the hundredth 
meridian. (Note: These figures do not include Federally-owned mineral 
estate under privately-owned surface lands.)


----------------------------------------------------------------------------------------------------------------
                                                             Acres under     No. O&G    Acres under    No. O&G
                                                              O&G lease/   leases/BLM-   O&G lease/   leases/FS-
                           State                             BLM-managed     managed     FS-managed    managed
                                                               surface       surface      surface      surface
----------------------------------------------------------------------------------------------------------------
Alaska (NPRA)..............................................    1,446,990        193               0        0
Arizona....................................................      105,020         62               0        0
California.................................................      304,876        654           6,403       22
Colorado...................................................    3,897,708      4,867         498,077      513
Idaho......................................................        8,768          7           1,495        1
Kansas.....................................................       23,913         67          65,281      298
Montana....................................................    2,968,337      3,420       1,324,975      689
Nebraska...................................................          560          3               0        0
New Mexico.................................................    5,199,557      8,833         235,309      287
Nevada.....................................................    1,940,371      1,112          18,950        8
North Dakota...............................................      107,350        303         643,745    1,201
Oklahoma...................................................      100,138        829          97,708      223
Oregon.....................................................       29,355         19          32,480       10
South Dakota...............................................      121,913        143          30,396       44
Texas......................................................        2,528         10         388,986      494
Utah.......................................................    3,211,172      3,252         576,225      307
Washington.................................................      347,325        227               0        0
Wyoming....................................................   14,904,462     20,869         574,360      854
----------------------------------------------------------------------------------------------------------------
    TOTALS.................................................   34,720,343     44,870       4,494,390    4,951
----------------------------------------------------------------------------------------------------------------

    Question 72. What is the status of BLM's work on the study required 
under the EPCA? What areas are currently being evaluated?
    Answer. The EPCA Phase I Inventory was released in January 2003, 
and covered the Montana Thrust Belt, and the Powder River, Green River, 
Uinta-Piceance, and Paradox/San Juan Basins. The EPCA Phase II 
Inventory began at the start of Fiscal Year 2004. This effort is well 
underway with a major portion of the data collection phase already 
completed. It is scheduled for release in December 2004. The areas 
currently being evaluated are the Wyoming Thrust Belt, the Denver, 
Appalachian, and Black Warrior Basins, the Florida Peninsula, and 
Northern Alaska (NPRA and ANWR 1002 areas only).
    Question 73. The Budget document indicates that BLM proposes to 
offset the reduction in the oil and gas leasing program request with a 
cost recovery offset from lessees, totaling $4 million.
    Please describe the time frame for implementing these user fees, as 
well as providing a detailed listing of the amount of the fees and the 
proposed payors.
    Answer. The FY 2005 budget proposes cost recovery for the 
processing of leases and other applications. The budget assumes $4 
million in increased fees. We have not yet determined the specific fee 
levels for various activities.


------------------------------------------------------------------------
                                                            Existing fee
                                                              (paperwork
                                                             processing)
------------------------------------------------------------------------
OIL AND GAS (3100):
  Noncompetitive lease offer..............................           $75
  Competitive lease high bid..............................           $75
  Assignment and transfer.................................           $25
  Overriding royalty transfer, payment out of production..           $25
  Lease renewals andexchanges.............................           $75
  Lease reinstatement, Class I............................           $25
  Leasing under right-of-way..............................           $75

GEOTHERMAL (3200):
  Noncompetitive Lease Application........................           $75
  Assignment and transfer.................................           $50

COAL (3400):
  Exploration license application.........................          $250
  Lease or lease interest transfer........................           $50

    Nonenergy Leasable (3500):
  Lease renewals..........................................           $25
  Prospecting Permitapplication...........................           $25

    Mining Law Administration (3800):
  Notice of Location......................................           $10
  Amendment to location...................................            $5
  Transfer of Interest....................................            $5
  Affidavit of Assessment Work............................            $5
  Notice of Intent to Hold................................            $5
  Deferment of Assessment.................................           $25
  Mineral Patent Application (lode).......................          $250
  Mineral Patent Application (placer).....................       * $2.50
  Mineral Patent Application (millsite)...................       * $2.50
  Adverse claim...........................................           $10
  Private contest.........................................           $10
  Protest.................................................           $10
------------------------------------------------------------------------
*Acre or fraction.

    Question 74. What is the current level of funding and what level is 
proposed for fiscal year 2005 for the administration of renewable 
energy development on public lands? Please provide allocation by energy 
type.
    Answer. In FY 2004, the BLM's budget for renewable energy 
development is $1,950,000. This includes $1,250,000 for geothermal 
energy; $400,000 for wind and solar energy; and $300,000 for hydropower 
re-licensing. The BLM has requested an increase of $250,000 in the 
budget for renewable energy in FY 2005 to $2,200,000. The increase will 
be targeted for processing wind energy applications. Additionally, the 
BLM has begun work on a nationwide Wind Energy Development Programmatic 
Environmental Impact Statement, which will assess the possible 
amendment of individual land use plans to address future development of 
wind energy resources on BLM administered lands. Costs associated with 
this EIS will be paid from the Lands and Realty Management program's 
base funding and are expected to be $750,000 in FY 2004 and $300,000 in 
FY 2005.
    Question 75. The Budget document refers to identification of 
opportunities to resolve the conflicts between coalbed methane and coal 
development. Please describe BLM's efforts in this regard. What efforts 
are being made to resolve conflicts due to split estate issues?
    Answer. Coalbed Methane and Coal Development Conflicts: On August 
21, 2003, the BLM issued Instruction Memorandum (IM) No. 2003-253 
updating its policy and guidance addressing the conflicts between 
coalbed natural gas and surface coal mine development in the Powder 
River Basin.
    The policy maintains the goal of conserving the resources and 
maximizing the return to the public in both revenue and energy 
production, and protecting public health and safety while mitigating 
environmental impacts. It recognizes the rights of each lessee, subject 
to the terms of each lease and sound principles of resource 
conservation, and continues to encourage oil and gas and coal companies 
to resolve conflicts. When requested, the BLM will assist in 
facilitating agreements between the companies. The BLM also will 
exercise authority provided in the leases, applicable statutes, and 
regulations to manage Federal mineral development in the public's best 
interest.
    To avoid the bypass of Federal coal resources or to conserve 
coalbed natural gas (CBNG) resources, the BLM is offering a 50% royalty 
rate reduction to oil and gas lessees producing CBNG within a zone 
around each active coal mine or coal lease application area that has 
potential for conflict with CBNG development. This incentive is 
intended to encourage CBNG operators to drill wells and extract as much 
natural gas as possible in the time available before mining begins. To 
qualify for a royalty rate reduction, the oil and gas lessee must agree 
to expedite CBNG production in a manner that will maximize the recovery 
of the gas resource before abandonment. The lessee also must agree to 
cease operations, and to abandon wells and facilities at BLM's request 
prior to the arrival of mining operations in the area of the wells.
    Split Estate Conflicts: The BLM issued policy guidance for 
resolving split estate conflicts on April 2, 2003 (IM No. 2003-131). 
This IM requires either an agreement between the surface owner and 
lessee or operator or posting of a bond for surface owner protection. 
The BLM policy requires that oil and gas operators make a good faith 
effort to contact surface owners and enter into an access agreement 
with them before drilling permits are approved. The policy recognizes 
the mineral estate primacy that is clearly intended in Federal 
statutory and case law as well as state law. However, BLM policy based 
on those statutes requires that operators compensate the surface owner 
for certain losses resulting from oil and gas development.
    The BLM also participated with various organizations that represent 
surface owners and mineral developers and State and other Federal 
government agencies to develop the Wyoming Split Estate Initiative 
(WSEI). The WSEI provides several alternatives for resolving conflicts 
between surface owners and mineral developers. In addition, the BLM was 
part of a recent initiative by the Western Governors Association that 
developed best management practices for minimizing conflicts between 
these two groups.
    Question 76. Why are you reviewing and revising royalty rate 
guidelines for coal?
    Answer. The BLM's existing guidelines for royalty rate reduction 
are overly complex and difficult to apply. As set out in the 
President's National Energy Policy, the BLM intends to clarify the 
conditions for granting a royalty rate reductions and create greater 
efficiencies in the approval process. The standard royalty rates for 
coal are set in statute and regulation. The great majority of coal from 
Federal leases is produced under these standard royalty rates. There 
are cases where coal cannot be economically recovered. In these cases, 
the BLM is given the discretion to reduce the royalty to promote coal 
development. Reductions in the royalty rate are implemented on a 
temporary basis so that additional coal can be produced from existing 
leases.
    Question 77. What actions are you considering to expedite coal 
leasing? Are you anticipating new lease sales? If so, how many and 
when?
    Answer. The BLM has grouped five coal lease applications in Wyoming 
into the Southern Powder River Basin Coal (SPRB) Environment Impact 
Statement (EIS). This helps achieve economies of scale and more 
accurately assesses the cumulative impacts of these projects. The 
notice of availability for the SP RB Final EIS was published on 
December 24, 2003. The SPRB Final EIS provided the analysis for tile 
proposed action and alternatives for issuing five coal leases, which 
contain 1.5 billion tons of coal. Lease sales associated with this EIS 
will occur in FY 2004 and FY 2005.
    In addition, the BLM has adjusted current funds, making them 
available to field offices that have higher numbers of applications. 
The BLM anticipates selling ten leases (19,355 acres total) in FY 2004, 
including two in Colorado, one in Kentucky, three in Oklahoma, one in 
Utah, and three in Wyoming. In addition to these Federal coal sales, 
the BLM will assist the State of Utah with two coal lease applications.
    Question 78. Has BLM conducted an inventory of abandoned, orphaned 
and idled oil and gas wells on lands administered by BLM? If so, please 
describe. How many of each category of well (abandoned, orphaned, or 
idled) is located on BLM administered lands? Please provide the 
information by state.
    Answer. The term ``abandoned well'' is not one that the BLM uses to 
categorize oil and gas wells. However, the BLM defines and categorizes 
idled and orphaned wells. An idle well is a well that has been inactive 
for over one year, while an orphan well is a well where there is no 
responsible party to assume the liability for the well.
    The current inventory of orphaned wells administered by the BLM is:

          California--146
          Oklahoma--16
          Utah--14
          Wyoming--74

    The current inventory of idle wells is:

          Arkansas--8
          Alaska--67
          Arizona--8
          California--1652
          Colorado--642
          Kansas--23
          Kentucky--1
          Louisiana--57
          Mississippi--15
          Montana--480
          Nebraska--2
          Nevada--25
          New Mexico--2680
          North Dakota--85
          Ohio--34
          Oklahoma--646
          Pennsylvania--14
          South Dakota--12
          Tennessee--5
          Texas--21
          Virginia--1
          West Virginia--2
          Wyoming--3122

    Question 79. Does the Department support legislation to permit the 
Secretary to issue separate leases for the extraction of tar sand and 
the exploration and development of oil and gas where an area contains a 
combination of tar sand and oil or gas? If so, why is such legislation 
necessary?
    Would this have revenue implications?
    Answer. The Department of the Interior supports legislation that 
would permit the Secretary to issue separate leases for the extraction 
of tar sand and the exploration and development of oil and gas where an 
area contains a combination of tar sand and oil/gas.
    Such legislation would enable an operator to obtain only an oil and 
a gas lease when the operator has no interest in extracting tar sands. 
This change should stimulate additional leasing for oil and gas in the 
CHLA areas and ultimately result in increased Federal revenue.
    Question 80. Do you think the royalty rates for geothermal leases 
need to be revised? If so, please describe.
    Answer. The President's National Energy Policy did not call for a 
revision of the royalty rates for geothermal leases.
    Question 81. Do you think there needs to be other changes to the 
geothermal leasing program? If so, please describe. Does BLM have 
adequate resources to administer the program?
    Answer. The Department of the Interior supports having an ``all-
competitive'' leasing system for electricity generation leases, while 
moving away from the ``Known Geothermal Resource Area'' determinations. 
There has also been some confusion in the past with regard to the 
Secretary's authority under the Geothermal Steam Act to initiate the 
creation of a unit or to direct a lessee to join a unit, as opposed to 
approving a unit proposal made by a majority of members. The Department 
supports clarifying this authority to parallel similar oil and gas 
authorities related to units and pooling, so that the BLM would more 
clearly have the authority to manage entire geothermal reservoirs.
    Question 82. Please tell me what you are proposing to ensure that 
the BLM is able to provide for the proper planning, management, and 
protection of BLM administered national monuments. I would appreciate a 
breakdown by monument.
    Answer. The BLM manages 15 National Monuments, 14 of which were 
established through Presidential Proclamation and one was established 
by Congress. Since all but one of these Monuments were established 
between January 2000 and the end of 2001, the BLM is concentrating most 
of its effort on developing collaborative Resource Management Plans 
(RMP) for each Monument. The BLM issued interim guidance shortly after 
designation of each monument to guide management until the RMPs are 
completed.
    For 2004, the BLM is in the process of determining the funding 
level for each of the Monuments, as well as for other units of the 
National Landscape Conservation System. Once the BLM has completed this 
process, anticipated in early March, the BLM will provide Congress the 
operational funding levels for each Monument. The operational funds are 
used for on-the-ground management and resource protection. The 
operational funding for 2005 for each Monument will roughly equal the 
operational funding for 2004, with the addition of a requested increase 
for Craters of the Moon National Monument, of which $29,000 is for a 
sage grouse habitat restoration project.
    The BLM has determined the funding levels for 2005 for each land 
use plan currently being prepared for each of these Monuments. The 
table below provides planning status and requested funding levels in 
planning for each area.


----------------------------------------------------------------------------------------------------------------
                                                                                             Target
                                                                        Plan   Draft plan/ completion   FY 2005
             State                         National monument            start      EIS      dates for   funding
                                                                        year     printed   final plan   request
                                                                                              & ROD
----------------------------------------------------------------------------------------------------------------
                                 Agua Fria                               2002    05/04       06/05      $440,000
                                 Grand Canyon Parashant                  2002    05/04       12/05      $800,000
AZ                               Ironwood Forest                         2002    01/05       02/06      $600,000
                                 Vermillion Cliffs                       2002    05/04       12/05            --
                                 Sonoran Desert                          2002    01/05       02/06      $530,000
----------------------------------------------------------------------------------------------------------------
                                 California Coastal                      2002    07/04       07/05       $22,000
CA                               Santa Rosa San Jacinto                  2002    03/03       02/04            --
                                 Carrizo Plains                          2002    03/04       10/04            --
----------------------------------------------------------------------------------------------------------------
CO                               Canyon of the Ancients                  2002    10/04       09/05      $325,000
----------------------------------------------------------------------------------------------------------------
ID                               Craters of the Moon                     2002    04/04       01105       $40,000
----------------------------------------------------------------------------------------------------------------
MT                               Upper Missouri River Breaks             2002    07/04       06/05      $630,000
                                 Pompeys Pillar                          2004       **          **            --
----------------------------------------------------------------------------------------------------------------
NM                               Kasha Katuwe Tent Rocks                 2004     2004        2005       $85,000
----------------------------------------------------------------------------------------------------------------
OR                               Cascade Siskiyou                        2001    05/02       09/04      $100,000
----------------------------------------------------------------------------------------------------------------
UT                               Grand Staircase-Escalante               1996    11/98       11/99            --
----------------------------------------------------------------------------------------------------------------
* Funding included with Grand Canyon Parashant. The 2004 figures include funding from other programs, in
  addition to Planning, that support plan development.
** Not scheduled.

    Question 83. Last year, you stated that the Bureau of Land 
Management had no general legal authority to designate lands as 
wilderness study areas. In prohibiting the BLM from designating new 
WSAs, the guidance issued by the BLM states that a variety of 
alternative means exist to protect wilderness qualities on BLM lands. 
Can you tell me where such ``alternative'' designations have been 
employed to protect wilderness quality lands since the BLM's new 
management instructions were issued? Can you also tell me if the BLM 
has proposed that such designations be employed in its current land use 
planning efforts for any specific areas?
    Answer. Through the land use planning process, BLM uses special 
management designations, Area of Critical Environmental Concern (ACEC) 
designations, or other management prescriptions to protect lands with 
wilderness characteristics or other important natural and cultural 
resources. The following are examples of alternative management 
designations being considered in BLM's planning process since the 
September 29, 2003 Instruction Memoranda (2203-274 and 2003-275) were 
issued.

  <bullet> Andrews Unit/Steens Mountain Cooperative Management and 
        Protection Area (Oregon): the preferred alternative in the 
        Draft Resource Management Plan (RMP)/Draft Environmental Impact 
        Statement (EIS) includes a provision that protects wilderness 
        characteristics on 358 acres of land through a land exchange 
        within an existing Wilderness Study Area (WSA).
  <bullet> Gunnison Gorge National Conservation Area (Colorado): the 
        proposed RMP retains an existing 161 acre Research Natural Area 
        (RNA)/ACEC, and establishes 2 new ACECs, the Gunnison Sage 
        Grouse Important Bird Area (22,200 acres) and the Native Plant 
        Community Outstanding Natural Area (3,785 acres).
  <bullet> Otero and Sierra Counties (New Mexico): the proposed RMP for 
        almost two million acres of federal public lands and mineral 
        estate administered by the Las Cruces Field Office analyzes 
        potential development of fluid minerals and identifies 
        management measures necessary to protect the area's natural 
        resources. Special conservation measures would be applied in 
        ACECs, intact grassland areas, plus three core habitat areas 
        for the Aplomado falcon. Leasing will not be allowed in six 
        existing and eight proposed ACECs (19,257 and 23,718 acres, 
        respectively).
  <bullet> Headwaters Forest Reserve (California): the Proposed RMP/
        Final EIS protects 4,400 acres of land with wilderness 
        characteristics in Humboldt County, California. The plan 
        outlines management direction for the 7,500-acre Headwaters 
        Forest Reserve.
  <bullet> Lakeview (Oregon): in November, 2003, the Oregon State 
        Director approved the Record of Decision (ROD) for the Lakeview 
        RMP, covering 3.2 million acres of public land. The plan 
        retains 4 existing ACECs (165,935 acres), expands an existing 
        ACEC by 18,049 acres, and designates 12 new ACEC/RNAs totaling 
        more than 131,000 acres.
  <bullet> National Petroleum Reserve-Alaska (Northwest NPR-A): the 
        final Record of Decision (ROD) for the Integrated Activity 
        Plan/EIS was issued on January 22, 2004. This plan describes 
        the future multiple use management of 8.8 million acres, and 
        emphasizes restrictions on surface activities. For example, a 
        stipulation that prohibits permanent surface occupancy will be 
        imposed on leases along coastal areas, key rivers and deep 
        water lakes and a new 102,000-acre Kasegaluk Lagoon Special 
        Area was established where permanent surface occupancy will be 
        prohibited if the area is leased in the future. In total, 
        various restrictions apply to approximately 1,515,000 acres 
        (16% of the planning area).

    Question 84. The Administration has placed a strong emphasis on the 
use of sound science at the Department of the Interior. However, the 
USGS budget request reflects an overall net decrease of $18.2 million 
from 2004. Please provide a listing of these funding reductions.
    Answer. The USGS budget is reduced $18.2 million below the 2004 
enacted level. This is iWde up of a $43.2 million reduction in lower 
priority program reductions (including $17.1 million in Congressional 
earmarks), offset by $25.1 million in increases that includes $16.1 
million in new and expanded programs and $9.0 million for 
uncontrollable costs. The following is a list of USGS reductions.



------------------------------------------------------------------------
Bureau Streamlining Efficiencies...........................   -2,978,000
National Map Data Collection Activities....................   -1,887,000
Tennessee Geographic System *..............................     -494,000
Alaska & Hawaii Volcano Monitoring *.......................   -1,742,000
Asian and African Dust Particle Study *....................     -247,000
Tampa Bay Pilot Project *..................................   -1,504,000
Mineral Resources **.......................................   -6,493,000
Kansas Well Log Inventory *................................     -296,000
Tongue River Coalbed Methane Studyd*.......................     -889,000
Roubidoux Aquifer Study *..................................   -1,481,000
Mercury Study on South Carolina Rivers *...................      -50,000
Toxic Hydrology Lower Priority Studies *...................     -518,000
Berkeley Pit Study *.......................................     -198,000
Lake Pontchartrain Study *.................................     -592,000
Potomac River Study *......................................     -401,000
Spokane Valley Rathdrum Aquifer Study *....................     -494,000
Chesapeake Bay Program *...................................     -247,000
Delaware River Flow Model *................................     -247,000
Hood Canal Fish Mortality Study *..........................     -346,000
Lake Champlain Study *.....................................     -295,000
Water Monitoring in Hawaii *...............................     -444,000
Water Resource Research Institutes.........................   -6,420,000
Fire Science...............................................   -2,766,000
Mark Twain National Forest Study *.........................     -741,000
Molecular Biological Research *............................     -790,000
Pallid Sturgeon Study *....................................     -494,000
Diamondback Terrapins Study *..............................     -198,000
DNA Bear Sampling in Montana *.............................     -988,000
Multidisciplinary Water Study *............................     -296,000
Lake Tahoe Decision Support System *.......................     -494,000
Manatee Research *.........................................     -494,000
Cooperative Research Unit at the U. of Nebraska *..........     -395,000
Narrowband Radios..........................................   -3,941,000
Certification and Accreditation of Systems.................     -895,000
Accessible Data Transfer...................................     -592,000
Streamlining of Motor Vehicles.............................     -697,000
Leetown Science Center Expansion *.........................     -198,000
Tunison Lab *..............................................     -988,000
------------------------------------------------------------------------
 * Congressional Earmarks.
** $2.0 million is Congressionally Earmarked.

    Question 85. The Budget documents note that the ``USGS analyses of 
the availability and quality of water resources help to develop, 
regulate, and monitor management practices to ensure the continued 
availability of water resources for human consumption, agriculture, 
business, recreation, and environmental stability.'' This is an 
extremely important mission, particularly given the ever-increasing 
demands placed on limited water resources in the West.
    1. Given the critical need that exists to use scientific 
information to help avoid future water management conflicts, why does 
the 2005 Budget propose a 6% ($13.0 million) reduction in funding for 
USGS water resources investigations?
    Answer. Within the $13.0 million reduction for the Water Resources 
Investigations discipline, $4.0 million is a technical adjustment 
transferring bureau-wide enterprise information functions and costs 
from the science disciplines to a new centralized organization within 
USGS. This is not a program reduction within the Water discipline, as 
they are currently paying these costs, but will no longer have to once 
the centralized organization is in place.
    Of the remaining $9.0 million, none of the funding is being reduced 
from core Water Resource programs or projects. Congressional earmarks 
to lower priority site-specific projects make up $4.8 million of the 
reduction, with the remaining reductions coming in lower priority toxic 
hydrology projects and the Water Resource Research Institutes. The 
USGS' contribution to these institutes makes up a very small percentage 
of their total funding. The WRRI have been successful at generating 
funds from non-USGS sources. In 2003, the WRRI generated $19.00 for 
every $1.00 that the USGS contributed to them. These reductions have 
allowed for higher priority initiatives to be funded within the USGS 
and the Department, including $1.4 million for water quality studies in 
the Klamath River Basin and $1.0 million for the USGS water 
availability work necessary as part of the overall $21.0 million Water 
2025 initiative.
    2. Isn't this at cross-purposes with the Water 2025 initiative?
    Answer. The reductions to the Water program do not, in any way, 
affect the Water 2025 initiative. These reductions are not at cross-
purposes with the initiative.
    Question 86. The National Park Service Organic Act states that the 
purpose of national park areas is ``to conserve the scenery and the 
natural and historic objects and the wildlife therein and to provide 
for the enjoyment of the same in such manner and by such means as will 
leave them unimpaired for the enjoyment of future generations.'' The 
National Park Service has previously interpreted this legislative 
directive to mean that if there is a conflict between recreational use 
and resource protection, the protection of the resource takes priority. 
Can you tell me whether or not you are committed to upholding this 
management policy?
    Answer. We believe NPS has a responsibility both to conserve park 
resources and to provide for their enjoyment. Rather than thinking of 
enjoyment as being on a ``lower plane'' than resource protection, 
enjoyment should be viewed as interrelated with resource protection. It 
is permissible for visitor activities to affect park resources, but it 
is not permissible for visitor activities to create impacts that are so 
severe as to constitute an impairment that would affect the enjoyment 
of future generations. The ``balancing'' of these goals occurs as NPS 
evaluates whether the impacts from visitor activities on park resources 
are acceptable or unacceptable, subject to the caveat that those 
impacts must leave park resources ``unimpaired for future 
generations.'' Whether an impact constitutes a prohibited impairment is 
a case-by-case decision to be made ``in the professional judgment of 
the NPS manager,'' through appropriate public land-use and resource 
planning processes, taking into account various factors such as ``the 
particular resources and values that would be affected; the severity, 
duration, and timing of the impact; the direct and indirect effects of 
the impacts; and the cumulative effects of the impact in question and 
other impacts.'' See Management Policies 1.4.5.
    Question 87. Does the Department of the Interior have any plans to 
modify its existing management policies? If so, which policies are 
under review and what is your estimated timeline for revisions?
    Answer. As NPS stated in its September 24, 2003 response to 
questions and answers submitted by the House Resources Subcommittee as 
a follow-up to an oversight hearing on NPS Management Policies, we 
believe there are some areas of the 2001 Management Policies that may 
be inconsistent with the President and Secretary's position regarding 
access by Americans to their national parks. We indicated that we were 
in the process of reviewing and revising the Management Policies to 
eliminate these inconsistencies and that these types of periodic 
reviews are a standard management process.
    Question 88. Three years ago, the President announced his 
commitment to eliminate the $4.9 billion maintenance backlog at units 
of the National Park System within 5 years. There was some criticism of 
the initiative at that time on the grounds that most of the proposed 
funding simply included historic spending levels, and little was 
provided in the way of the increased funding that would be needed to 
actually reduce or eliminate the backlog. This year's budget reflects 
the fourth year of this initiative. To help us better understand the 
progress that has been made to date, can you tell me what is your 
present estimate of the park maintenance backlog, and whether you 
expect the President's commitment to eliminate the maintenance backlog 
within 5 years to be fulfilled?
    Answer. One of the Administration's highest budget priorities for 
the National Park Service (NPS) is addressing the backlog of deferred 
maintenance in our national parks. We again reflect that priority in 
this year's request of $1.112 billion to address deferred maintenance 
of park facilities and roads. This is nearly double the amount for the 
same categories just seven years ago. With this request, we are on 
track to exceed the President's goal of investing $4.9 billion over 
five years to address the backlog by improving facilities and roads in 
our parks. In the four budgets of this Administration, nearly $3.9 
billion to date has been proposed to address deferred maintenance in 
parks. The funds provided are achieving tangible results. The National 
Park Service has undertaken over 1,300 projects using repair and 
rehabilitation funding in FY 2001-2003 with another 400 more 
anticipated to be done in FY 2004.
    Question 89. The Land and Water Conservation Fund is the primary 
means of land acquisition for National Parks and Refuges and I realize 
that hard decisions have to be made on the allocation of funding. I was 
disappointed to see that over $130 million dollars of the Department's 
LWCF funds are requested for programs that are not authorized under the 
LWCF. I also noted that the FY05 budget does not include funding for an 
important expansion of Hawaii's Pu`uhonua O Honaunau National 
Historical Park, that was enacted in 2002.
    Can you please tell me where Pu`uhonua O Honaunau ranks in the 
budget lineup for federal funds for the LWCF; and when you expect to 
request the funding?
    Answer. For FY 2005, the acquisition for Pu`uhonua O Honaunau was 
ranked seventh nationally by the National Park Service. The priority 
list for FY 2006 is currently being developed at the Regional level and 
will then be compiled at the national level for the entire National 
Park Service.
    The year in which the Department will request funding for Pu`uhonua 
O Honaunau has not been determined. The list of projects requested in 
the budget is determined each year by an analysis of priorities within 
each Bureau and across the Department in conjunction with 
Administration priorities. Priorities may change from year to year. For 
example, imminent threats to a tract of land parcel may occur when the 
death of an owner results in the property offered for sale because the 
heirs want to divide the proceeds. Depending on the relative importance 
of such property nationally, it may be put at the top of the priority 
list so that it is not lost to development or other interests 
incompatible with the purposes of the Department's land managing 
bureaus.
    Question 90. Secretary Norton, thank you for working so closely 
with Hawaii's Congressional delegation on issues of importance to the 
people of Hawaii. The progress we have made on Native Hawaiian issues 
and the Compact of Free Association between the U.S. and the Freely 
Associated States (FAS) is reflected in the enactment of the amended 
Compact and the Office of Native Hawaiian Relations. I look forward to 
continuing to work with you as I pursue efforts to extend the federal 
policy of self-governance and self-determination to Native Hawaiians.
    While we have accomplished much with respect to the Compact of Free 
Association, there is still more to do. I am pleased that the FY05 
budget includes $30 million in mandatory funding for Compact Impact aid 
for the affected areas of Hawaii, Guam, and the Commonwealth of the 
Northern Mariana Islands. However, it is my hope that communication 
between the Office of Insular Affairs and Hawaii's Congressional 
Delegation improves in FY05. After working so closely with you, I was 
disappointed with the manner in which Compact Impact aid for FY04 was 
handled by the Office of Insular Affairs. We were not provided with 
notice of the results of the census of FAS citizens in Hawaii, nor were 
we consulted about the division of funding for Compact Impact aid. In 
addition, I was informed yesterday that the $10.5 million in FY04 funds 
to be received by the State of Hawaii would be subject to new semi-
annual reporting requirements. This is one example of OIA not being 
forthcoming about changes they are implementing as a result of the 2003 
Amendments. An issue of this magnitude requires better communication 
and improved collaboration, and I feel that a meeting with senior-level 
staff is required to address this matter.
    1. What assurances can you provide that your staff in OIA will work 
to improve communication and collaboration with Hawaii's Congressional 
delegation with respect to the issue of Compact Impact aid funding?
    Answer. We fully agree with the need for the Office of Insular 
Affairs and the Hawaii delegation to be in regular communication on 
these issues. On February 18, 2004, the Deputy Assistant Secretary for 
Insular Affairs and the Director of the Office of Insular Affairs 
briefed senior staff for all members of the Hawaii Congressional 
delegation on the new Compact legislation's requirements for the 
allocation and administration of the $30 million annual Compact Impact 
appropriation. Those present agreed to continue to stay in regular 
communication regarding Compact Impact issues and funding.
    As for the reporting requirements applicable to the Compact Impact 
grants, we note that these were not imposed at the discretion of the 
Office of Insular Affairs. The Compact legislation provides that the 
funds will be provided in the form of grants, and all Federal grants to 
states and territories are governed by the regulations known as the 
Common Rule, Uniform Requirements for Assistance to State and Local 
Government and Audit Requirements for State and Local Governments. For 
grants administered by the Department of the Interior, such as the 
Compact Impact grants, these regulations are set forth in 43 CFR Part 
12.
    2. I understand that the census which was used to calculate the 
distribution of funds in FY04 will be used for the next four years. As 
history has shown over the past 18 years, the population of FAS 
citizens changes drastically in the affected areas on an annual basis. 
I am concerned that the numbers from the last enumeration will no 
longer be valid. What will the Department do to address this matter? 
Would you consider conducting an enumeration more frequently than every 
five years--perhaps even annually?
    Answer. Our concern about conducting an annual enumeration is that 
it is costly to do so, and the funds we would use for this purpose are 
funds that would otherwise go to the government of the FAS for actual 
program needs.
    Question 91. As you know, Hawaii continues to struggle with the 
problem of invasive species. Our state is threatened by both aquatic 
and terrestrial invasive species, and the problem continues to grow. It 
appears from the ``Budget in Brief'' document that, except for the 
Brown Tree Snake, the species targeted for funding are not those 
causing significant problems in Hawaii. This is ironic, considering the 
U.S. Geological Survey has stated that ``Hawaii's problem with non-
native Species is the most severe of any state,'' and that ``invasive 
species are the state's dominant biological resource issue today.'' 
Last year, I noted a commendable increase of 13% in funding for 
invasive species-related programs. However, this year, the increase is 
only one percent, between FY04 and FY05.
    1. Given the Department's Invasives Initiative that recognizes 
invasive species as ``an enormous threat,'' I would expect to find a 
greater increase for the fight against invasive species in FY05. Can 
you help me understand the nearly level future funding, given the 
admitted magnitude of the invasive species problem nationwide?
    Answer. Given all of the issues facing the Department, and the 
large increase in invasives funding in 2004, coupled with a base of 
almost $58.0 million entering 2005, we kept our sight focused on the 
most vital of invasive funding needs such as brown tree snake control, 
rapid response needs in the refuges, and the out of control growth of 
tamarisk in the Southwest, which dries up river beds and streams and 
provides fuel for forest fires.
    In additton to invasive species-specific funding, the 2005 budget 
proposes significant funding for several grant and cooperative 
conservation programs that are available to States, Tribes, local 
entities, private cooperators, as well as Federal agencies, to address 
invasive species issues. For example, the Cooperative Conservation 
Initiative includes funding for challenge cost share grants that 
provide resources to Federal land managers to partner with a broad 
range of cooperators to conduct natural resource restoration projects.
    In FY 2003, several Cooperative Conservation Initiative projects 
for invasive species in Hawaii were funded, including an $893,056 
project to eradicate or control alien plant invasions threatening 
Haleakala National Park habitat. In this project, the four partners, 
the Maui County Office of Economic Development, the Hawaii Department 
of Land and Natural Resources, the Maui County Board of Water Supply, 
and the Hawaii Community Foundation provide $536,556 as match to the 
$356,500 Federal share of funding from the National Park Service.
    The goals of the Haleakala project include controlling Miconia on 
Maui by focusing on the sustained long-term, island-wide goal of ``Zero 
Fruiting Trees''; treating all known populations and surveying 
potential habitat of pampas grass; eliminating all persisting 
individuals of fountain grass on Maui, treating all known populations 
and surveying potential habitat of ivy gourd, giant reed Arundo, and 
rubber vine; and mapping and assessing additional plant species for 
inclusion in the priority control list with new species added based on 
the recommendations of subject matter experts and the inter-agency Maui 
Invasive Species Committee.
    2. With regard to my State, it is unclear what level of funding 
Hawaii can look forward to for the management and control of invasive 
species. Can you provide me with a state-by-state breakout?
    Answer. The Department is compiling the invasive species funding by 
state and territory for fiscal years 2004 and 2005. We will forward 
this information to the Committees as soon as it is complete.
    Question 92. As you may recall from my December 15, 2003 letter to 
you, I raised concerns about how the National Park Service intends to 
fulfill its non-homeland security missions in light of your 
Department's requirement for additional U.S. Park Police protection 
around federal monuments. I specifically requested information on the 
budgetary resources, the number of employees, and the management 
strategy the Department uses to carry out core Park Police functions. 
Although you responded on January 20, 2004, the letter did not provide 
me with the information I sought in December.
    If this information is not provided in the FY05 Budget Request, I 
would appreciate your response to these questions.
    Answer. In the post 9/11/01 law enforcement and security 
environment, homeland security has emerged as a top policy priority for 
the U.S. Park Police and the Department, Security for the Department's 
most important monuments and icons, both in Washington, DC and New York 
has been enhanced based upon independent and internal Departmental 
assessments and strategies. Although our January 20 letter provided 
overall staffing and funding levels for the U.S. Park Police, the 
Department is completing its analysis of the park police mission and 
goals and may implement a redeployment strategy based on that analysis 
from some non-homeland security operations to the post 9/11 homeland 
security needs.
    Question 93. The FY05 budget request includes $5.3 million to 
review 12,000 jobs for public-private competition in FY05. Although 
this type of outsourcing is relatively new at the Department of the 
Interior, I am sure you will agree with me that any process used to 
outsource federal jobs should promote transparency and cost-efficiency 
and be fair to government workers, who need the right tools to compete. 
This includes training employees to compete effectively.
    My question to you, is how much money will the Department have for 
training federal employees in public-private competitions?
    Answer. The 2005 budget includes S4.2 million for competitive 
sourcing studies. We are currently evaluating competitive sourcing 
study plans for 2005 which will likely be in the range of 1,500-2,000 
FTE. The Department's competitive sourcing efforts are being conducted 
in a manner that ensures that the decision making process is aligned 
with strategic workforce plans. That is, the bureaus are taking an 
approach to study selected areas in consideration of likely attrition, 
retirements and the balance of available and needed skills. As a part 
of this process, the bureaus are identifying needed training and 
development opportunities.
    Question 94. A Congressionally mandated 2001 National Academy of 
Public Administration study raised concerns over the budget, staffing, 
and the use of overtime in the U.S. Park Police. I understand that the 
Department of the Interior and the National Park Service have not 
responded to the recommendations issued in the completed report. Could 
you please clarify how the FY05 budget request provides the U.S. Park 
Police with their sources to address staffing and overtime concerns 
raised by the NAPA study?
    Answer. In light of the post 9/11 priorities, the Department has 
undertaken a mission review of the U.S. Park Police, as has the 
National Academy of Public Administration. The outcome, for the USPP 
may be redeployment of some services from their traditional operations 
to a strategy focused more on homeland security and protection of the 
Department's national monuments and icons. We expect that both reviews 
will be completed this Spring. In the meantime the Department has 
requested an additional $3 million in 2005, one million dollars for the 
inauguration and $2 million for icon protection, which will alleviate 
some of the impact on traditional operations.
    Question 95. Regarding specific impacts on the State of Hawaii, for 
the 2002-2003 school year, there were 2,381 students from the FAS 
enrolled in Hawaii's public schools, at a cost of more than $18 million 
dollars. In health care, expenses reported in 2003 by Governor Linda 
Lingle totaled almost $7.8 million dollars. Since 1986, the State of 
Hawaii has only received $6 million and is soon to receive another 
$980,000 dollars from remaining FY03 funding and $10.5 million in FY04 
funding, for a total of $17.5 million dollars. While an improvement, 
$30 million in annual funding for Compact Impact aid shared by the 
affected areas will still be inadequate to cover Hawaii's costs, 
specifically, $32 million reported by Governor Lingle in 2003, and $140 
million in costs up to that date. The affected areas are required to 
submit annual reports to the Department detailing the impact of the 
Compact.
    What consideration does the Department give to these reports in 
determining the division on Compact Impact aid, and, if the Department 
currently does not use the reports as a factor in its determination, 
would you consider developing a way to incorporate these reports into 
your calculation of the distributed funds?
    Answer. While the reports provide useful information for both the 
State and the Federal government, they are not considered in the 
allocation process. As required by Section 103 (e)(4 and 5) of the 
Compact of Free Association Amendments Act of 2003 (Public Law 108-
188), the Secretary must have periodic enumerations performed of the 
number of Micronesian immigrants in each affected insular area and the 
allocation must be based on the most recent enumeration.
    Question 96. The 2003 Amendments contain several new measures that 
need to be implemented, and this task will fall largely to the OIA 
staff newly-based in Hawaii. How will the Department ensure 
accountability with respect to the implementation of provisions in the 
new Compact, particularly with regard to the administration of grants?
    Answer. The amendments to the Compact substantially increase the 
emphasis on accountability and also increase the authority of the 
Department to enforce accountability provisions. Staff from our 
Honolulu office will spend much of their time performing site visits. 
Problems identified will be resolved quickly, but if they cannot be 
resolved through discussion and subsequent corrective action by the 
freely associated state governments, the Department now has the 
authority to take enforcement action and force corrections. These 
actions include withholding of grant payments until corrective action 
is completed, recovery of improperly used money through offsets to 
future payments, or institution of additional reporting or other 
requirements as conditions to receive future Compact financial 
assistance.
    Question 97. Once again, I thank the Department for its leadership 
on the Compact, particularly in comparison to other federal agencies 
that were not as aware of the needs of FAS citizens as your Department 
has been. However, the amended Compact requires the Department to work 
with other federal agencies, such as Education and Labor, to obtain 
funding in lieu of direct funding out of certain programs. How does the 
Department plan to coordinate with other agencies to obtain this 
funding?
    Answer. The amendments to the Compact require the Department, 
within 60 days of an appropriation, to enter into a Memorandum of 
Agreement with the Departments of Education, Labor, and Health and 
Human Services on transfer of funding to the Department and how these 
supplemental education funds will be used. Currently, the Department is 
talking to each of these agencies and coordinating with the Office of 
Management and Budget to ensure the funding authorized under the 
Compact Amendments Act is included in the President's budget. 
Communication and coordination is most important in this first year of 
the program to ensure baselines are included in the agency budgets and 
good management precedents are established.
    Question 98. The relationship between the United States and the 
Commonwealth of the Northern Mariana Islands is governed by the 
Covenant that was approved in 1976 under P.L. 94-241. Among other 
things, this law provides a $27.7 million annual entitlement, the 
allocation of which is periodically renegotiated.
    You can probably understand my surprise when I recently read in a 
Departmental press release that an agreement between the U.S. and the 
CNMI amending the Covenant was initialed on Monday, February 9.
    Can you help me understand why these negotiations were conducted, 
and an agreement initialed, without consultation with the authorizing 
committees of the Congress? The press release also notes that the 
agreement still needs approval from OMB and the appropriations 
committees.
    Would you please outline your plans for involving the Energy 
Committee in hearings and approval of any changes to the Covenant? I 
look forward to working with you on this issue.
    Answer. The Covenant to Establish a Commonwealth of the Northern 
Mariana Islands (CNMI) provides for multi-year periods of financial 
assistance and requires the President and the Governor to appoint 
special representatives to meet before the expiration of each financial 
assistance period and develop recommendations for future assistance. 
The agreement recently initialed by the Deputy Assistant Secretary of 
the Interior for Insular Affairs and the Lt. Governor of the CNMI, 
serving as appointed Special Representatives, does not amend the 
Covenant. The two Special Representatives reached an agreement on 
future financial assistance that can be implemented within existing 
law. To implement this agreement, which involves the discretionary 
allocation of funding within a mandatory total, will require at a 
minimum approval from OMB and the Appropriations Committees through the 
budget process. While no new authorization is required, the Department 
will be happy to brief the authorizing committees and obtain their 
input on the financial assistance agreement.
    Question 99. The identification of vectors or pathways for the 
introduction of invasives is of significant importance for Hawaii. The 
Invasive Species Pathways Team, under the guidance of the Invasive 
Species Advisory Committee (ISAC), released a report last October 
providing a model of Significance Criteria to identify pathways of non-
native species introduction. The Team recommmended that the ISAC adopt 
these criteria to determine the significance of various pathways of 
introduction.
    1. Has the Department investigated similar models to evaluate 
significant pathways of introduction, and how do they compare to the 
aforementioned model?
    2. Given the Department's close working relationship with the 
National Invasive Species Council, has the Council endorsed this 
particular model or recommended it?
    Answer. The Department has not investigated other models for 
evaluating significant pathways. The Invasive Species Pathways Team, 
during the course of developing its list of pathways and ranking 
criteria, could not establish that other appropriate models existed.
    The National Invasive Species Council (Council) has not yet 
endorsed the recommendations. At its October 30, 2003, meeting, the 
ISAC approved the list of pathways for transmittal to the Council, but 
has not yet approved for transmittal the ranking criteria or the draft 
questionnaire for determining the priority of invasive species 
pathways. Once approved and forwarded to the Council, the Department 
and other Council members will consider the recommendations carefully 
in light of existing legislative and regulatory requirements.
    Question 100. As the author of S. 1358, the Federal Employee 
Protection of Disclosures Act, and a long-standing supporter of civil 
servants and whistleblowers, I would like to ask you a question about 
the proposed termination of U.S. Park Police Chief Chambers.
    Section 618 of the Transportation, Treasury, Independent Agencies 
Appropriations Act, as included in H.R. 2673, prohibits the use of 
funds for the payment of the salary of any officer or employee of the 
Federal Government who prohibits or prevents employees from 
communicating directly with Congress, or punishes employees for such 
communications. In addition, Section 620 of the Act prohibits the use 
of funds to implement or enforce nondisclosure policies that are 
inconsistent with the Whistleblower Protection Act and the Lloyd-
LaFollette Act.
    1. With respect to the Police Chief Chambers, doesn't the 
Department's personnel action violate the aforementioned laws? If it 
does not, please explain why it does not violate these laws.
    Answer. No, the action does not violate the statutes you cite. 
Chief Chambers has not been prohibited from speaking to any member of 
Congress, or any committee or subcommittee. We understand that she has 
exercised her right to communicate with the Office of Special Counsel 
over matters she believes are protected under the Whistleblower 
Protection Act.
    2. What procedures does the Department have in place to promote the 
disclosure of such information and educate employees about their rights 
and remedies available under the Whistleblower Protection Act, as 
required under 5 USC 2302(c)?
    Answer. In December 2002, the Department of the Interior (DOI) 
Office of the Inspector General (OIG) established a position of 
Associate Inspector General for Whistleblower Protection. DOI is the 
first agency to establish such a position with the mandate of 
protecting whistleblowers from retaliation or reprisal through 
oversight, monitoring and early intervention as appropriate. The OIG 
maintains a web page at www.oig.doi.gov which contains information 
regarding the Whistleblower Protection Act (WPA), including employee 
rights and responsibilities related to disclosure of alleged wrongdoing 
and the process for filing a complaint. Information on the WPA and the 
OIG Office of Whistleblower Protection has been published in the DOI 
employee newspaper, People, Land and Water, to ensure employees are 
aware of their rights.
               Responses to Questions From Senator Wyden
    Question 101. It is hard to ask about this since I still don't have 
the budget justifications for the Bureau of Land Management. However, 
according to your Budget in Brief you have increased the Hazardous 
Fuels Reduction account by $25,386,000. Could you provide me with a 
detailed accounting of whether that is new money or, as with much of 
the Forest Service Budget, whether that money is redirected from other 
accounts? In fact, I would like this sort of detail for the entire 
Department of the Interior budget you are counting as part of the 
National Fire Plan and the Healthy Forests Restoration Act.
    Answer. We estimate that the FY 2005 President's Budget Request for 
the Department of the Interior includes over $300 million to advance 
the goals of the Healthy Forests Initiative and the new legislation, an 
increase of $32.6 million over the level estimated for FY 2004. In 
addition to the $209.3 million requested for the Hazardous Fuels 
Reduction program and $4.0 million of DOI Joint Fire Science funding, 
Interior's proposal counts approximately $95.3 million in funding 
budgeted in forest management, rangeland management, and supporting 
programs. These programs improve and restore forest and range health 
and reduce their vulnerability to devastating wildfires.
    The FY 2005 Department of the Interior Wildland Fire Management 
Budget is $743.1 million, an increase of $57.9 million over the 2004 
enacted level, excluding 2004 fire repayment appropriations. This 
increase includes the $25.4 million increase requested for the 
Hazardous Fuels Reductions program and included in the Healthy Forest 
Initiative.
    The President's overall request for the Department is $11 billion, 
a net increase of $250.2 million or 2.3 percent increase above the 2004 
enacted level. Since this net increase exceeds the combined increase 
for the Healthy Forest Initiative and the Wildland Fire Management 
Program, it could be assumed that new money funded these programs. 
However, the budget was not developed in a manner that would detail 
which specific increases in the budget were funded with new money and 
which were funded as a result of decreases in other programs.
    Question 102. I appreciate the attention this administration has 
paid to the literally life and death situation in the Klamath Basin. I 
am happy to have the details on the Klamath budget and am pleased to 
see a modest increase of $1,904,000 for the Basin project. I would like 
your commitment to work with the local folks and the delegation to 
resolve the Barnes Ranch issue: it appears from all I've been told that 
area could be important for water storage and it's time to make a 
little progress forward together in the Klamath Basin. Is the money in 
the President's budget for the Klamath Basin Barnes Ranch property--I 
understand there is $6.5 million--intended by the administration to be 
used for land acquisition, land leasing, water leasing or some other 
purpose?
    Answer. The Department is committed to the ``4 Cs'' in order to 
achieve conservation goals through communication, consultation, and 
cooperation with local stakeholders. This important matter certainly 
warrants such an approach. The intended purpose of the $4.578 million 
in the Service's budget is for acquisition of the Barnes property. The 
Barnes property was formerly part of upper Klamath Lake and was 
converted from lake and emergent wetland habitat to agricultural lands 
in the 1960s. It has been identified as a key parcel important in 
providing additional water storage capacity in the upper Klamath Basin. 
The Barnes property is also important as habitat for endangered fish 
and waterbirds, and will improve water quality for the lake and 
downstream anadromous fish.
    In addition to funds for the Barnes property, the Department has 
identified $6.2 million for the Service's Partners Program in the upper 
Klamath Basin. These funds would support voluntary and cooperative 
restoration efforts. Total funding for Klamath activities in the 
Department's budget totals $67.2 million.
    Question 103. Recently a tragic event occurred at the Chemawa 
Indian School in Oregon: the death in a holding cell of Cindy Gilbert 
Sohappy. I would like any and all documents and correspondence in your 
possession regarding the safety and use of the holding cells at the 
Chemawa Indian School in Oregon.
    Answer. This serious matter is currently under investigation by the 
Department's Inspector General. We will be certain to provide you with 
the results of his investigation.

              Responses to Questions From Senator Johnson

    Question 104. As I stated in my opening remarks, the United States 
needs true leadership to ensure the continuation of the Landsat 
program. Is the Department of the Interior ready to step up to be that 
leader or, if you will, the ``executive agency'' on behalf of the 
federal civil community?
    Answer. Yes
    Question 105. President's budget for the U.S Geological Survey's 
Mapping, Remote Sensing, and Geographic Investigations, which funds 
portions of the EROS Data Center in Sioux Falls, South Dakota was 
reduced by $10,818,000 over the FY04 enacted level. Can you explain the 
cuts and how those cuts represent the Department's commitment to the 
land remote sensing mission?
    Answer. The Mapping reduction does not affect the Department's 
commitment to the Land Remote Sensing mission. Included in this $10.8 
reduction, is an $8.6 million technical adjustment to centralize the 
USGS-wide enterprise information functions into a single organization 
to promote better and more efficient IT practices and security, which 
will lead to cost savings. This is not a program reduction to any of 
the USGS science disciplines, including Geography, as, currently, each 
science discipline performs and funds these functions independently. 
The total reduction to the Land Remote Sensing subactivity, which funds 
the EROS data center, is $546,000, which includes the technical 
adjustment reduction of $567,000; an increase of $80,000 for 
uncontrollable costs, and a $59,000 reduction in streamlining 
efficiencies.

             Responses to Questions From Senator Feinstein

    Question 106. Madam Secretary, your budget for Fiscal Year 2005 
proposes to impose an $8 million annual ``rental'' payment on the City 
of San Francisco for the Hetch Hetchy Reservoir in Yosemite National 
Park. What is the rationale for this ``rental'' fee?
    If it is compensation for dam site, note that the Federal Power Act 
specifically exempts municipalities from any fees for the rights to put 
hydropower facilities on navigable waters. Does this represent a change 
in national policy?
    If it is ``rental,'' what is the per acre charge? The reservoir and 
associated facilities encompass 6,871 acres. That fee equates to $1,164 
per acre. The HIGHEST rental fee charged to PRIVATE Federal Power Act 
license holders in California is $35 per acre. Also, does the 
Department propose to charge ``rental'' fees to other similarly 
situated entities? Who?
    If it is compensation for added security costs, were you aware that 
the San Francisco Public Utility Commission, which manages Hetch 
Hetchy, was in the final stages of discussions with the Park to FULLY 
reimburse it for all of its additional security costs, which were $1.9 
million last year and are expected to rise to $2.8 million this year? 
All the PUC was waiting on was a budget justification from the Park 
setting forth what those costs were.
    Answer. The fee set by the Raker Act to compensate for use of lands 
within Yosemite National Park was last adjusted 70 years ago. As the 
question points out, the San Francisco Public Utility Commission also 
separately compensates the Park for maintenance of roads and trails, 
watershed protection, and dam security costs. This compensation is set 
through annual negotiations and is expected to be $2.8 million in 2004. 
The budget proposes a single annual fee incorporating both a revised 
Raker Act fee based on current values and a fee for services. The 
Department is willing to work with the City of San Francisco, the 
Commission and the Congress on an appropriate fee level and a 
legislated method for periodic adjustments of the fee.
    Question 107. Madam Secretary, I sent you a letter on December 19, 
2003, asking you to provide necessary increases to the budget of the 
Don Edwards National Wildlife Refuge to reflect the increased acreage 
in the Refuge.
    In 2002, I worked to bring together a group of State and private 
parties to acquire the former Cargill Salt Flat Ponds in the Southern 
San Francisco Bay.
    It is my understanding that in order to restore and manage the 
approximately 9,600 newly acquired acres for the Don Edwards National 
Wildlife Refuge, the Fish and Wildlife Service will require an increase 
of $1.8 million in its operations and maintenance funding. Yet, I 
understand there is no increase proposed for the Refuge's budget in FY 
2005. Is this correct, and if so how will you manage the increased 
wetlands acreage, which is so important for restoring San Francisco 
Bay?
    Answer. The FY 2004 President's Budget included $500,000 for 
Cargill operations, which will allow FWS to hire a refuge operations 
specialist and a maintenance worker to manage and monitor water levels 
and obtain permits. The Service will also use the funds to pay 
electrical water pumping costs. This amount was reduced to $493,839 
after rescissions. This level of funding is maintained in the 2005 
request. Although the Service did identify other funding requirements 
for Cargill operations, the budget did not include additional funding.
    For other units within the Don Edwards San Francisco Bay NWR, the 
Service received $433,590 in maintenance funding in FY 2004 and is 
requesting $296,000 in FY 2005, all within the FWS five-year deferred 
maintenance plan. This funding will be used to rehabilitate of replace 
boardwalks, decks, fences, and buildings for visitor safety as well as 
replace a nonfunctional radio system with a mandated digital narrowband 
system.
    Question 108. The FY 2005 budget for the CALFED program includes 
only $2 million for feasibility studies for four new water storage 
projects: Sites Reservoir, raising Shasta Dam, Upper San Joaquin 
storage, and expanding Los Vaqueros Reservoir. The amount needed to 
keep these studies going forward and moving new water supply closer to 
reality is $12 million. Why didn't your budget provide this needed 
funding? Will you commit to help us try to fund these needed studies?
    Answer. We believe that the funding level requested is adequate for 
FY 2005, and will keep these actions in balance within the CALFED 
program.
    Question 109. It is very important for us to receive as soon as 
possible a cross-cut budget showing funding for CALFED-related 
activities across the federal government. This budget is the truest 
measure of CALFED-related funding. Can you tell me when such a cross-
cut budget will be available?
    Answer. The Administration is currently updating the CALFED budget 
crosscut we prepared last year, and will share it with the Congress 
when it is complete, sometime this spring.
    Question 110. I understand that the President's budget would 
increase the funding for the Klamath Basin to $105 million from $90 
million, an increase which is greatly needed. About half of the 
irrigated area in the Klamath Project is within California. Can you 
tell me what . . .
    Answer. The total increase in funding for the Klamath Basin is $15 
million. California would receive about 38% of the total increased 
funding for the Klamath Basin in 2005 which is about $5.8 million. Of 
the aggregate $15 million increase, there are two large projects in 
Oregon: $2.1 million to remove Chiloquin Dam and reopen 70 miles of 
endangered sucker and other fish habitat for spawning; and $4.6 million 
to acquire land adjacent to Agency Lake Ranch for increased water 
storage and restoration to increase fisheries habitat. The Federal 
Working Group is committed to a broad watershed approach, however, and 
additional funds may likely be requested for California in future 
years, as appropriate.
    Of the $5.8 million increase for California, $2.0 million in NOAA's 
budget will bolster coho salmon recovery, habitat restoration and 
science in the lower basin tributaries. About $1.5 million increase in 
California for the Partners for Fish and Wildlife program will support 
an ongoing cooperative watershed restoration effort to restore high 
priority habitats while working with stakeholders to resolve natural 
resource issues. The Partners effort will focus more in the upper 
watershed in Oregon. By restoring the upper watershed, however, we will 
improve water quality and could potentially increase water quantity in 
the entire watershed, including California. The endangered winter-run 
chinook, a California species, will greatly benefit with enhanced 
habitat and increased natural flows upstream. In addition, the BOR 
budget includes approximately $2 million increase for Trinity River 
restoration, lease land management and operations, water bank, and 
general costs necessary to operate the Klamath Project.
    The economic impacts of the Project in California are significant. 
According to a recently published report by the University of 
California and Oregon State University, the market value of 
agricultural products sold in Modoc county were $63,797 million and 
Siskiyou county were $74,244 million. California private landowners 
will receive additional on-farm assistance for conservation systems 
planning and implementation, irrigation water management, upland 
watershed management, and wetland, wildlife, and conservation buffer 
enhancement.

              Responses to Questions From Senator Cantwell

    Question 111. Secretary Norton, as you know, Senator Bingaman, the 
ranking member of the Senate Energy and Natural Resources Committee, 
sent you a letter on September 15, 2003 requesting information 
regarding the National Football League's week-long festival on the 
National Mall that featured several large commercial advertisements. On 
December 17, 2003, the Interior Department responded to this request as 
a standard Freedom of Information Act (FOIA) query with a letter signed 
by David Bernhardt, director of Interior's Office of Congressional and 
Legislative Affairs. I understand that the U.S. Court of Appeals for 
the Washington, D.C., circuit has ruled that FOIA does not apply to all 
members of Congress. However, I further understand that a May 1998 
memorandum from Sue Ellen Sloca, office of the Secretary FOIA officer, 
states that ``unless a request is from a member of Congress who is 
acting in his/her official capacity as chairman of a committee or 
subcommittee, asking for documents within the jurisdiction of the 
committee or subcommittee, we will process it as a regular FOIA 
request.'' Does this memo still reflect current DOI policy, and if so 
do you think it is consistent with the U.S. Court of Appeals? If the 
1998 memo does not reflect current DOI policy, please state for the 
record the current DOI policy regarding inquiries from United States 
Senators.
    Answer. It has been the long-standing policy of the Department, 
including during the entire Clinton Administration, to treat document 
requests from all Members of Congress, other than committee or 
subcommittee Chairs, as FOIA requests. The following is included in a 
January 1, 1998 memorandum on Congressional committee and subcommittee 
requests for documents signed by Anne Shields, Chief of Staff to 
Secretary Bruce Babbitt:

          ``Please note that you should continue to treat oral or 
        written requests for documents from individual members of 
        Congress or their staff comparably to requests for information 
        pursuant to the Freedom of Information Act (FOIA).''

    Consistent with current Department of Justice guidance, a long line 
of well-settled cases have held that requests from individual members 
do not trigger the requirement in 5 U.S.C. 552(d). That is the section 
of FOIA that states that ``Congress'' may not be denied access to 
information.
    Although one case interpreted the language of section 522(d) 
differently, the Department of Justice advised agencies in its winter 
1984 FOIA Update that the case was not to be followed insofar as it can 
be interpreted as including individual members of Congress who request 
information, even if the request is made in the member's official 
capacity. At that time, the Department of Justice further indicated 
that a request by a committee or subcommittee chairman or a request 
otherwise made under the authority of a committee or subcommittee does 
trigger the special access provision.
    As recently as 2002, the Department of Justice advised that members 
of Congress possess the same rights of access as any person under FOIA, 
although requests from Congress as a body, or through its committees 
and subcommittees, cannot be denied access on the basis of FOIA 
exemptions.
    The treatment of Senator Bingaman's letter as a FOIA request was 
consistent with statutory and case law, in accordance with the current 
guidance provided by the Department of Justice, and incorporated in the 
Department's FOIA handbook since at least 1991. In addition, it should 
be noted that NPS Director Mainella responded on September 17, 2003, to 
the specific concerns raised by Senator Bingaman's September 15, 2003 
letter. Director Mainella's letter was intended to ensure that Senator 
Bingaman was fully informed and updated on the NPS's work since the 
conclusion of the National Football League event, including the steps 
taken to ensure that resource protection and restoration was completed. 
Moreover, the Department subsequently provided Senator Bingaman over 
425 pages of material responding to his request and made available 
several hundred additional pages of technical and re-engineering 
documents for his inspection upon request.
    In light of the concerns raised by Senator Bingaman, we are 
consulting with the Department of Justice on this matter to determine 
if the Department of Justice has provided additional guidance beyond 
that on which the Department currently relies.
    Question 112. Secretary Norton, to address recurring drought 
conditions, accommodate agricultural expansions, promote water and fish 
and wildlife conservation, and provide water for over half a million 
new residents in the Yakima River basin, Congress passed legislation in 
1994 authorizing the Yakima River Basin Water Enhancement Program. 
Unfortunately, despite these efforts, water supply problems in the 
Yakima River Basin remain especially acute in drought years. A dry 
winter in 2000-2001 and a lack of storage capacity led to catastrophic 
losses in the summer of 2001. That year, holders of junior water rights 
received as little as 40 percent of their allocations and farmers lost 
an estimated $250 million in crops, which had a $750 million negative 
impact on the regional economy. The drought also put a severe strain on 
the hydropower system and contributed to the western energy crisis. For 
these reasons, the Yakima Basin Water Enhancement Project is a high 
priority for Central Washington. That is why I was very disappointed to 
see that funding for the Yakima Basin Water Enhancement Project was 
reduced, even though the project is only seven percent complete. Please 
explain why the Department of the Interior chose to cut this critical 
program.
    Answer. The Department of the Interior and Bureau of Reclamation 
remain committed to implementing the Yakima River Basin Water 
Enhancement Project. Reclamation has made significant progress to that 
end. Enhancement Project work to date has focused primarily upon 
acquiring water and mitigation habitat. Planning work has moved forward 
on a parallel track that will result in future funding requests to 
implement water conservation projects and projects on the Yakima Indian 
Reservation. Both of these are critical pieces of the Enhancement 
Project. Settlements under the Yakima River basin adjudication have 
cleared the way for implementation of the first major water 
conservation projects. Reclamation, the State of Washington, and the 
Sunnyside Valley Irrigation District just signed a funding agreement 
for implementation of a 9-year, $32 million conservation project that 
will include a new canal check, canal automation facilities, and three 
re-regulating reservoirs. Water savings will benefit irrigation and 
fish and wildlife. Reclamation formulated its fiscal year 2005 request 
to reflect anticipated fiscal year 2005 capability. The reduction in 
request from previous fiscal years reflects a transition from an 
aggressive water acquisition and habitat mitigation program to 
implementation of the water conservation program. Reclamation expects 
to make future requests to reflect completion of the on-reservation 
plans, plans for the Kennewick pump exchange, development of tributary 
plans, and additional water and habitat acquisitions. Appropriation 
requests will continue to track progress in each of these major 
components of the Enhancement Project.
    Question 113. Secretary Norton, thank you for including $80,000 in 
your fiscal year 2004 budget request for seismic safety rehabilitation 
of buildings at the Entiat NFH. I am pleased that this vital work was 
funded in the Interior Appropriations bill. However, I understand that 
this is a multi-year project whose completion is dependent on 
additional appropriations. Therefore, I would appreciate an explanation 
as to why funds were not included for this project in the Fish and 
Wildlife Service request for fiscal year 2005.
    Answer. The Service typically requests funds for seismic 
remediation projects in phases first, planning and design, and second, 
construction. The Service does not request construction funds until 
planning and design is complete and an accurate construction cost is 
established. In the case of Entiat NFH, funds for planning and design 
were received in FY 2004 and work is still underway. Once a 
construction figure is available, construction funds for this project 
will be placed in the Service's 5-Year Construction Plan.
    Question 114. Secretary Norton, thank you for including $120,000 in 
your fiscal year 2004 budget request for seismic safety rehabilitation 
of buildings at the Makah NFH. I am pleased that this vital work was 
funded in the Interior Appropriations bill. However, I understand that 
this is a multi-year project whose completion is dependent on 
additional appropriations. Therefore, I would appreciate an explanation 
as to why funds were not included for this project in the Fish and 
Wildlife Service request for fiscal year 2005.
    Answer. The Service typically requests funds for seismic 
remediation projects in phases--first, planning and design, and second, 
construction. The Service does not request construction funds until 
planning and designs is complete and an accurate construction cost is 
established. In the case of Makah NFH, funds for planning and design 
were received in FY 2004 and work is still underway. Once a 
construction figure is available, construction funds for this project 
will be placed in the Service's 5-Year Construction Plan.
    Question 115. Secretary Norton, thank you for including $130,000 in 
your fiscal year 2004 budget request for seismic safety rehabilitation 
of buildings at the Winthrop NFH. I am pleased that this vital work was 
funded in the Interior Appropriations bill. However, I understand that 
this is a multi-year project whose completion is dependent on 
additional appropriations. Therefore, I would appreciate an explanation 
as to why funds were not included for this project in the Fish and 
Wildlife Service request for fiscal year 2005.
    Answer. The Service typically requests funds for seismic 
remediation projects in phases--first, planning and design, and second, 
construction. The Service does not request construction funds until 
planning and design is complete and an accurate construction cost is 
established. In the case of Winthrop NFH, funds for planning and design 
were received in FY 2004 and work is still underway. Once a 
construction figure is available, construction funds for this project 
will be placed in the Service's 5-Year Construction Plan. It is likely 
that construction funds for this project will be requested sometime 
between FY 2006 and 2010 depending on available funding and the 
priorities of other significant health and safety projects.
    Question 116. Secretary Norton, the Elwha River Ecosystem and 
Fisheries Restoration Act (the Elwha Act) of 1992 authorizes the 
Secretary of the Interior to acquire the Elwha and Glines Canyon dams 
in Northwestern Washington and fully restore the river's ecosystem and 
native anadromous fisheries. As you probably know, the National Park 
Service is in the process of removing the Elwha dams and I was pleased 
that funding was included in the Interior Department's fiscal year 2004 
budget request and ultimately the Interior Appropriations bill for 
removal of the Glines canyon dam. DOI's fiscal year 2005 request 
includes a new line item for the restoration of the Elwha River 
Ecosystem with funding of $26.95 million. Please detail how the 
Department would, if appropriated, use these requested funds towards 
this effort. When will the dams be completely removed and the local 
ecosystem fully restored?
    Answer. The $26.95 million would provide $21 million for dam 
removal, $2 million for ecosystem restoration efforts (i.e., 
revegetation activities, tribal hatchery modifications, etc.). and 
$3.95 million for miscellaneous activities (i.e., project management, 
cultural resources mitigation, flood mitigation). Although the dams 
will be fully removed by the end of 2009, full ecosystem and native 
anadromous fisheries restoration will take about 30 years. Only about 
the first 10 years of that would be active management while the 
remaining 20 years would be monitoring and harvest management by the 
State, Tribes. and NPS.
    Question 117. Secretary Norton, I was pleased to see the Interior 
Department's fiscal year 2005 budget request asks for $1,940,000 for 
removal of salmon obstructions and construction of bridges in the 
Olympic National Park. Please detail how these funds will be used to 
restore salmon habitat.
    Answer. This project involves the construction of a dual lane 
bridge at West Twin Creek on the Hoh Road and a fish-passable culvert 
at East Twin Creek. The culverts located at the West Twin Creek and 
East Twin Creek crossings were designed and installed in the early 
1960's when little was known about designing culvert installations to 
allow for fish passage. Similarly, little was understood about the need 
to design culvert installations to allow for passage of streambed 
material to prevent accumulation of streamed material upstream of the 
culverts and erosion of streambed material downstream from the 
culverts. Erosion below the culvert outfall at both of these crossings 
has created a drop to the plunge pool in excess of 6 feet, which 
prevents access to adult salmon returning to spawn and juvenile salmon 
seeking refuge during high flows on the Hoh River. Removal of the two 
obstructions and replacement with fish-passable stream crossing 
structures will allow salmon, trout, and char populations to freely 
migrate under the road, re-establishing access to approximately two 
miles of high quality fish habitat upstream from these crossings.
    Question 118. Secretary Norton, on January 30, 2004, I sent a 
letter thanking you for the Interior Department's participation in 
helping our nation celebrate the bicentennial of Lewis and Clark's 
historic Corps of Discovery. Specifically, I was pleased to note that 
the recently released Lower Columbia River Draft Boundary Study 
concluded that all three sites that Congress directed the National Park 
Service to examine in Public Law 101-628 met the inclusion criteria of 
national significance, suitability, and feasibility, and that the study 
chose Alternative D as the environmentally preferred alternative. 
Alternative D is a comprehensive and collaborative approach that 
bundles all of the Lewis and Clark sites in the region into the ``Lewis 
& Clark National and State Historical Park.'' I understand that both 
the study and draft authorizing language are currently under review by 
your office. Will the Department of the Interior complete its review in 
time for Congress to move forward with the necessary authorizing 
language so that we can complete this effort in time for the west coast 
celebrations in 2005?
    Answer. Yes. On February 23, 2004, the Department transmitted to 
Congress an administration legislative proposal entitled a bill ``to 
redesignate Fort Clatsop National Memorial as the Lewis and Clark 
National Historical Park, to include sites in the State of Washington 
as well as the State of Oregon, and for other purposes'' along with a 
copy of the recently completed Lower Columbia River Lewis and Clark 
Sites Boundary Study. The administration legislative proposal would 
implement the proposed partnership effort identified in Alternative D 
of the boundary study. With Lewis and Clark Expedition 200th 
Anniversary commemoration events scheduled in Washington and Oregon 
beginning in the summer of 2005, we agree the with time frame you 
suggest and are urging Congress to introduce, refer to the appropriate 
committee and enact the administration legislative proposal as quickly 
as possible.
    Question 119. Secretary Norton, following National Park Service 
Director Mainella's July 24, 2003 testimony before the Energy and 
Natural Resources Committee, I submitted the following question for the 
record. I am very displeased the Department of the Interior has yet to 
reply to my inquiry. I hope you will personally see to it that this 
time my question is answered in a timely and comprehensive manner.
    Answer. Senator Cantwell, the National Park Service provided the 
subcommittee with a copy for the minority, with answers to your 
questions for the record under a cover letter dated December 24, 2003. 
Nevertheless, I am happy to include with this response a copy of the 
answer to your previous question.
    Question 120. Director Mainella, in your July 23, 2003 testimony 
before the Energy and Natural Resources Committee, you stated that, 
contrary to press reports, Mount Rainier is not currently on the Park 
Service competitive sourcing plan for fiscal years 2003 and 2004. What 
factors led the Park Service to exempt Mount Rainier from consideration 
over the next two years? Was Mount Rainier ever under consideration for 
competitive sourcing and is it likely to be after FY 2004?
    Answer. The National Park Service (NPS) requested a draft 
competitive sourcing plan from each of its seven regional offices. Each 
region was then asked to prioritize which reviews represented the most 
practical areas of review based on factors such as proximity to major 
metropolitan areas, size of study and potential impacts on NPS 
diversity. The Pacific West regional office identified Mount Rainier as 
the least appropriate area on their list based on location and size of 
study. They were subsequently given the alternative to delete one of 
the reviews from the plan and chose to delete Mount Rainier.
    There has been no request to date by the Department for 
identification of future reviews of Mount Rainier.
    Question 121. Secretary Norton, following National Park Service 
Director Mainella's July 24, 2003 testimony before the Energy and 
Natural Resources Committee, I submitted the following question for the 
record. I am very displeased the Department of the Interior has yet to 
reply to my inquiry. I hope you will personally see to it that this 
time my question is answered in a timely and comprehensive manner.
    Answer. Senator Cantwell, the National Park Service provided the 
subcommittee with a copy for the minority, with answers to your 
questions for the record under a cover letter dated December 24, 2003. 
Nevertheless, we are happy to include with this response a copy of the 
answer to your previous question.
    Question 122. Director Mainella, will any other National Parks in 
Washington State be part of the Park Service's competitive sourcing 
plan? If they are, how many federal jobs do you anticipate would be 
affected?
    Answer. While I cannot predict what areas might be included in 
future plans, there are no additional National Park units in Washington 
State identified in our current competitive sourcing plan.
    Question 123. Secretary Norton, following National Park Service 
Director Mainella's July 24, 2003 testimony before the Energy and 
Natural Resources Committee, I submitted the following question for the 
record. I am very displeased the Department of the Interior has yet to 
reply to my inquiry. I hope you will personally see to it that this 
time my question is answered in a timely and comprehensive manner.
    Answer. Senator Cantwell, the National Park Service provided the 
Subcommittee, with a copy for the minority, with answers to your 
questions for the record under a cover letter dated December 24, 2003. 
Nevertheless, we are happy to include with this response a copy of the 
answer to your previous question.
    Question 124. Director Mainella, you stated that no maintenance 
backlog funds have been or will be used on competitive sourcing at any 
location. Where does funding for competitive sourcing studies come 
from?
    Answer. For FY 2003, we used funds originally appropriated for 
natural resources contract work. The projects will be re-advertised 
early in FY 2004 to minimize the delay of their start.
    Question 125. Secretary Norton, following National Park Service 
Director Mainella's July 24, 2003 testimony before the Energy and 
Natural Resources Committee, I submitted the following question for the 
record. I am very displeased the Department of the Interior has yet to 
reply to my inquiry. I hope you will personally see to it that this 
time my question is answered in a timely and comprehensive manner.
    Answer. Senator Cantwell, the National Park Service provided the 
subcommittee with a copy for the minority, with answers to your 
questions for the record under a cover letter dated December 24, 2003. 
Nevertheless, we are happy to include with this response a copy of the 
answer to your previous question.
    Question 126. Can you provide any concrete examples where 
competitive sourcing in national parks has saved taxpayer dollars? Have 
competitive sourcing efforts in the past ever ended up costing 
taxpayers more, or resulted in national parks not meeting their 
performance goals?
    Answer. Yes, there are examples where competitive reviews have 
saved taxpayer dollars. For example, NPS employees won the competition 
after study of archeological services at the Southeast Archeological 
Center. The NPS used the competitive sourcing initiative to formulate 
their most efficient organization (MEO) in accordance with OMB Circular 
A-76. The winning MEO reduced FTEs by about 17 and will reduce the cost 
of operation by $850,000 per year. The five-year contract will result 
in a savings of $4.2 million. The total cost of the study, including 
in-house staff and consultant time, was $232,000.
    Over the past two years, and prior to the implementation of revised 
Circular A-76, the NPS accomplished 859 direct conversions for a 
savings of approximately $163,000. The total cost of accomplishing the 
direct conversions consisted of $4,000 in in-house NPS staff time. No 
consultant costs were incurred for the direct conversions.
    Because only one has been completed, the total costs and savings 
associated with the NPS pilot studies have not been determined. We will 
provide those numbers as they are completed. To my knowledge, the 
competitive sourcing effort has neither cost the taxpayers more nor 
caused NPS to fail to meet its performance goals.
    Question 127. Secretary Norton, the President's fiscal year 2005 
budget request for the four main Fish and Wildlife Service Endangered 
Species Act (ESA) accounts was cut by $7.5 million from the fiscal year 
2004 enacted level. Please detail how these reductions, if agreed to by 
Congress, would reduce ongoing activities mandated under the ESA. Do 
these cuts signal any shift in the priorities of the Department of the 
Interior in meeting its obligations under the ESA?
    Answer. The overall reduction in the endangered species program is 
largely due to the elimination of pass-through funding included in the 
2004 Appropriations Act. The reductions in these earmarks have been 
offset with substantial increases in related grant programs that 
support recovery of threatened and endangered species. For example, the 
Landowner Incentive Program was increased by $20 million, to $50 
million, and the Cooperative Endangered Species Conservation Fund 
increased by $8 million, to $90 million. Taken as a whole, the 
President's budget reflects a continued commitment to the protection 
and conservation of endangered species through the use of partnerships 
and collaboration.
    Question 128. Secretary Norton, the President's fiscal year 2005 
budget request proposes new authority that would allow the Bureau of 
Land Management to significantly expand its authority to sell off 
public lands under its jurisdiction in order to fund infrastructure 
maintenance. Please detail how this new authority, if agreed to by 
Congress, would be used, the size and scope of privatization of public 
lands, and the level of revenues the Department hopes to generate from 
these sales.
    Answer. The budget proposes certain technical amendments to the 
Federal Land Transaction Facilitation Act (FLTFA), which was enacted by 
the Congress in 2000. The amendments will address two difficulties that 
the Bureau of Land Management has found in implementing the current 
law. Under the Act, BLM is limited to selling lands that had been 
identified for disposal in land use plans that were in effect prior to 
enactment of FLTFA. However, BLM is involved in a multi-year project to 
bring all of its land use plans up-to-date, replacing plans that were 
in effect when FLTFA was enacted. Additionally, the Act currently 
limits use of receipts to purchase of other lands. It does not make 
funds available for land restoration projects.
    FLTFA is a valuable tool to allow the Bureau of Land Management to 
dispose of tracts that are not needed for resource, recreation or 
management purposes. These tracts will most often be isolated tracts 
located in or adjacent to growing urban areas that are difficult for 
BLM to manage and that, if sold, can provide economic benefits to 
growing communities. All such tracts must be identified through the 
land use planning process, in accordance with the rigorous criteria for 
land sales set forth in section 203 of the Federal Land Policy and 
Management Act of 1976 (FLPMA). BLM estimates that marketable tracts 
suitable for disposal may total 450,000 acres or two-tenths of one 
percent of the land administered by the Bureau.
    The 2005 budget assumes FLTFA receipts of $34 million based on 
enactment of amendments to the Act. Annual receipts through 2009 are 
assumed to be $43 million in 2006, $48 million in 2007. and $58 million 
in 2008 and 2009.
    Question 129. Secretary Norton, on December 11, 2003 the United 
State Geological Survey (USGS) signed a Memorandum of Understanding to 
undertake an important study of the Spokane Valley/Rathdrum Prairie 
aquifer. This study of the bi-state aquifer will give both Washington 
and Idaho the information they need to better serve the water needs of 
the more than 400,000 people in the Spokane-Coeur d'Alene area. Please 
provide an update on the general approach USGS will take on this study 
and progress to date on selecting the management, technical, and policy 
committees for this study.
    Answer. The first year of this interstate study was funded by an 
earmark of $500,000 in the 2004 Interior appropriations. The study will 
be conducted by the United States Geological Survey (USGS), in close 
cooperation with the water agencies in both Idaho and Washington. A 
Memorandum of Understanding among the USGS, the Idaho Department of 
Water Resources, and the Washington Department of Ecology has been 
signed and the work plan for the first year is in review. This year's 
work will comprise compilation, collection, and preliminary 
interpretation of data needed to develop a model of the aquifer. The 
overall approach is to use existing data, information, and models 
wherever possible, collect new hydrologic and geologic data as needed, 
and develop a water-management model. The model will be publicly 
available and suitable for use by both States for water management.
    The Management Committee (MAC), comprising two members from each of 
the agencies, has been established and met. They have directed 
scientific staff from their agencies, which make up the Project 
Technical Leadership Team (PTLT), to recommend membership in the 
Technical Advisory Committee (TAC). The two State agencies will select 
the membership of the Policy Advisory Committee, probably from the 
existing Stakeholders group, by the next MAC meeting.
    The PTLT, with the TAC, will evaluate existing ground-water models 
for applicability to the study area and objectives. The USGS has begun 
data compilation, analysis of existing data, and development of a scope 
of work for contracting water-use data collection. USGS will begin 
additional data collection this spring with field assistance from the 
States. Modeling will commence after the PTLT has determined whether to 
start with an existing model or construct a new model.
    Question 130. Secretary Norton, legislation in the 2003 Energy Bill 
would have allowed an inventory of oil and gas resources on the Outer 
Continental Shelf (OCS). I understand the Minerals Management Service 
has performed an analysis of the potential supplies of oil and gas off 
the coast of Washington State. Please detail the results of this 
assessment.
    Answer. The results of the last official resource assessment 
conducted in 2000 for the Washington/Oregon Planning Area is as 
follows:

          Oil: Undiscovered Technically Recoverable = 0.36 Billion 
        Barrels
          Gas: Undiscovered Technically Recoverable = 2.30 Tcf

    Question 131. Secretary Norton, I often hear from my constituents 
in Washington State that the Endangered Species Act permit process 
takes too long because there are not enough Fish and Wildlife Service 
personnel available to process applications in a timely manner. I am 
concerned that many projects are delayed or never completed due to this 
lack of resources. Please explain how your fiscal year 2005 budget 
request ensures that these personnel shortages are addressed in the 
Northwest region.
    Answer. The Service faces increasing demands for technical 
assistance and section 10 permit processing throughout the nation. It 
allocates resources to the regions based on an estimate of the relative 
workload in each region. This estimate is largely based on the number 
of listed and other at-risk species found in the region. The Pacific 
Region, which has considerably more listed species than any other 
region, receives a larger allocation than any other region. The region 
uses a similar system to allocate resources to the various field 
offices in the region, so each field office is able to respond 
proportionately to its workload.
    In the face of this increasing workload, we are currently reviewing 
ways to streamline the permit processing review and approval process. 
For example, relatively little actual, on-the-ground conservation 
benefit accrues through the review and approval of many scientific and 
recovery permits. Rather than devoting additional resources to more of 
the same kind of permit reviews, we intend to simplify the process to 
review and approve more permits more efficiently. This will allow the 
Service to devote more of its limited resources to activities that have 
greater actual benefits for listed species.
    Question 132. Secretary Norton, habitat restoration efforts in 
Washington State have declined in recent years due to lack of Fish and 
Wildlife Service participation and a shortage of non-federal matching 
funds. I am concerned because the private partners involved in these 
important projects are beginning to feel abandoned, despite previous 
federal funding commitments, since Fish and Wildlife Service is no 
longer involved in projects. Please explain what steps you plan to take 
to increase Fish and Wildlife Service participation in habitat 
restoration efforts with respect to funding and participation levels.
    Answer. While funding for some Service programs operating in 
Washington State has declined over the past few years, the funding for 
other voluntary habitat restoration programs has increased. In 
particular, the Fish and Wildlife Service's FY 2005 budget includes 
$370.5 million for cooperative conservation programs, including $86.5 
million for the Cooperative Conservation Initiative and $284 million 
for conservation grants. The Cooperative Conservation Initiative is a 
vital part of the Department's cooperative conservation vision, and 
awards grants for land restoration and conservation projects that 
leverage Federal dollars through partnerships. Private landowners have 
access (directly or through their State agencies) to several grant 
programs including the Landowner Incentive Program and Private 
Stewardship Grants Program for endangered species, Challenge Cost-
Share, State and Tribal Wildlife Grants, Cooperative Endangered Species 
Conservation Fund, and National Coastal Wetlands Grants. Funding for 
the Partners for Fish and Wildlife Program and the Coastal Program is 
proposed for increases in FY05. The Service is addressing priority 
needs of Pacific salmon and invasive species through inter-agency 
initiatives. Both of these programs can and are being used to address 
high priority habitat restoration projects. The Service is committed to 
working in partnership with state and local organizations to design and 
implement landscape level solutions to fish and wildlife resource 
issues, that obviously cannot be addressed by the Service, the States, 
or our conservation partners single-handedly.
    Question 133. Secretary Norton, I understand that a number of 
Habitat Conservation Plan (HCP) applications in Washington state have 
been delayed due lack of available Fish and Wildlife Service personnel. 
This has resulted in increased costs for applicants who are forced to 
hire outside consultants to navigate through the complicated 
application process. In addition, current HCPs are not being properly 
monitored to ensure compliance. Please explain what you plan to do to 
ensure that HCPs are permitted within an acceptable time frame and to 
ensure quality monitoring of HCPs.
    Answer. The Fish and Wildlife Service is fully engaged in working 
with all stakeholders in the development and implementation of Habitat 
Conservation Plans (HCP) in Washington State. Currently over 2.5 
million acres of forested lands and riparian areas in Washington are 
being managed under HCPs, providing long-term conservation for a wide 
variety of fish and wildlife species. Additionally, there are another 
25 HCPs being developed that will address forestry and water management 
issues on over one million acres in Washington State.
    The Service, in Washington State, has attempted to streamline 
strategies and coordination efforts to ensure better use of funding in 
a more timely fashion. Some examples of streamlining techniques used by 
the Service include: concurrent review of draft HCPs by field, 
Regional, and Solicitor staff, development of joint schedules with 
applicants, and development of Regional HCPs that have programmatic 
emphases which reduce the need for every landowner to submit an 
individual HCP. The Service is planning to offer to its staff a 
national workshop focused on streamlining of permitting programs such 
as HCPs. One goal of the workshop is to target administrative changes 
that can be implemented immediately to reduce the time and costs 
necessary to complete the permitting process. Because of the increased 
workload associated with processing HCPs, the Service has advised 
applicants to hire consultants to prepare NEPA documents and expedite 
the processing of HCP applications. The Service provides a grant 
program under Section 6 of the ESA that provides funding to applicants 
to offset their consultant costs.
    Question 134. Secretary Norton, Washington State agencies have 
expressed concerns that Fish and Wildlife Service will not be able to 
provide timely assistance to complete the Department of Natural 
Resources Forests and Fish Habitat Conservation Plan (HCP), a federal-
state venture. I am concerned that this will delay implementation and 
timber management that will adversely affect schools and other public 
construction dependent on forest management on state lands. Please 
explain what steps you plan to take to ensure timely implementation of 
the federal aspects of the Forest and Fish HCP?
    Answer. The Service has been providing technical assistance to the 
State of Washington since 1997 to negotiate improvements to the state's 
forest practice rules to provide better protection for listed 
salinonids and other aquatic species. After several years of 
collaborative effort, a report was prepared in 1999 (the Forests and 
Fish Report), which provided several recommendations for comprehensive 
improvements in the statutes, rules and implementation of state's 
forest practices. On February 14, 2002, Governor Gary Locke informed 
the Fish and Wildlife Service of the State's intent to apply for a 
Section 10 permit to obtain federal assurances for implementation of 
the improvements recommended in the FFR. In this regard, a project 
schedule has been developed in conjunction with the Washington 
Department of Natural Resources (WDNR), a dedicated fish and wildlife 
biologist was hired to work exclusively on the FFR HCP Adaptive 
Management Program, and a total of over $2 million (over two years) has 
been awarded to the State under the HCP Planning Assistance grant 
program to support this effort. Work is progressing on the Draft EIS 
through regularly scheduled meetings with the contractors working on 
the EIS, the state and other stakeholders. WDNR is also working on a 
draft of the HCP, and chapters of the document are being disseminated 
to the review agencies as they become available to expedite the 
process. Our collective objective is to have the DEIS and DHCP 
available for public comment by July 30, 2004, and the FEIS and FRCP 
available by April 15, 2005, and we anticipate finalizing our action by 
the June 30, 2005 target date.
    Finally, the Service has made a substantial commitment to the 
WDNR's Forests and Fish HCP. In both 2002 and 2003, the Service awarded 
grants, through the HCP Planning grants program, to this HCP. These 
grants total almost $2.2 million to date. The President's budget 
proposes an $8 million increase in the Cooperative Endangered Species 
Conservation Fund grants program. The State of Washington's Forests and 
Fish HCP is expected to continue to be a competitive applicant for this 
and other Service grant programs.
    Question 135. Secretary Norton, I am pleased to support the 
Interior Department's efforts to expand renewable energy opportunities 
on public lands. Please detail the renewable resources contained on 
public lands in Washington State that might benefit from this 
initiative.
    Answer. Of the 400,000 surface acres of BLM administered lands in 
the State of Washington, opportunities for producing energy from wind 
and geothermal resources are available and being evaluated, 
particularly in central Washington. The nationwide Wind Energy 
Development Programmatic Environmental Impact Statement will cover BLM-
administered lands in Washington. Additionally, BLM is allocating 
$100,000 to the BLM Oregon and Washington State Office for 
participation in the Federal Energy Regulatory Commission's licensing 
of hydroelectric projects in Oregon and Washington. In the BLM's 
Spokane District, there are 20 hydropower projects that are providing 
renewable energy from rivers and streams. Washington State has a highly 
successful forest products industry which is essential to the 
development of a bio-energy program. The Department of the Interior is 
working closely with the Department of Energy and Department of 
Agriculture to develop a comprehensive woody biomass utilization 
initiative, and recently signed a Memorandum of Understanding among the 
three Departments to ``support the utilization of woody biomass by-
products from restoration and fuels treatment projects wherever 
ecologically and economically appropriate and in accordance with the 
law''.
    Question 136. Secretary Norton, I understand that in an effort to 
increase the timber harvest under the 1994 Northwest Forest Plan, the 
Forest Service and the Bureau of Land Management plan to stop 
conducting detailed surveys of Washington State forest life. Please 
explain how the Department of the Interior will maintain the obligation 
under federal law to protect sensitive species without the Survey and 
Manage program. What other efforts is the Department of the Interior 
taking to try and meet the one billion board feet of timber harvest 
allowed under the 1994 Northwest Forest Plan?
    Answer. The 1994 Northwest Forest Plan (NWFP) was designed to 
provide a balance between protection for older forests, wildlife and 
waterways, and production of a sustainable and predictable level of 
timber supply on national forests and BLM-managed lands within the 
range of the northern spotted owl (generally western Oregon and 
Washington, and northwestern California).
    The agencies' preferred alternative would remove the Survey and 
Manage Mitigation Measure Standards and Guidelines contained in the 
Northwest Forest Plan. Under the preferred alternative, the species' 
habitat needs would rely on other elements of the Northwest Forest Plan 
and existing Forest Service Sensitive Species and the BLM Special 
Status Species policies. The objective of these policies is to avoid 
taking federal action that would contribute to the need to list a 
species under the Endangered Species Act. The Forest Service policy 
also meets the diversity and viability requirements of the National 
Forest Management Act and its implementing regulations.
    The decision to prepare the SEIS came as a result of a settlement 
of a lawsuit that involved the Department of the Interior, the 
Department of Agriculture, and a private timber organization, the 
Douglas Timber Operators. In their lawsuit, the Douglas Timber 
Operators claim the Survey and Manage provisions are excessive and 
unwarranted because they violate the Oregon & California Revested Lands 
Sustained Yield Management Act of 1937 and are beyond the authorities 
of the National Forest Management Act, the Federal Land Policy and 
Management Act, the National Environmental Policy Act, and the 
Endangered Species Act.
    The Final Supplemental Environmental Impact Statement (SEIS) 
released by the BLM and USDA Forest Service (USFS) addresses the 
protection of sensitive species through existing USFS Sensitive Species 
and BLM Special Status Species policies.
    In order to increase production goals, as well as to improve forest 
health, the BLM is implementing increased thinning of younger timber 
stands located in Late Successional Reserves identified in the NWFP. 
The intent of these activities is to accelerate attainment of old-
growth characteristics within these stands. While the thinnings are 
designed to achieve ecological goals, the by-product of the activities 
will often be logs of commercial size and value, which will be sold.
    Question 137. Secretary Norton, one of the most disturbing 
situations I hear from my Indian constituents is the trouble they have 
accessing Indian Health Clinics. As I understand it, if a tribal member 
has private insurance they are required to use it first, making Indian 
Health Clinic only providers of last resort. Practically, this means a 
tribal member could literally live across the street from the Indian 
Health Clinic, but has to drive off the reservation (sometimes several 
miles) to receive care. Please explain why Indian Health Clinics cannot 
take enrolled tribal members with private insurance plans.
    Answer. The BIA does not have responsibility for providing Indian 
Health Clinics. Indian Health Clinic accessibility questions would be 
best answered by the Indian Health Service (IHS), an agency within the 
Department of Health and Human Services. The IHS is the agency 
responsible for providing federal health services to American Indians 
and Alaska Natives.
    Question 138. Secretary Norton, the Bureau of Indian Affairs' 
fiscal year 2005 request for Indian Land and Water Claims Settlements 
and Miscellaneous Payment to Indians was cut $25,094,000 from its 
fiscal year 2004 enacted level. Please explain how these funds are used 
whether any of the cuts were discretionary as opposed to dictated by 
the completion of settlement payouts, and whether this account will be 
able to accommodate additional settlements in future years.
    Answer. The reduction is due in large part to the federal 
government's completing its commitments to several ongoing settlements. 
The attached table provides the reason for each of the changes made 
from the 2004 enacted level to the 2005 request. As additional 
settlements are enacted in future years, funding will be requested in 
the account to pay the settlements.
    Question 139. Secretary Norton, the Muckleshoot Tribal School Board 
requested information regarding the evaluation and ranking of its 2001 
replacement school application. Unfortunately, to date, the Office of 
Facilities Management and Construction only provided the Muckleshoot 
Tribal School Board with a list of the nine highest ranked schools, but 
did not provide any additional information or address the Tribe's 
concerns. Please provide a copy of the priority list of schools that 
are included to be added to the current school construction list 
including their position in the previously published list that have not 
received full funding: a copy of the complete ranking list of all 
schools that submitted applications for new school construction, based 
on the ratings by the Evaluation Committee: an explanation of the 
reasons for the Muckleshoot ranking based on the rating criteria: and a 
listing of the members of the Evaluation Committee and assignments.
    Answer. The Muckleshoot Tribal School is number 4 on the most 
recent priority list of 14 replacement schools that was transmitted to 
Congress on February 23, 2004. This list will also be published in the 
Federal Register in the very near future. The last five unfunded 
schools on the previous list are included in the 2005 President's 
Budget.
    Question 140. Secretary Norton, the Samish Indian Nation, based in 
Anacortes, Washington, underwent a 24-year struggle to regain its 
federal recognition after being mistakenly removed by the Bureau of 
Indian Affairs from a 1969 list of federally recognized tribes. Through 
a protracted administrative process and lengthy litigation, the Nation 
in 1996 finally had its federally recognized status reaffirmed by the 
Department of the Interior. The Nation is now working hard to rebuild 
its community and has found much difficulty obtaining basic services 
from the Bureau of Indian Affairs to which it is entitled as a 
federally recognized tribe, such as the ability to contract under P.L. 
93-638. Unfortunately, over the past few years, the Bureau of Indian 
Affairs has rejected all of the Nation's applications for contracts 
under P.L. 93-638 (e.g., housing improvement, social services, Indian 
child welfare, employment assistance, higher education, law 
enforcement, child protection, adult education, vocational training, 
and Johnson O'Malley) on the basis that there is essentially no room in 
the Bureau of Indian Affairs budget for the Nation.
    Please explain why the budget for the Bureau of Indian Affairs has 
failed to accommodate the Samish Indian Nation and the funding it needs 
to contract under P.L. 93-638 despite the Bureau's trust responsibility 
to the Nation to do so. What steps has the Bureau of Indian Affairs 
undertaken, or will undertake, to accommodate the Samish Indian 
Nation's contracting requests in fiscal year 2005 and in future 
budgets?
    Answer. Currently, the Department is involved in three lawsuits 
with the Samish Indian Tribe of Washington. To differing degrees, 
issues raised in this question are part of these lawsuits. The 
Department therefore cannot respond to your specific questions until 
these lawsuits are concluded. It should be noted, however, that the 
Samish Tribe received approximately $359,000 in FY 2004 through a P.L. 
93-638 contract.
    Question 141. Secretary Norton, I am sure you will agree that 
assisting Tribal governments in rebuilding their communities is one of 
the core responsibilities of the Bureau of Indian Affairs. However, 
despite the fact that the Samish Indian Nation's federal recognition 
was reaffirmed in 1996, the Bureau of Indian Affairs has yet to 
designate a service delivery area for the Nation. Please explain in 
detail why the Bureau of Indian Affairs has yet to establish a service 
delivery area for the Samish Tribe.
    Answer. Currently, the Department is involved in three lawsuits 
with the Samish Indian Tribe of Washington. The issue of the Samish 
Indian Tribes recognition being ``reaffirmed'' is part of these 
lawsuits. The Department first acknowledged the Samish Indian Tribe, 
Washington, as an Indian Tribe in 1996. Recently, the service area 
issue for the Samish Indian Tribe dropped out of one of these lawsuit. 
The Department and the Samish Indian Tribe have discussed this matter. 
The Department intends to resolve the service area issue through future 
discussions with the Samish Indian Tribe.
    Question 142. Secretary Norton, as you know, on September 25, 2003, 
in the case of Cobell v. Norton, U.S. District Judge Royce Lamberth 
ordered the Department of the Interior to account for all individual 
Indian assets held in trust since 1887. This accounting is critical if 
our government is to meet its federal trust responsibility and reach an 
equitable settlement over the funds owed to over 300,000 American 
Indians. As a member of the Senate Indian Affairs Committee, I feel 
strongly that the committee of jurisdiction should deal with this issue 
so that we can hear from the multiple stakeholders through the 
traditional hearing and legislative drafting process. Do you share the 
view that the Senate Indian Affairs Committee is the most appropriate 
body to deal with this issue? What recommendations do you have for the 
Committee?
    Answer. The Department has long believed the authorizing committees 
should deal with the issues surrounding the Cobell litigation. It is 
our recommendation that development of legislation that is fair to the 
plaintiffs and fair to the American taxpayers be the highest priority 
for the Senate Indian Affairs Committee during this year.
    Question 143. Secretary Norton, I understand from my staff and the 
experience of my fellow Senators that the Bureau of Indian Affairs has 
a policy of not responding to Congressional mail. In fact, I understand 
that the BIA Legislative Affairs staff will not return the calls of 
Senate staffers. Please explain how you justify this unacceptable 
behavior and what specific actions you will take to rectify this 
situation. Do you feel the responsibility of individual Senators to 
represent the concerns of their citizens and provide oversight of the 
Executive Branch does not apply to the Bureau of Indian Affairs or the 
Department of the Interior?
    Answer. No. We will work with the Assistant Secretary of Indian 
Affairs to ensure this situation is rectified.


</pre></body></html>
